<html>
<title> - H.R. 1964, NATIONAL PETROLEUM RESERVE ALASKA ACCESS ACT; H.R. 1965, FEDERAL LANDS JOBS AND ENERGY SECURITY ACT; H.R. 1394, PLANNING FOR AMERICAN ENERGY ACT OF 2013; AND H.R. 555, BLM LIVE INTERNET AUCTIONS ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 1964, NATIONAL PETROLEUM RESERVE ALASKA ACCESS ACT; H.R. 1965, 
 FEDERAL LANDS JOBS AND ENERGY SECURITY ACT; H.R. 1394, PLANNING FOR 
AMERICAN ENERGY ACT OF 2013; AND H.R. 555, BLM LIVE INTERNET AUCTIONS 
                                  ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, May 22, 2013

                               __________

                           Serial No. 113-21

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
81-285                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
                RUSH HOLT, NJ, Ranking Democratic Member

Louie Gohmert, TX                    Steven A. Horsford, NV
Rob Bishop, UT                       Matt Cartwright, PA
Robert J. Wittman, VA                Jim Costa, CA
Paul C. Broun, GA                    Niki Tsongas, MA
John Fleming, LA                     Jared Huffman, CA
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Cynthia M. Lummis, WY                Peter A. DeFazio, OR
Dan Benishek, MI                     Tony Cardenas, CA
Jeff Duncan, SC                      Raul M. Grijalva, AZ
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Bill Flores, TX                      Joe Garcia, FL
Mark E. Amodei, NV                   Vacancy
Steve Daines, MT                     Vacancy
Kevin Cramer, ND                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 22, 2013..........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................    34
        Prepared statement of....................................    36
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey..............................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3
    Tipton, Hon. Scott R., a Representative in Congress from the 
      State of Colorado..........................................     6
        Prepared statement on H.R. 1394..........................     8

Statement of Witnesses:
    Britain, William W., President/CEO, EnergyNet.com, Inc.......    55
        Prepared statement on H.R. 555...........................    56
    Brower, Charlotte E., Mayor, North Slope Borough, Alaska.....    26
        Prepared statement on H.R. 1964..........................    27
    Connell, Jamie, Acting Deputy Director, Bureau of Land 
      Management, U.S. Department of the Interior................     9
        Prepared statement on H.R. 1964, H.R. 1965, H.R. 1394, 
          and H.R. 555...........................................    11
    Ekstrom, Jack R., Vice President, Government and Corporate 
      Relations, Whiting Petroleum Corporation...................    51
        Prepared statement on H.R. 1964, H.R. 1965, H.R. 1394, 
          and H.R. 555...........................................    52
    Glenn, Richard K., Executive Vice-President, Lands and 
      Natural Resources, Arctic Slope Regional Corporation.......    47
        Prepared statement on H.R. 1964..........................    48
    Miller, Deborah S., Teacher, Author, Arctic Explorer, Guide, 
      Mother, and Founding Board Member, Alaska Wilderness League    61
        Prepared statement on H.R. 1964..........................    62
    Spehar, James G., Former Mayor and City Council Member, Grand 
      Junction, Colorado, Past President, Colorado Municipal 
      League, Former Mesa County (Colorado) Commissioner.........    68
        Prepared statement on H.R. 1965 and H.R. 1394............    70
    Sullivan, Dan, Commissioner, Department of Natural Resources, 
      State of Alaska............................................    16
        Prepared statement on H.R. 1964..........................    17

Additional materials submitted for the record:
    Bureau of Land Management, U.S. Department of the Interior, 
      September 13, 2011, Statement for the record,..............    59
    Governor Rolls Out ANWR Exploration Proposal for ANWR 1002 
      Area, Office of the Governor, State of Alaska..............    25
    Letter Submitted for the Record by The Honorable Doug Lamborn 
      From The Wilderness Society................................    78
    Letter Submitted for the Record from the Honorable Sean 
      Parnell, Governor, State of Alaska.........................    24
    List of documents retained in the Committee's files..........    82
                                     



 LEGISLATIVE HEARING ON H.R. 1964, ``NATIONAL PETROLEUM RESERVE ALASKA 
   ACCESS ACT''; H.R. 1965, ``FEDERAL LANDS JOBS AND ENERGY SECURITY 
  ACT''; H.R. 1394, ``PLANNING FOR AMERICAN ENERGY ACT OF 2013''; AND 
              H.R. 555, ``BLM LIVE INTERNET AUCTIONS ACT''

                              ----------                              


                        Wednesday, May 22, 2013

                        House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Wittman, Benishek, 
Daines, Cramer, Hastings, Holt, Costa, Huffman, and Cardenas.
    Also Present: Representative Tipton.
    Mr. Lamborn. The Committee will come to order. The Chairman 
notes the presence of a quorum, which, under Committee Rule 
3(e), is two Members. The Subcommittee on Energy and Mineral 
Resources is meeting today to hear testimony on a legislative 
hearing on four bills:
    H.R. 1964, by Hastings of Washington, the ``National 
Petroleum Reserve Alaska Access Act'';
    H.R. 1965, introduced by myself, the ``Federal Lands Jobs 
and Energy Security Act'';
    H.R. 1394, by Representative Tipton of Colorado, ``Planning 
for American Energy Act of 2013'';
    and H.R. 555, by Johnson of Ohio, ``BLM Live Internet 
Auctions Act.''
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member. However, I ask unanimous 
consent to include any other Members' opening statements in the 
hearing record, if submitted to the clerk by close of business 
today.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered.
    I also ask unanimous consent that Representative Tipton of 
Colorado be allowed to participate in today's hearing.
    [No response.]
    Mr. Lamborn. Hearing no objection?
    Dr. Holt. No objection.
    Mr. Lamborn. So ordered. I now recognize myself for 5 
minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. I would like to thank our witnesses for being 
here today. Some of you have come a long way and we appreciate 
that. Today we are meeting on four bills to expand American 
energy production, create American jobs, cut through 
bureaucratic red tape, and streamline a regulatory process that 
is forcing companies to avoid Federal land for energy 
production in search of State and private land more conducive 
to energy development.
    We will be hearing testimony on these four bills that I 
introduced earlier. H.R. 555, the BLM Live Internet Auctions 
Act, would bring BLM leasing into the 21st century by amending 
the Mineral Leasing Act to allow BLM to conduct lease sales 
through the Internet.
    H.R. 1964, the National Petroleum Reserve Alaska Access 
Act, would open up the NPR-A to oil and natural gas 
development, ensure that competitive leasing occurs, and 
nullify the Interior Department's integrated activity plan and 
Environmental Impact Statement that would close off nearly 50 
percent of the reserve, and that virtually denies access to a 
conservative estimate of over 2.7 billion barrels of oil.
    H.R. 1394, the Planning for American Energy Act of 2013, 
would require the Secretary of the Interior to establish an 
all-of-the-above 4-year energy production plan to ensure that 
the United States uses Federal lands to provide for our energy 
needs in the future.
    Additionally, we will hear testimony on legislation I have 
introduced, H.R. 1965, the Federal Lands Jobs and Energy 
Security Act. By focusing on energy permitting and leasing, 
this legislation would streamline the onshore permitting 
process, provide for onshore leasing certainty, and allow oil 
shale development to move forward, unencumbered by changing 
regulations and a fluctuating royalty rate.
    The Obama Administration has repeatedly claimed it is doing 
all they can to facilitate conventional and renewable energy 
development. However, their actions show otherwise. The 
Administration has repeatedly canceled lease sales, added 
additional lease terms and stipulations after a lease has been 
issued, and taken months, if not years, to issue APDs. We all 
remember one of the first actions of this Administration was to 
revoke dozens of leases after they had been fairly awarded and 
issued. Further, the Administration has made lease terms for 
oil shale development so adverse to development that they have 
received a minimal number of bids on the oil shale lease sales 
they have held.
    While States are issuing APDs within 30 days, or even a 
week, the Federal Government takes 270 days to issue an APD. 
H.R. 1965 would set firm timelines for this process, and 
require lawsuits to be filed in a timely fashion, so energy 
projects are not held up indefinitely. It would also direct 
resources to field offices so they are able to efficiently 
process renewable and conventional energy project permits on 
Federal lands. Additionally, this legislation would require the 
government to lease at least 25 percent of the acreage 
nominated for leasing.
    While the Administration claims they are moving forward 
with a robust, competitive leasing program, the facts tell us 
the opposite. In 2012, in my home State of Colorado, 220,000 
acres were identified and proposed for leasing, yet the 
Administration chose to lease just about 5,000, or 4 percent of 
these lands. In New Mexico, 15,500 out of more than 118,000 
areas nominated were released, and in Arizona there has not 
been a single lease sale, despite interest in nearly 50,000 
acres.
    Finally, my legislation would ensure regulatory certainty 
to allow oil shale development to progress. In the United 
States we are blessed with some of the largest and richest 
deposits of oil shale in the entire world. According to the 
U.S. Geological Survey, the Western United States may hold more 
than 1.5 trillion barrels of oil, 6 times Saudi Arabia's proven 
resources. However, this Administration has changed oil shale 
lease terms, making them so restrictive that there is little 
industry interest in this rich American resources.
    The Administration has recently released redrafted 
regulations for oil shale development. Yet these restrictive 
proposed regulations would continue to lock up American 
resources from development, leaving this tremendous potential 
resource virtually untouched. Each of the bills we will hear 
testimony on will take great steps forward to promote domestic 
energy security, economic development, and job creation. 
Combined, these bills reduce our dependence on foreign imports, 
generate revenue for the American treasury, and allow us to 
benefit from our country's amazing resources.
    I would like to thank the witnesses for taking the time to 
testify for us today, and I look forward to hearing their 
testimony.
    [The prepared statement of Mr. Lamborn follows:]

      Prepared Statement of The Honorable Doug Lamborn, Chairman, 
              Subcommittee on Energy and Mineral Resources

    I'd like to thank our witnesses for being with us today. Today we 
are meeting on four bills to expand American energy production, create 
American jobs, cut through bureaucratic red tape and streamline a 
regulatory process that is forcing companies to avoid Federal land for 
energy production in search of State and private land more amenable to 
energy development.
    We will be hearing witness testimony on four bills. H.R. 555, the 
``BLM Live Internet Auctions Act,'' would bring BLM leasing into the 
21st century by amending the Mineral Leasing Act to allow BLM to 
conduct lease sales through the Internet.
    H.R. 1964, the ``National Petroleum Reserve Alaska Access Act'' 
would open up the NPR-A to oil and natural gas development, ensure 
competitive leasing occurs, and nullify the Interior Department's 
Integrated Activity Plan and Environmental Impact Statement that would 
close off nearly 50 percent of the reserve and virtually denies access 
to a conservative estimate of over 2.7 billion barrels of oil.
    H.R. 1394, the ``Planning for American Energy Act of 2013'' would 
require the Secretary of the Interior to establish an all-of-the above 
4-year energy production plan to ensure that the United States uses 
Federal lands to provide for our energy needs in the future.
    Additionally we will hear testimony on legislation I have 
introduced, H.R. 1965, the ``Federal Lands Jobs and Energy Security 
Act.'' By focusing on energy permitting and leasing, this legislation 
would streamline the onshore permitting process, provide for onshore 
leasing certainty, and allow oil shale development to move forward 
unencumbered by changing regulations and a fluctuating royalty rate.
    The Obama Administration has repeatedly claimed it is doing all 
they can to facilitate conventional and renewable energy development. 
However their actions show otherwise.
    The Administration has repeatedly canceled lease sales, added 
additional lease terms and stipulations after a lease has been issued, 
and taken months, if not years to issue APDs. We all remember one of 
the first actions of this Administration was to revoke dozens of leases 
after they had been fairly won and issued. Further, the Administration 
has made lease terms for oil shale development so adverse to 
development they have received a minimal number of bids on the oil 
shale lease sales they have held.
    While States are issuing APDs within 30 days, or even a week, the 
Federal Government takes 270 days to issue an APD. H.R. 1965 would set 
firm timelines for the Government to issue APDs and require lawsuits to 
be filed in a timely fashion so energy projects are not held up 
indefinitely. It would also direct resources to field offices so they 
are able to efficiently process renewable and conventional energy 
projects permits on Federal lands.
    Additionally, this legislation would require the Government to 
lease at least 25 percent of the acreage nominated for leasing. While 
the Administration claims they are moving forward with a robust 
competitive leasing program, the facts tell us the opposite. In 2012 in 
my home State of Colorado, 220,000 acres were identified and proposed 
for leasing, yet the Administration chose to lease just over 5,000--or 
4 percent of those lands. In New Mexico, 15,500 out of 118,781 acres 
nominated were leased, and in Arizona there has not been a single lease 
sale, despite interest in nearly 50,000 acres.
    Finally, my legislation would ensure regulatory certainty to allow 
oil shale development to progress. In the United States we are blessed 
with some of the largest, richest deposits of oil shale in the entire 
world. According to the U.S. Geological Survey, the Western United 
States may hold more than 1.5 trillion barrels of oil--six times Saudi 
Arabia's proven resources. However this Administration has changed oil 
shale lease terms, making them so restrictive there is little industry 
interest in this rich American resource. The Administration has 
recently released redrafted regulations for oil shale development, yet 
these restrictive proposed regulations would continue to lock up 
American resources from development, leaving this tremendous potential 
resource virtually untouched.
    Each of the bills we will hear testimony on will take great steps 
forward to promote domestic energy security, economic development and 
job creation. Combined, these bills reduce our dependence on foreign 
imports, generate revenue for the American treasury, and allow us to 
benefit from our country's resources. I'd like to thank the witnesses 
for taking the time to testify for us today and I look forward to 
hearing their testimony.
                                 ______
                                 
    Mr. Lamborn. I now recognize the Ranking Member, the 
gentleman from New Jersey, Mr. Holt, for his opening statement.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Dr. Holt. Thank you, Mr. Chairman. The bills we are 
considering today have been put forward by the Majority in the 
previous Congress, and rejected in that Congress. Now, I have 
nothing against persistence. We should continue to try to 
legislate for what we think is right.
    But these legislations, which are intended to make sure 
that the oil and gas companies operate, in the Chairman's 
words, ``unencumbered by regulations,'' seem really unnecessary 
to see that these companies and interests are unanswerable to 
the public and to the regulators operating on behalf of the 
public. It is not as though the regulations to ensure that 
drilling on public lands is happening safely. It is not as if 
those regulations are hurting the oil and gas industry.
    In fact, it is a pretty good time to be in the oil and gas 
business. The top five oil companies, need I remind the 
Committee, made $119 billion in profits last year. We produced 
the most oil from Federal lands onshore in a decade last year, 
16 percent higher than in the end of the previous 
Administration, despite the Majority's claims that this 
Administration is somehow hurting things. The industry has 
begun drilling more new wells on public lands onshore in the 
last 4 years than in the corresponding time in the previous 
Administration.
    So, I do have to ask why. What is the justification for 
doing these things, other than to give the energy interests a 
free ride? The Republican bills would elevate speed over 
safety, while opening new, huge swaths of new public land. And 
the bills would relegate hunting and fishing and recreation and 
conservation behind energy production. They do nothing to 
ensure that American oil and natural gas benefits the American 
consumers, and is not just an export commodity.
    Maybe the Majority has been reading too many science 
fiction novels. It is sort of like the Land that Time Forgot. 
These bills are a relic of a bygone era. It is as if we were 
looking at fossilized pieces of legislation that might have 
been more relevant at an earlier time. They turn over the 
control of leasing on our public lands to the industry, by 
requiring leasing to occur on at least 25 percent of whatever 
public lands the oil and gas industry nominates each year, 
regardless of whether or not drilling would be appropriate. If 
you do the math, you will see pretty quickly nearly all public 
land could be turned over to the oil industry under such a 
requirement.
    It would put a barrier to anybody challenging decisions by 
essentially imposing a poll tax, or a speech tax. You would 
have to put up $5,000 that you wouldn't get back to challenge 
an oil or gas leasing decision. This is not the Judiciary 
Committee, but it certainly, I think, is worth considering 
whether this violates the First Amendment to the Constitution.
    Anyway, the provisions are unwise and, I would argue, 
unwarranted. Why are we doing this? It is not as if we have to 
streamline the process. Sure, we want efficiency. Of course, we 
want fairness. But it is not as if the protections that we need 
for health and safety and the environment are stifling the 
industry.
    Now, I should point out we are considering a couple of 
other bills today, Mr. Tipton's bill about planning, which, in 
concept, is a good idea. I have a lot of problems with the 
details of it, but it is certainly worth undertaking the 
discussion. And Mr. Johnson's Internet auctions, to me, at 
least, makes sense.
    So, I think we will have the opportunity for some good 
discussion today, and I thank the Chair for setting this up.
    [The prepared statement of Dr. Holt follows:]

    Prepared Statement of The Honorable Rush Holt, Ranking Member, 
              Subcommittee on Energy and Mineral Resources

    Thank you.
    Mr. Chairman, the bills we are considering today have already been 
put forward by the Majority in the last Congress and rejected by the 
Senate. These bills have already proven to be too controversial to pass 
the Senate yet have been reintroduced virtually unchanged.
    Once again, these Republican drilling bills would elevate speed 
over safety while opening huge new swaths of public land. These bills 
would relegate hunting, fishing, recreation and conservation behind 
energy production. And these bills would continue to do nothing to 
ensure that American oil, fuel and natural gas benefits American 
consumers and is not just exported overseas.
    This hearing is like a legislative time capsule from a time before 
U.S. oil production had reached its highest level in 20 years; from a 
time before our dependence on foreign oil had dropped to 36 percent; 
from a time before oil production from Federal lands onshore had 
reached its highest levels in a decade.
    Maybe the Majority has been reading one too many science fiction 
novels because here in the Natural Resources Committee it is like ``the 
Land that Time Forgot,'' where we have the story of a party stranded on 
a desert island lost to the changes of the outside world.
    These bills are relics of a bygone area--as relevant as the 
telegraph or the horse and buggy. They are fossilized pieces of 
legislation that the Majority continues to dust off and move through 
this Committee with complete disregard for the increases in America's 
oil production that have occurred under President Obama.
    These bills would impose a ``shot clock'' on the Interior 
Department's review of drilling permits. After 60 days, drilling 
permits would be automatically ``deemed approved,'' regardless of 
whether safety reviews had been completed. We know that between 1998 
and 2011, one-fifth of the drilling violations on public lands were 
related to blowout preventers or other well control equipment, yet, 
these bills would make drilling less safe.
    These bills would turn over control of leasing on our public lands 
to the oil industry by requiring leasing to occur on at least 25 
percent of whatever public lands the oil and gas industry nominates 
every year, regardless of whether or not drilling would be appropriate. 
If you do the math, you see that pretty quickly, nearly all public land 
could be turned over to the oil industry under such a requirement.
    These bills would impose a protest fee ``poll tax'' where anyone 
wanting to challenge an oil and gas leasing decision has to put up 
$5,000 that they do not get back, regardless of the outcome of the 
protest. It would take a person earning the minimum wage 4 months 
working full time and foregoing feeding and sheltering himself and his 
family in order to pay this protest fee. The First Amendment to the 
Constitution provides that the people have the right to petition the 
Government for a redress of grievances yet this provision is a 
violation of that first amendment right.
    These provisions are unwise and unwarranted.
    Meanwhile, while we are considering four Republican bills today, 
the Majority refused to add even a single Democratic bill to this 
hearing. The Majority refused to consider legislation I have introduced 
with Ranking Member Markey to ensure that the oil and natural gas 
produced from our public lands cannot be exported. The Majority refused 
to consider Democratic legislation to get oil companies to start 
drilling on the tens of millions of acres of public land they already 
have under lease on which they are doing nothing. The Majority refused 
to consider legislation to help reduce our deficit by ensuring that big 
oil cannot continue to drill for taxpayer-owned resources for free.
    Those Democratic proposals would actually increase our energy 
security, help consumers and reduce our deficit. That is what we should 
be doing today.
                                 ______
                                 
    Mr. Lamborn. Thank you. Also, as this is a legislative 
hearing, I ask unanimous consent to allow Representative Tipton 
to give an opening statement on his bill, H.R. 1394.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered.
    Representative Tipton, you are recognized for 5 minutes.

  STATEMENT OF THE HON. SCOTT R. TIPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Tipton. Thank you, Mr. Chairman. And thank you for 
convening today's hearing on this critical package of onshore 
energy reform legislation, including my bill, H.R. 1394.
    At a time when our country needs to be able to focus on 
domestic energy production and job creation, it is critical 
that we have an established national energy plan to be able to 
meet our needs. As it stands, the Administration has no 
comprehensive plan for meeting the inevitable demand for energy 
in both traditional and alternative sources. And, historically, 
our Nation has lacked a clear plan for energy development on 
public lands.
    The Planning for American Energy Act puts a common-sense 
plan into place by requiring that our Nation's energy needs are 
met through development of traditional and alternative energy 
resources, with a true all-of-the-above approach that will 
lower the cost of energy, jump-start economic recovery, and get 
Americans working. Currently, unpredictable leasing programs, 
permitting backlogs, inconsistent policies and regulations, as 
well as rampant litigation, greatly inhibit private companies 
from producing energy on federally controlled lands to meet the 
needs of American families.
    This convoluted framework stymies the development of all 
energy sources, from oil and gas to wind, solar, and 
hydropower. This Administration's policies have rendered energy 
production on public lands so costly and burdensome that 
companies which once provided valuable jobs in the Third 
District of Colorado and across the West are being forced to 
seek out State and private lands for development. This can have 
a massive impact on employment numbers in districts that are 
largely comprised of Federal lands.
    Since President Obama took office, total fossil fuel 
production has dropped 7 percent. From 2010 to 2011, total 
Federal onshore oil and natural gas production has decreased 13 
percent and 10 percent, respectively. President Obama 
continually claims that production is increasing. It is 
critical to note that this is attributed exclusively to 
production on State and private lands, where the 
Administration's policies do not govern energy policy.
    All production on State and private lands has risen by 11 
percent, and natural gas production has increased by 40 percent 
since 2000. These figures are particularly disconcerting at a 
time when rising gas prices are devastating American families 
and small businesses. Similar impediments affect wind and solar 
energy industries, as well. During the past 4 years, the wind 
industry has added over 35 percent of all new generating 
capacity in the United States, and U.S. wind power capacity 
represents more than 20 percent of the world's installed wind 
power.
    Nevertheless, due to unreliable Federal policies and over-
regulation, the wind industry has lost 10,000 jobs since 2009, 
according to a recent report. Limitations on the zones in which 
solar development is permitted have concerned many solar energy 
producers and hindered their ability to be able to provide 
additional electricity to the grid, lower costs for taxpayers, 
and provide clean energy jobs.
    The Planning for American Energy Act would set the United 
States on a path for energy development that follows the most 
logical criteria: the needs of our people. Under the 
legislation, the non-partisan Energy Information Administration 
provides the projected energy needs of the United States for 
the next 30 years to the Secretary of the Interior and the 
Secretary of Agriculture, on which they can then base their 4-
year production plans.
    The bill requires that all domestic sources--oil, gas, 
coal, wind, solar, hydropower, geothermal, oil shale, and 
minerals--needed for energy development be included in the 
plan. It accomplishes this responsibly, without removing a 
single environmental safeguard. Because many local communities 
in districts like mine place such a large role in domestic 
energy production, H.R. 1394 requires the Secretary of the 
Interior and the Secretary of Agriculture to solicit input from 
affected States, federally recognized tribes, local 
governments, and the public, in developing this 4-year 
strategy.
    The bottom line is the American people need a reliable 
supply of affordable energy. We need to put into place a 
sustainable energy plan that responsibly advances the 
development of alternative and traditional resources, generates 
economic growth, lowers energy costs, and gets Americans 
working. My bill puts words into action, and would force the 
Administration to be able to meet the American needs for 
energy, and to be able to put our people back to work.
    Thank you, Mr. Chairman, for allowing me to make a comment 
in this hearing.
    [The prepared statement of Mr. Tipton follows:]

 Prepared Statement of The Honorable Scott R. Tipton, a Representative 
                 in Congress From the State of Colorado

          H.R. 1394--PLANNING FOR AMERICAN ENERGY ACT OF 2013

    Thank you Mr. Chairman for convening today's hearing on this 
critical package of onshore energy reform legislation including my 
bill, H.R. 1394.
    At a time when our country needs to focus on domestic energy 
production and job creation, it is critical that we have an established 
national energy plan to meet our needs. As it stands, the 
Administration has no comprehensive plan for meeting the inevitable 
demand for energy in both traditional and alternative sources and 
historically, our Nation has lacked a clear plan for energy development 
on public lands.
    The Planning for American Energy Act puts a common sense plan into 
place by requiring that our Nation's energy needs are met through 
development of traditional and alternative energy resources with a true 
all-of-the-above approach that will lower the cost of energy, jumpstart 
economic recovery, and get Americans working.
    Currently, unpredictable leasing programs, permitting backlogs, 
inconsistent policies and regulations, as well as rampant litigation 
greatly inhibit private companies from producing energy on federally 
controlled lands to meet the needs of American families. This 
convoluted framework stymies the development of all energy sources, 
from oil and gas to wind, solar, and hydropower.
    This Administration's policies have rendered energy production on 
public lands so costly and burdensome that companies which once 
provided valuable jobs in the Third District of Colorado and across the 
West are being forced to seek out State and private lands for 
development. This can have a massive impact on employment numbers in 
districts that are largely comprised of Federal lands.
    Since President Obama took office total fossil fuel production has 
dropped 7 percent. From 2010 to 2011 total Federal onshore oil and 
natural gas production is has decreased 13 percent and 10 percent 
respectively. President Obama continually claims that production is 
increasing. It is critical to note that this is attributed exclusively 
to production on State and private lands where the Administration's 
policies do not govern energy policy. Oil production on state and 
private lands has risen by 11 percent and natural gas production has 
increased by 40 percent since 2000. These figures are particularly 
disconcerting at a time when rising gas prices are devastating American 
families and small businesses.
    Similar impediments affect the wind and solar energy industries as 
well. During the past 4 years, the wind industry has added over 35 
percent of all new generating capacity in the United States, and U.S. 
wind power capacity represents more than 20 percent of the world's 
installed wind power.
    Nevertheless, due to unreliable Federal policies and 
overregulation, the wind industry has lost 10,000 jobs since 2009 
according to a recent report. Limitations on the zones in which solar 
development is permitted have concerned many in solar energy producers 
and hindered their ability to provide additional electricity to the 
grid, lower costs for ratepayers, and provide clean energy jobs.
    The Planning for American Energy Act would set the United States on 
a path for energy development that follows the most logical criteria--
the needs of our people. Under the legislation, the non-partisan Energy 
Information Administration provides the projected energy needs of the 
United States for the next 30 years to the Secretary of the interior 
and the Secretary of Agriculture on which they then base 4 year 
production plans.
    The bill requires that all domestic sources; oil, natural gas, 
coal, wind, solar, hydropower, geothermal, oil shale and minerals 
needed for energy development be included in the plan. It accomplishes 
this responsibly, without removing a single environmental safeguard.
    Because local communities in districts like mine play such a large 
role in domestic energy production, H.R. 1394 requires that the 
Secretary of the Interior and the Secretary of Agriculture solicit 
input from affected States, federally recognized tribes, local 
governments, and the public in developing each 4 year strategy.
    The bottom line is that the American people need a reliable supply 
of affordable energy. We need to put into place a sustainable energy 
plan that responsibly advances the development of alternative and 
traditional resources, generates economic growth, lowers energy costs, 
and gets Americans working. My bill puts words into action, and would 
force the Administration to meet America's energy needs.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Lamborn. You are welcome. We will now hear from our 
witnesses. I invite them to come forward.
    We have Ms. Jamie Connell, BLM Acting Deputy Director of 
the U.S. Department of the Interior; Commissioner Dan Sullivan, 
Department of Natural Resources for the State of Alaska, and 
Ms. Charlotte Brower, Mayor of the North Slope Borough.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to 5 minutes.
    Our microphones are not automatic, so you need to turn them 
on when you are ready to begin.
    I also want to explain how our timing lights work. When you 
begin to speak, our clerk will start the timer and a green 
light will appear. After 4 minutes a yellow light will appear. 
And at that time you should begin to conclude your statement. 
After 5 minutes the red light comes on, and you may complete 
your sentence. But at that time I must ask that you stop.
    Ms. Connell, you may begin. I do have to first say, and I 
don't know if this was you or your staff who were derelict, but 
the written materials pertaining to your testimony were not 
given to the Subcommittee on time. They were late, they were 
submitted past the deadline. And, as a result, staff had to 
work extra hours in the evening to accommodate that. So we 
would ask that you just make sure that not happen in the 
future.
    Ms. Connell. We will do our best. I appreciate that. Thank 
you.
    Mr. Lamborn. OK, thank you. You may begin.

 STATEMENT OF JAMIE CONNELL, ACTING DEPUTY DIRECTOR, BUREAU OF 
        LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Connell. Mr. Chairman, members of the Committee, thank 
you for the opportunity to present the views of the Department 
of the Interior on four bills pertaining to the development of 
renewable and conventional energy on our Nation's public lands. 
The Bureau of Land Management, the BLM, administers over 245 
million surface acres and approximately 700 million acres of 
onshore subsurface mineral estate throughout the Nation.
    Together with the Bureau of Indian Affairs, the BLM also 
provides permitting and oversight services on approximately 56 
million acres of land held in trust by the Federal Government 
on behalf of tribes and individual Indian owners. The BLM's 
management of public land resources and protection of public 
land values results in the extraordinary economic benefits to 
local economies and to this Nation. These benefits are not only 
economic, but also contribute substantially to America's energy 
security.
    From the beginning of this Administration, the Department 
of the Interior has made it a priority to permit scientifically 
based, environmentally sound development of renewable and 
conventional energy and mineral resources on the Nation's 
public lands. Our goal is to ensure a clean energy future 
through environmentally responsible development of conventional 
and renewable energy on Federal and Indian lands.
    Nearly 38 million acres of Federal mineral estate are under 
lease for oil and gas. Since 2008, the BLM has approved more 
than 23,000 drilling permits. The BLM is also investing in 
environmentally sound renewable energy projects on public 
lands, harnessing wind, solar, and geothermal resources that 
will provide enough energy and electricity to power nearly 4 
million homes, and support an estimated 14,000 construction and 
operations jobs.
    The BLM supports H.R. 555, which allows the BLM to expand 
upon its success with the oil and gas Internet lease auction 
pilot project. The BLM would welcome the opportunity to work 
with the sponsor and the Committee to address some minor 
amendments, including discretion on the timing of lease sales.
    Regarding H.R. 1964, the Administration remains firmly 
committed to facilitating environmentally responsible 
development in the National Petroleum Reserve Alaska, and we 
welcome the opportunity to work with the Committee and the 
public to continue to develop NPR-A in an environmentally 
responsible manner. President Obama directed the Secretary of 
the Interior to conduct annual oil and gas lease sales in NPR-
A. The BLM has followed through on this direction, with lease 
sales in the NPR-A in December 2011, November 2012, and is 
planning another lease sale in November of this year.
    The Department supports the goal of facilitating the 
development of oil and gas resources in NPR-A, but opposes 
provisions of H.R. 1964, including the issuance of a new 
integrated activity plan and Environmental Impact Statement 
that would undermine the extensive public resource planning 
that the BLM completed for NPR-A recently; the timelines 
required by the bill that may result in shortcuts to public 
involvement; requirement of other laws, including the National 
Environmental Policy Act; and the suggestion that the 
Department pre-approve rights of ways on millions of acres of 
lands that industry may never seek to develop.
    The Department opposes H.R. 1965, the Federal Lands Jobs 
and Energy Act. The bill would essentially strip the BLM of its 
ability to issue APDs based on important reviews and 
clearances. The provisions establishing the Federal permit 
streamlining projects would be time-consuming and costly. The 
bill also would reverse our oil and gas leasing reform policy 
that established an orderly, open, and environmentally sound 
process for developing oil and gas resources on public lands.
    Finally, the bill would overturn the BLM's administration 
of a balanced, carefully planned research development and 
demonstration oil shale program, and the proposed rule would 
ensure a fair return to the American taxpayers and evaluate 
necessary safeguards to protect water resources and wildlife 
habitat.
    Finally, the Department opposes H.R. 1394, the Planning for 
American Energy Act. The bill would direct Federal land 
managers to administer public lands for the primary purpose of 
energy development, rather than balanced multiple-use 
management, which includes a public process based onsite-
specific analysis and consideration. The bill's requirement 
that the Department take all necessary actions to achieve 
energy production goals on Federal lands fails to acknowledge 
the comprehensive approach to expand safe and responsible 
energy development already in place.
    Thank you for the opportunity to present testimony; I would 
be happy to answer any questions.
    [The prepared statement of Ms. Connell follows:]

 Prepare Statement of Jamie Connell, Acting Deputy Director, Bureau of 
            Land Management, U.S. Department of the Interior

  H.R. 1964--NATIONAL PETROLEUM RESERVE ALASKA ACCESS ACT; H.R. 1965--
  FEDERAL LANDS JOBS AND ENERGY SECURITY ACT; H.R. 1394--PLANNING FOR 
 AMERICAN ENERGY ACT OF 2013; AND H.R. 555--BLM LIVE INTERNET AUCTIONS 
                                  ACT

    Thank you for the opportunity to present the views of the 
Department of the Interior (Department) on four bills pertaining to the 
development of renewable and conventional energy and other mineral 
resources on our Nation's onshore public lands: H.R. 1964, the National 
Petroleum Reserve Alaska Access Act; H.R. 1965, the Federal Lands Jobs 
and Energy Security Act; H.R. 1394, the Planning for American Energy 
Act of 2013; and H.R. 555, the BLM Live Internet Auctions Act.
Background
    Since the beginning of the Obama Administration, the Department of 
the Interior (``Department'') has made it a priority to permit 
scientifically-based, environmentally-sound development of renewable 
and conventional energy and mineral resources on the Nation's public 
lands. Through the Secretary's New Energy Frontier initiative, the 
Department has been at the forefront of the Administration's efforts, 
outlined in the Blueprint for a Secure Energy Future to create jobs, to 
reduce the Nation's dependence on fossil fuels and oil imports, and to 
reduce carbon and other pollution associated with energy production and 
use. Facilitating renewable energy development is a major component of 
the Department's all-of-the-above energy strategy along with effective 
management of conventional energy programs.
    The Bureau of Land Management (BLM) administers over 245 million 
surface acres--more than any other Federal agency--which are located 
primarily in 12 Western States, including Alaska, as well as 
approximately 700 million acres of onshore subsurface mineral estate 
throughout the Nation. The BLM, together with the Bureau of Indian 
Affairs, also provides permitting and oversight services on 
approximately 56 million acres of land held in trust by the Federal 
Government on behalf of tribes and individual Indian owners.
    The BLM's management of public land resources and protection of 
public land values results in extraordinary economic benefits to local 
communities and to the Nation. Public lands generated an estimated $4.6 
billion in revenues in 2012, returning more than $4 for every $1 
invested. Beyond this efficient production of non-tax revenue for the 
U.S. Treasury, the BLM's management of public lands supports 
significant economic activity and hundreds of thousands of jobs for 
Americans. One critical economic benefit BLM provides the Nation is its 
contribution to America's energy portfolio. We estimate that oil, gas, 
coal, and non-metallic mineral activities on the Federal mineral estate 
directly and indirectly support nearly 2 percent of jobs in Colorado, 
nearly 10 percent of jobs in New Mexico, and over 40 percent of jobs in 
Wyoming. The BLM continues its important role in supplying feedstock 
and transmission access for the Nation's electrical infrastructure. 
Approximately 12 percent of domestic natural gas production, which is 
helping drive a resurgence in American industry, is derived from BLM-
managed lands. In addition to responding to increased demand for 
natural gas, coal produced from BLM's Federal mineral estate has 
provided approximately 22 percent of U.S. electrical production 
annually over the last 10 years.
    These benefits are not only economic, but also contribute 
substantially to America's energy security. Nearly 38 million acres of 
Federal mineral estate are under lease for oil and gas; however, only 
about 33 percent of this acreage is currently in production. 
Approximately 7,000 applications for permits to drill (APDs) have been 
approved by the BLM, but were not drilled as of September 30, 2012.
    Since 2008, the BLM has approved more than 23,000 APDs. As part of 
the BLM's ongoing efforts to ensure efficient processing of oil and gas 
permit applications, the BLM is preparing to implement new automated 
tracking systems that could reduce the review period for drilling 
permits by two-thirds and expedite the sale and processing of Federal 
oil and gas leases. The new system for drilling permits will track 
applications through the entire review process and quickly flag any 
missing or incomplete information--greatly reducing the back-and-forth 
between the BLM and industry applicants currently needed to amend paper 
applications.
    The BLM also is investing in environmentally sound renewable energy 
projects, harnessing wind, solar, and geothermal resources on the 
public lands. Since 2009, the BLM has approved 41 renewable energy 
projects, including 23 utility-scale solar facilities, 8 wind farms, 
and 10 geothermal projects, with associated transmission corridors and 
other infrastructure to connect to established power grids. If fully 
built, these projects have the potential to provide more than 12,000 
megawatts of power--enough electricity to power nearly 4 million 
homes--and support an estimated 14,000 construction and operations 
jobs. For calendar years 2013 and 2014, the BLM has identified 23 
renewable energy projects for review, including 14 solar facilities, 6 
wind farms and 3 geothermal plants.
    The BLM is working with local communities, tribes, State 
regulators, industry, and other Federal agencies to ensure a clean 
energy future. Our goal is environmentally responsible development of 
conventional and renewable energy and other mineral resources on 
Federal and Indian lands with a fair return to the American people, 
tribes, and individual Indians for the use of their resources.

H.R. 555, ``BLM Live Internet Auctions Act''
    H.R. 555 amends the Mineral Leasing Act to authorize the Secretary 
of the Interior to conduct onshore oil and gas lease sales through 
Internet-based bidding methods, in order to expand the Nation's onshore 
leasing program and to ensure the best return to the Federal taxpayer. 
The bill also requires the Secretary to conduct an analysis of the 
first 10 Internet-based lease sales and report the findings of the 
analysis to Congress within 90 days following the 10th Internet-based 
lease sale.

Analysis
    The BLM supports H.R. 555, which allows the BLM to expand upon its 
success with the oil and gas Internet lease auction pilot project. The 
BLM would like to work with the Committee to include related language 
in the bill to provide the Secretary the discretion to hold lease sales 
(via the Internet or oral auction) more or less frequently than 
quarterly (as currently required by the Mineral Leasing Act) or within 
any State in which lease tracts are available and there is public 
interest. Finally, the BLM would like to work with the Committee on 
technical and clarifying modifications to the bill.

H.R. 1964, ``National Petroleum Reserve Alaska Access Act''
    H.R. 1964, the National Petroleum Reserve Alaska Access Act, 
directs the Department to continue a program of competitive oil and gas 
leasing in the 23 million-acre National Petroleum Reserve in Alaska 
(NPR-A). On May 14, 2011, as part of an effort to increase safe and 
responsible domestic oil production, President Obama directed the 
Secretary of the Interior to conduct annual oil and gas lease sales in 
the NPR-A. The BLM has followed through on this direction with lease 
sales in the NPR-A in December 2011, November 2012, and is planning 
another lease sale in November of this year. The Department supports 
the goal of facilitating the development of oil and gas resources in 
the NPR-A in an environmentally responsible manner, but has several 
significant concerns with the bill.

Analysis
    Many of the activities called for in H.R. 1964 are within the scope 
of existing Department authorities and consistent with our priorities 
and activities already underway. Under these authorities, 191 tracts 
are currently leased by the BLM in the NPR-A with a leased acreage of 
over 1.5 million acres. We would like to work with the Committee to 
move toward our shared goal of improving the efficiency of the oil and 
gas leasing and development process while maintaining safety and 
environmental standards in the NPR-A.
    The Department opposes bill provisions regarding the issuance of a 
new Integrated Activity Plan and Environmental Impact Statement (IAP/
EIS). These provisions would undermine the extensive public resource 
planning process recently completed for the NPR-A. In 2010, the BLM 
moved to establish consistent management direction for the entire NPR-
A, including the unplanned southern portion of the Reserve, through an 
IAP/EIS. The Secretary signed a Record of Decision (ROD) on February 
21, 2013, that presents a balanced approach to responsible oil and gas 
development while providing protection to valuable surface and 
subsistence resources. The IAP/EIS and subsequent decision was the 
result of careful resource analysis and extensive public input. The 
lands made available for development under the ROD contain 72 percent 
of the NPR-A's estimated economically recoverable oil and over half of 
the estimated economically recoverable gas. The ROD also requires that 
the BLM establish an ``NPR-A Working Group'' that will include 
representatives of North Slope tribal entities, Native corporations, 
and State and local governments--entities directly affected by 
development within the NPR-A. We will be moving forward with this 
effort in the very near future.
    The bill requires the U.S. Geological Survey (USGS) to complete an 
updated comprehensive assessment of technically recoverable 
conventional and unconventional fossil fuel resources in the NPR-A. In 
2011, the USGS released its assessment of the economic recoverability 
of undiscovered, conventional oil and gas resources within the NPR-A 
and adjacent State waters. Because the USGS used all available 
information in its assessment and no new data or information has become 
available since that time, the USGS believes reassessing these 
resources now would not yield additional information. The USGS is 
evaluating the unconventional petroleum resources in NPR-A, with the 
plan to assess these resources in the future. Furthermore, a coalbed 
methane assessment for the North Slope, including the NPR-A, was 
completed in 2006. The results for other unconventional resources on 
the North Slope, including shale gas and tight gas, are expected to be 
available in 2 to 3 years.
    It is not clear from the language in the bill whether a coal 
assessment would be required. The North Slope of Alaska contains coal 
resources, but the cost of mining and transporting the coal would be 
substantial. The USGS, in cooperation with the Department of Energy, 
National Energy Technology Laboratory, published a database compilation 
of published and nonconfidential unpublished coal data from the Cook 
Inlet and North Slope areas of Alaska. Despite the database, there are 
relatively few data with which to conduct a robust coal assessment.

    The Department has additional concerns with the bill, including:

    <bullet>  The implication that all requested permits be issued, 
regardless of a proposed action's potential impacts or the availability 
of alternatives;
    <bullet>  The timelines required by the bill that may result in 
shortcuts to public involvement, comment, and review requirements of 
other laws, including the National Environmental Policy Act;
    <bullet>  The suggestion that the Department pre-approve rights-of-
way on millions of acres of lands that industry may never seek to 
develop; and
    <bullet>  The requirement that the Secretary must ensure that other 
Federal permitting agencies comply with the deadlines set forth in the 
bill [Sec. 4(b)].

    If enacted, these requirements would likely divert BLM resources 
and result in the delay of further development of NPR-A resources in an 
environmentally responsible manner. In addition, the requirement of a 
``direct'' transportation route for oil and gas resources does not 
allow for considerations such as land ownership, geography, and 
protection of surface resources. The current IAP/EIS allows for site-
specific applications for a pipeline through most of the BLM-managed 
lands on the North Slope. The BLM's existing regulations already 
establish deadlines for appropriate authorizations and require prompt 
notification of any delays.
    The BLM's leasing program in the NPR-A ensures that safe and 
responsible exploration and development of domestic oil and natural gas 
resources can be done in a manner that also protects wildlife and 
habitat, and honors the subsistence values of rural residents and 
Alaska Natives. We welcome the opportunity to work with the Committee, 
the oil and gas industry, the Alaska Native community, and the public 
to continue to develop the NPR-A in an environmentally responsible 
manner. The Administration remains firmly committed to facilitating 
environmentally responsible development in this region.

H.R. 1965, ``Federal Lands Jobs and Energy Security Act''
    H.R. 1965 includes various provisions intended to expedite energy 
development, but often at the expense of sound public land management, 
public participation, and environmental review. The Department opposes 
the bill for the reasons outlined below.

Title I, Energy Permitting
    H.R. 1965 (Title I) makes numerous changes to existing authorities 
governing the permitting of Federal energy resources. The bill 
generally requires the BLM to process APDs within 60 days (unless NEPA 
review is incomplete), and stipulates that a submitted APD is deemed 
approved if the Secretary has not made a decision within 60 days. The 
bill makes permanent the current $6,500 permit processing fee, but 
provides that the BLM can only collect the fee when a decision is 
issued on the APD, cannot collect a fee on a resubmitted APD, and 
requires that 50 percent of the processing fee be transferred to the 
BLM Field Office in which the permit is processed. The bill provides 
that, subject to appropriation and up to an overall total of $10 
million per year, not less than 25 percent of wind and solar right-of-
way (ROW) authorization fees shall be available to the field office 
responsible for the lands where they are collected, not less than 25 
percent of the fees shall be available to the BLM for permit approval 
activities, and not less than 25 percent shall be available to the 
Department of Interior for department-wide permitting activities. The 
bill also requires a $5,000 documentation fee for each protest filed on 
these permits with 50 percent of these fees remaining with local BLM 
Field Offices.
    The bill requires the BLM to establish a ``Federal Permit 
Streamlining Project'' in every BLM office that processes energy 
projects, and explicitly states the BLM may not require a finding of 
extraordinary circumstances when using section 390 categorical 
exclusions of the Energy Policy Act. Finally, Title I, Subtitle D 
includes provisions pertaining to judicial review procedures.

Analysis
    The Department opposes Title I of H.R. 1965 as it would essentially 
strip from the BLM its ability to issue APDs based on important reviews 
and clearances--including cultural surveys and necessary tribal 
consultation--and mandates unreasonable timeframes for processing APDs. 
The Department strongly supports efforts to encourage wind and solar 
energy development and believes funding support for those objectives 
can best be achieved through a combination of user fees and regular 
discretionary appropriations. In addition, the BLM opposes the $5,000 
documentation fee submitted for each protest because it is an 
inappropriate economic barrier for the public to seek judicial review 
or redress of an agency decision.
    The bill's provisions establishing ``Federal Permit Streamlining 
Projects'' are impractical, and would likely result in the 
establishment of such project offices in over 50 of the BLM's Field 
Offices. Coordination of these projects among multiple agencies would 
be extremely time consuming and costly, and would hinder the BLM's 
ability to conduct its other vital land management responsibilities. In 
addition, the BLM views the availability of the extraordinary 
circumstances review an important step in assuring that a categorically 
excluded action does not have impacts that are unanticipated, and thus 
opposes the bill's provisions on this point. Finally, the Department of 
the Interior defers to the Department of Justice regarding the 
provisions of the bill (Title I, Subtitle D) pertaining to judicial 
review procedures.

Title II, Oil & Gas Leasing
    H.R. 1965 (Title II) reverses the oil and gas leasing reform policy 
initiated by former Secretary Salazar in January 2010 that was 
implemented to ensure environmental protection of important natural 
resources on BLM lands (BLM Instruction Memorandum 2010-117). The bill 
also requires the BLM to offer for lease no fewer than 25 percent of 
lease nominations in areas open to leasing each year; and requires that 
the BLM actively lease in areas designated as open when Resource 
Management Plans are revised; and states that acreages offered for 
lease shall not be subject to protest. Finally, the bill allows lease 
sales to be categorically excluded from further NEPA review.

Analysis
    The Department opposes Title II of H.R. 1965. The leasing reforms 
that were implemented in 2010 established an orderly, open, and 
environmentally sound process for developing oil and gas resources on 
public lands in a manner that has maintained robust leasing and 
permitting. The reforms focus on making oil and gas leasing more 
predictable, increasing certainty for stakeholders, including industry, 
and restoring needed balance with comprehensive upfront analysis added 
to the development process. Requiring the BLM to offer no fewer than 25 
percent of lease nominations in areas open to leasing each year is an 
arbitrary standard that undermines rational and diligent review on the 
basis of greatest development potential, as well as other economic, 
environmental, and health considerations.
    The BLM has concerns with the requirement that it actively lease in 
areas designated as open when Resource Management Plans are revised. 
Continuing to lease in some open areas in which recreational or 
ecological values are at risk could prevent the BLM from protecting 
important resource values. It could be counterproductive to efforts to 
develop energy resources on Federal lands if the result is greater 
near-term resource damage that, in turn, would necessitate more onerous 
restrictions on future energy development activities. In addition, 
limiting protests of oil and gas leases and providing categorical 
exclusions from further NEPA review limits the public's opportunity to 
engage in decisions about the lands the BLM manages. Americans who have 
valid and important concerns should have an opportunity to participate 
in the management of lands that belong to them.

Title III, Oil Shale
    H.R. 1965 includes provisions (Title III) regarding oil shale 
planning, leasing, and regulation. The bill would deem final the BLM's 
2008 oil shale regulations, stipulate that the 2008 Resource Management 
Plan amendments satisfy all legal and procedural requirements under any 
law, and require the Secretary to implement those actions without any 
further administrative action. The bill also would require the 
Secretary to hold, within 180 days of enactment, a lease sale for 
additional parcels for oil shale research, development, and 
demonstration leases, and, no later than January 1, 2016, no less than 
five commercial lease sales in areas with the most potential for oil 
shale development.

Analysis
    The Department opposes the provisions in Title III of H.R. 1965 
because they undermine the BLM's careful and transparent development of 
oil shale regulations and environmental plans initiated in response to 
the current state of technology and a Government Accountability Office 
(GAO) report finding that oil shale development could have significant 
negative impacts on the quality and quantity of water resources. The 
bill also disregards the fact that there are currently no proven 
economically viable and environmentally sound ways in the United States 
to extract liquid fuel or suitable refinery feedstock from oil shale on 
a commercial scale.
    Beginning in 2010, the BLM began a new public planning process to 
take a fresh look at the land use plan allocation decisions made in 
2008. The BLM concluded that, in light of the many fundamental 
questions about oil shale that need to be answered, it is vital that 
the BLM administer a balanced, carefully planned research, development, 
and demonstration (RD&D) program that will help inform the agency's 
decision on how to authorize future commercial oil shale development on 
public lands. On March 22, 2013, the BLM published a Record of Decision 
amending several resource management plans to encourage RD&D of oil 
shale on nearly 700,000 acres in Colorado, Utah and Wyoming. 
Additionally, the BLM has developed a proposed rule governing oil shale 
development with the goals of ensuring a fair return to the American 
taxpayer, encouraging responsible development of Federal oil shale 
resources, and evaluating necessary safeguards to protect scarce water 
resources and important wildlife habitat. In late March 2013, the BLM 
published these proposed revisions for public comment. In November 
2012, the BLM signed two leases for RD&D oil shale proposals to 
encourage industry to create and test technologies aimed at developing 
oil shale resources on a commercial scale. H.R. 1965 would disrupt 
these public planning and regulatory efforts.

H.R. 1394, ``Planning for American Energy Act of 2013''
    H.R. 1394 directs the Secretary of the Interior to develop a 4-year 
strategy for the development of onshore Federal energy and minerals 
resources--including a strategic production objective of oil and 
natural gas; coal; critical minerals; helium, wind, solar, biomass, 
hydropower, and geothermal energy; oil shale; and other energy 
production technology sources. The bill requires that actions be taken 
to achieve certain energy production objectives unless the President 
determines it is not in the national security or economic interests of 
the United States to do so. The bill further directs the completion of 
a programmatic EIS in accordance with the National Environmental Policy 
Act (NEPA) which is deemed sufficient to satisfy requirements of 
resource management planning and land use planning associated with 
implementation of the 4-year strategy.

Analysis
    The Department opposes H.R. 1394 because it would direct Federal 
land managers to manage lands for the primary purpose of energy 
development rather than make thoughtful decisions on balanced multiple-
use management through a public process based on site specific analysis 
and consideration. Guided by the Federal Land Policy and Management 
Act, the BLM's unique multiple-use management of public lands includes 
activities as varied as livestock grazing; outdoor recreation, 
including hunting and fishing; the conservation of natural, historical, 
cultural, and other important resources--as well as development of both 
conventional and renewable energy resources.
    H.R. 1394 also imposes additional layers of administrative planning 
for energy development on top of those which the BLM is already 
undertaking through existing authorities. These authorities already 
provide extensive legal and regulatory direction for the development of 
oil, gas, and coal from the public lands. In addition, the BLM has 
recently made significant progress on programmatic planning for a suite 
of renewable and unconventional energy resources, including wind, 
solar, geothermal and oil shale.
    Finally, the bill's requirement that the Department take all 
necessary actions to achieve energy production goals on Federal lands 
fails to acknowledge the comprehensive approach to support expansion of 
safe and responsible energy development already in place and that the 
Department is committed to maintaining. The BLM has made significant 
progress in the past several years, reducing protests and appeals by 
better planning through its leasing reforms. As stated above, we 
continue to offer a healthy number and quality of lease sales, with 
good industry response, and an emphasis on permitting has produced a 
large inventory of permits and acreage that industry has yet to 
develop.

Conclusion
    Thank you for the opportunity to present testimony on these four 
bills.
                                 ______
                                 
    Mr. Lamborn. All right. I am sure you will have some.
    Commissioner Sullivan.

STATEMENT OF DAN SULLIVAN, COMMISSIONER, DEPARTMENT OF NATURAL 
                   RESOURCES, STATE OF ALASKA

    Mr. Sullivan. Good morning, Chairman Lamborn, Ranking 
Member Holt. Thank you for the opportunity to be here again. It 
is an honor to be able to talk about Alaska energy issues with 
this Committee. Thank you.
    Mr. Chairman, it is truly an exciting time for American's 
energy sector. We are seeing an American energy renaissance, 
particularly with regard to hydrocarbon production on private 
lands, and that is having an enormous impact in terms of jobs, 
trade, deficit issues, even potentially foreign policy and 
national security issues.
    Alaska, which is one of the world's great hydrocarbon 
regions, is focused on doing its part to contribute to this 
energy renaissance. We just had a very, very successful State 
legislative session, where we enacted tax reform, significant 
permitting reform, an interior energy plan, opportunities to 
commercialize our abundant North Slope gas, and we have also 
had recent reforms in the Cook Inlet hydrocarbon basin, near 
Anchorage, as a result of those reforms on regulation and tax 
issues. That basin is starting to turn around in a very, very 
significant way, producing more oil and gas.
    But, Mr. Chairman, as you know, over half of Alaska is 
Federal lands, controlled by this body and Federal agencies. We 
believe it is important that they do their part in promoting 
the American energy renaissance in Alaska, and that means 
increased access to Federal lands, where estimates of energy 
resources are in the tens of billions of barrels of oil and 
hundreds of trillions of cubic feet of gas.
    But in the past 4 years, Alaska's access--indeed, America's 
access--to Federal lands in Alaska has been significantly 
restricted, and we fear more lost opportunity coming soon. This 
is a significant concern for Alaskans, and should be a concern 
for the Congress. I would like to provide two noteworthy 
examples.
    First, the National Petroleum Reserve of Alaska, which was 
set aside by Congress to help secure a supply of oil and gas 
for our country. After a planning process that virtually 
ignored the State of Alaska's numerous comments, the Department 
of the Interior withdrew almost half, 11 million acres, of NPR 
lands from oil and gas leasing. Interior's record of decision 
also made the ability to construct a pipeline across NPR-A to 
Pump Station 1 of the Trans-Alaska Pipeline more uncertain.
    Second, with regard to the Arctic National Wildlife Refuge, 
we fear a replay of the NPR process and result. The Department 
of the Interior is soon to release a Comprehensive Management 
Plan for ANWR that, among other things, will likely ignore 
Congress's directive to assess the oil and gas resource 
potential in the coastal area of ANWR often known as the 1002 
Area.
    There are three common themes that play here. Both NPR-A 
and the 1002 Area in Alaska have enormous resource potential, 
very likely some of the largest oil and gas basins in North 
America. Because of this, Congress has, in Federal law, 
emphasized the importance of assessing these areas for oil and 
gas exploration and possibly development.
    And, third, despite these congressional directives, the 
Federal Government has chosen to selectively disregard 
important Federal laws and the concerns of the State of Alaska 
and our citizens by significantly restricting and limiting 
access to these lands.
    So, what is the State of Alaska doing? We have asked the 
Federal Government to start over, with regard to an NPR-A 
integrated activity plan. And, therefore, the goals of H.R. 
1964 and the other bills here are goals that the State 
supports.
    And with regard to the upcoming ANWR Comprehensive 
Management Plan, we have decided to do the Federal Government's 
work for them. On Monday, Governor Parnell and I announced the 
release of Alaska's 1002 Area Assessment and Exploration 
Proposal, which brings the State of Alaska's world-class 
expertise, experience, highest environmental standards, best 
practices, and new technology, and significant capital, $50 
million of the State's money, to conduct a 7-year exploration 
program in the 1002 Area.
    The goal of this world-class scientific proposal is to 
enable the Congress and the American people to definitively 
know what abundance of resource wealth lies beneath the 1002 
Area. It is a modest proposal. We think it can get bipartisan 
support. Representative Holt, I would love to brief you on this 
in more detail.
    We have presented it to the Department of the Interior, and 
we have asked them to include this as part of their 
comprehensive ANWR Management Plan that is going to be coming 
out soon. And we certainly, of course, would welcome Congress's 
support of this proposal because we think it asks a very 
important question: Why would you not want to know what the 
resource potential is in the 1002 Area, when your mission is to 
manage that land? Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Sullivan follows:]

Prepared Statement of Dan Sullivan, Commissioner, Department of Natural 
                       Resources, State of Alaska

      H.R. 1964, ``NATIONAL PETROLEUM RESERVE ALASKA ACCESS ACT''

I. Introduction
    Chairman Lamborn, Ranking Member Holt, and members of the House 
Subcommittee on Energy and Mineral Resources, on behalf of Governor 
Sean Parnell, the State of Alaska welcomes this opportunity to testify 
as part of this Committee's important work to protect and expand U.S. 
onshore energy production on Federal lands.
    In particular, I thank you for the opportunity to emphasize to this 
Committee and to the rest of your colleagues in the U.S. Congress the 
important role that the National Petroleum Reserve--Alaska (NPR-A) 
serves in the State of Alaska and its enormous potential for 
responsible resource development. But in order to reach this potential, 
we must see a shift in Federal decision making. The State of Alaska has 
continued to express our serious concerns with recent Federal planning 
processes for the NPR-A and the Arctic National Wildlife Refuge (ANWR) 
that disregard the State's comments and are likely contrary to the 
Alaska National Interest Lands and Conservation Act (ANILCA). We are 
ready and willing to partner with the Federal Government to assess oil 
and gas potential and responsibly develop these areas for the benefit 
of Alaska and the United States.

Biographical Information
    Before getting into substantive matters, I would like to briefly 
mention my professional background as it pertains to this testimony. I 
have been serving as Commissioner of the Alaska Department of Natural 
Resources (DNR), a State agency of over 1,100 personnel, since December 
2010. DNR manages one of the largest portfolios of oil, gas, minerals, 
land, water, timber, and renewable energy resources in the world, and 
is staffed by some of the world's leading experts on responsible 
exploration and development in the Arctic.
    Prior to being appointed as the DNR Commissioner, I have served as 
Alaska's Attorney General and the U.S. Assistant Secretary of State for 
Economic, Energy, and Business Affairs.

Overview of Today's Testimony
    Alaska's North Slope is one of the most prolific and productive 
hydrocarbon basins in North America. Its resource base has been the 
foundation of the State's economy for 40 years, and continues to offer 
opportunities to Alaska and the Nation as a whole.
    Recent years have seen a surge in investment in the oil and gas 
industry, and increases in unconventional production in the continental 
United States have created an energy boom that few would have predicted 
10 years ago. The strategic benefits of this surge in domestic energy 
production are numerous, ranging from employment opportunities in an 
otherwise troubled economy to increased energy security and a 
strengthened foreign policy.
    However, even in this environment, throughput in the Trans Alaska 
Pipeline System (TAPS) has steadily declined since the 1990s despite 
the enormous conventional resources that remain on Alaska's North 
Slope, and the untold unconventional resources that are beginning to be 
explored.
    It is time for Alaska to take its place in the oil and gas 
renaissance that is occurring in the rest of the United States. Under 
Governor Parnell's leadership and the Alaska State Legislature's major 
actions during the 2013 legislative session, the State of Alaska is 
doing its part to reform and modernize our permitting system, lease 
acreage in order to spur exploration and development, and increase our 
competitiveness through oil tax reform.
    Unfortunately, we continue to have serious concerns about access to 
Federal lands for hydrocarbon exploration and development in Alaska. 
Federal permitting has been an anchor on responsible resource 
development on State lands, and highly prospective Federal lands--such 
as the NPR-A and ANWR--have either been effectively locked up with 
onerous permitting and regulatory delays and bad planning, or excluded 
from exploration and development entirely.

    My testimony today will focus on the following:

    <bullet>  NPR-A and the ANWR 1002 Area are enormous hydrocarbon 
basins that, once properly assessed and responsibly developed, would 
help reverse the TAPS throughput decline.
    <bullet>  Selection of the B-2 Preferred Alternative in the NPR-A 
Final Integrated Activity Plan (IAP) and Environmental Impact Statement 
(EIS) does not reflect the State of Alaska's comments and concerns. We 
have therefore asked that the current process be stopped and for the 
Bureau of Land Management (BLM) to reengage with the State in a 
meaningful, productive discussion to develop an alternative for the 
IAP.
    <bullet>  The Draft Comprehensive Conservation Plan (CCP) for ANWR 
is essentially unresponsive to the State of Alaska's concerns and is 
biased against an honest assessment of resource development potential 
for the ANWR 1002 Area. In fact, it does not include an assessment of 
oil and gas potential at all, which we believe is required by law.
    <bullet>  Therefore, the State of Alaska has taken this requirement 
upon ourselves and submitted a comprehensive ``Oil and Gas Resource 
Evaluation and Exploration Proposal for the ANWR 1002 Area'' to 
Department of Interior (DOI) Secretary Jewell on Monday, May 20, 2013. 
Additionally, in his letter to Secretary Jewell, Governor Parnell 
announced that the State is not only lending its expertise, but also 
its checkbook to fund up to $50 million toward implementing the 3D 
seismic program for the 1002 Area if the Federal Government shows a 
positive indication that they would partner with the State on such a 
program.

    As this testimony will demonstrate, the State of Alaska supports 
legislative measures that promote access to Federal lands for 
responsible resource development and bring timeliness and efficiency to 
the Federal land management and permitting processes. Federal policy 
must take a new direction to realize the opportunities and strategic 
benefits that responsible resource development plays for the Nation. 
The State of Alaska fully supports H.R. 1964, which includes the 
following measures:

  1. Expeditious leasing program;
  2. Pipeline and road corridor permitting and construction;
  3. Reset of an Integrated Activity Plan;
  4. Holding the Secretary of the Interior to reasonable development 
        goals;
  5. Holding the Department of the Interior to transparent permitting 
        deadlines; and
  6. Updating the Resource Assessment within the NPR-A, which we assume 
        would include both seismic and drilling activities.

II. The NPR-A and the ANWR 1002 Area Offer Enormous Potential for 
        Responsible Resource Development
    Alaska is one of the Nation's most critical and prolific oil-
producing States. Even though production is only about one-third of 
what it was at its peak in 1989, Alaska's North Slope, both on and 
offshore, remains a world-class hydrocarbon basin with extraordinary 
potential. According to the U.S. Geological Survey (USGS), Alaska 
accounts for over 30 percent of the Nation's technically recoverable 
oil and gas resources, with the North Slope estimated to hold 
approximately 40 billion barrels of technically recoverable 
conventional oil and 236 trillion cubic feet of natural gas. These 
numbers are likely dwarfed by Alaska's unconventional resources, such 
as shale oil and gas, heavy and viscous oil, and gas hydrates.

National Petroleum Reserve--Alaska (NPR-A)
    In 2010, the USGS estimated that 896 million barrels of 
conventional, undiscovered oil and 53 trillion cubic feet of 
conventional, undiscovered non-associated gas exist within NPR-A and 
adjacent State waters. Unfortunately the 2010 assessment significantly 
reduced previous estimates, but did not include important geologic and 
geophysical data sets. The 2010 assessment also did not benefit from 
complete review and input from local experts. The State sent several 
letters pointing out flaws in the information and analysis relied on to 
lower the estimates.
    Regardless, these estimates are still significant and developing 
these resources would help stimulate Alaska's economy and contribute to 
the Nation's energy needs.
    On May 14, 2011, President Obama directed the DOI to conduct annual 
oil and gas lease sales in the NPR-A, and on December 7, 2011, the BLM 
generated winning bids totaling $3,069,638 and covering 17 tracts on 
about 141,739 acres in their NPR-A oil and gas lease sale. As noted by 
BLM, the sale demonstrated industry interest in areas with high 
resource potential adjacent to State of Alaska lease tracts. The 2012 
lease sale generated winning bids totaling $898,900 and covering 14 
tracts on about 160,088 acres.

Arctic National Wildlife Refuge (ANWR) 1002 Area
    The ANWR 1002 Area consists of 1.5 million acres of highly 
prospective terrain in the northeastern portion of the North Slope 
along the northern coast of ANWR. The region is situated between the 
prolific North Slope oil fields to the west and the petroleum-rich 
Canadian Mackenzie Delta province to the east. Both areas have proven 
reserves of interest to each nation. In the United States, a gas field 
with a significant volume of recoverable liquid hydrocarbons is being 
developed at Point Thomson just west of the ANWR boundary. According to 
the most recent comprehensive assessment, most geologists regard the 
1002 Area as the most prospective unexplored onshore area in North 
America.
    In 1998, the USGS estimated that the entire ANWR assessment area, 
including State and Native interests, contains between 5.7 and 16 
billion barrels of technically recoverable oil, with a mean (expected 
value) of 10.4 billion barrels. Most of this volume of oil, 74 percent, 
was ascribed to the federally controlled 1002 Area, with the range of 
predicted technically recoverable oil between 4.3 and 11.8 billion 
barrels, with a mean of 7.7 billion barrels. For comparison, the 
Prudhoe Bay field, the largest oil field in North America, was 
originally estimated to hold 9.6 billion barrels that was deemed 
technically recoverable by its primary operator, BP. Cumulative 
production to date has exceeded 12 billion barrels of oil. The Prudhoe 
Bay field was the impetus for the construction of TAPS and sent Alaska 
oil production to a peak level of 2.2 million barrels per day in 1988. 
Alaska daily production has dropped below 600,000 barrels per day in 
2012.

III. The NPR-A Final IAP EIS Disregards the State of Alaska's Concerns 
        and Should Be Repealed and a New IAP Issued That Encourages 
        Accessing and Developing Abundant Hydrocarbon Reserves Within 
        the Reserve
    While the State of Alaska generally supports the overall intent of 
the NPR-A IAP EIS planning process to provide further opportunities for 
oil and gas exploration in the reserve, we have continually expressed 
our serious concerns regarding many aspects of the plan, most recently 
the selection of the B-2 Preferred Alternative in the Final IAP EIS. As 
recent as January 29, 2013, Governor Parnell asked Secretary Salazar to 
stop the current planning process and re-engage with the State in a 
meaningful productive discussion to develop an alternative for the IAP.
    On September 12, 2012, Governor Parnell notified Secretary Salazar 
that the State was withdrawing from the planning process as a 
cooperating agency under the National Environmental Policy Act of 1969 
(NEPA) because of repeated refusals by the BLM to consider the State's 
issues and concerns. The surprise announcement of the B-2 Preferred 
Alternative without prior notice or discussions with the State or the 
North Slope Borough convinced the State a meaningful process was not 
going to be provided. While the State is willing to work with BLM 
again, the State will not participate in another flawed ``check the 
box'' type of process.
    As presently selected, the B-2 Preferred Alternative continues to 
selectively disregard Congressional direction provided under the Naval 
Petroleum Reserves Production Act of 1976 (Production Act), as amended; 
the Alaska National Interest Lands Conservation Act (ANILCA); and the 
Federal Land Policy and Management Act of 1976, and inappropriately 
applies administrative policy to the NPR-A. Congressional intent for 
the Production Act clearly indicates that the Secretary's authority to 
protect surface values in the Reserve was intended to minimize adverse 
impacts on the environment, not to be used as a prohibition on oil and 
gas activities. The purpose of the withdrawal that created the NPR-A 
was to secure a supply of oil and gas. All subsequent Congressional 
direction authorizes the Secretary to manage activities in the NPR-A 
consistent with its primary purpose to responsibly explore and develop 
oil and gas resources. The B-2 Preferred Alternative is inconsistent 
with this mandate.
    The foundation for the B-2 Preferred Alternative is in the USGS's 
2010 updated assessment of oil and gas resources in the NPR-A. The 
survey estimates quantities of technically recoverable but undiscovered 
conventional oil and gas in the NPR-A. As stated above, the 2010 
assessment significantly reduced previous estimates, but did not 
include important geologic and geophysical data sets. The 2010 
assessment also did not benefit from complete review and input from 
local experts. The State sent several letters pointing out flaws in the 
information and analysis relied on to lower the estimates. Since these 
estimates are the foundation for the IAP and EIS, it is imperative the 
information is accurate.
    While encouraged by Secretary Salazar's intent stated in the 
December 19, 2012, Memorandum to BLM to ensure that the plan clarifies 
that ``. . . nothing in the IAP/EIS is intended to act as a bar to 
potential pipelines or otherwise make construction of such pipelines 
impracticable,'' there are numerous aspects of the plan that, if left 
unchanged, will both hamper construction of pipelines necessary to 
transport offshore oil and gas resources to TAPS, including resources 
from State offshore leases, and preclude oil and gas exploration and 
development in the NPR-A.
    The Memorandum also directed BLM to engage in additional outreach 
efforts with local communities to look for ways to ensure continuing 
dialogue with local communities and tribes on key implementation 
issues, such as future pipeline issues, leasing questions, subsistence 
issues and related matters. While additional outreach is both welcome 
and appropriate, since the B-2 Preferred Alternative did not receive 
public review as required under NEPA, the State has strongly urged that 
a new public comment period be added.
    Other specific issues the State has raised regarding the B-2 
Preferred Alternative include: management of the Reserve as a 
conservation system unit; wilderness reviews and management consistent 
with wilderness characteristics; Wild and Scenic River reviews; 
restrictions on potential pipeline development; and general ownership 
and development issues.

IV. The ANWR CCP Does Not Include an Assessment of the 1002 Area's 
        Potential for Oil and Gas Exploration and Development as 
        Required by Law
    Unfortunately, the same flaws in the NPR-A IAP EIS process are 
being repeated by the ANWR Draft Comprehensive Conservation Plan (CCP) 
and EIS. In some ways, they are premised on the same informational gaps 
and concerns.
    The State of Alaska participated in several scoping and comment 
periods concerning this plan. Our comments and letters encouraged the 
DOI to consider the potential for oil and gas exploration and 
development in the 1002 Area. Indeed, we believe that such 
consideration is required by law. This is an important point that 
deserves a detailed explanation.
    When I served as Attorney General for the State of Alaska, I 
submitted a comment letter to the manager of ANWR on the initial CCP 
and EIS Notice of Intent. The following is an excerpt from this letter, 
making the case that the Department of Interior's position lacks legal 
authority.
    The purpose of the Notice was to advise Federal and State agencies 
and the public of (1) the Service's ``intention to conduct detailed 
planning on this refuge and (2) [to] obtain suggestions and information 
on the scope of issues to be considered in the EIS and during the 
development of the CCP.'' \1\ The Notice also explained that the 
Service will review whether to recommend that Congress place ANWR lands 
within the National Wilderness Preservation System,\2\ but did not 
consider oil and gas exploration or development.
---------------------------------------------------------------------------
    \1\ 75 Fed. Reg. 17763, 17764 (April 7, 2010).
    \2\ 75 Fed. Reg. at 17763-64.
---------------------------------------------------------------------------
    The Service has said that it will not consider oil and gas 
development before it issues a revised CCP and, apparently, the EIS.\3\ 
It explained that drilling in ANWR is off-limits and only Congress has 
the authority to lift the ban.\4\ No other explanation for limiting the 
comments was given. The Service therefore concluded that it is 
unnecessary to require the agency to consider the environmental impacts 
of a prohibited activity.
---------------------------------------------------------------------------
    \3\ 75 Fed. Reg. at 17764.
    \4\ See 16 U.S.C. Sec. 3142(i) (``Until otherwise provided for in 
law enacted after December 2, 1980, all public lands within the coastal 
plain are withdrawn from all forms of entry or appropriation under the 
mining laws, and from operation of the mineral leasing laws, of the 
United States.''); 16 U.S.C. Sec. 3231 (the process for allowing the 
President to recommend to Congress to open Federal lands within Alaska 
to mineral development does not apply to lands within ANWR).
---------------------------------------------------------------------------
    There are at least three significant problems with the Service's 
position. First, NEPA provides that Federal agencies must ``study, 
develop, and describe appropriate alternatives to recommended courses 
of action in any proposal which involves unresolved conflicts 
concerning alternative uses of available resources.'' \5\ There is 
obviously a conflict over alternative uses for the 1002 Area. Hence, 
the Service must consider oil and gas development as an alternative.
---------------------------------------------------------------------------
    \5\ 42 U.S.C. Sec. 4332; N. Idaho Cmty. Action Network v. U.S. 
Dep't of Transp., 545 F.3d 1147, 1153 (9th Cir. 2008) (``This 
`alternatives provision' . . . requires the agency to give full and 
meaningful consideration to all reasonable alternatives.''); California 
v. Block, 690 F.2d 753 (9th Cir. 1982) (holding that the agency should 
have considered the alternative of allocating more than one-third of 
the land to the wilderness category).
---------------------------------------------------------------------------
    Second, ``[t]he mere fact that an alternative requires legislative 
implementation does not automatically establish it as beyond the domain 
of what is required for discussion, particularly since NEPA was 
intended to provide a basis for consideration and choice by the 
decision makers in the legislative as well as the executive branch.'' 
\6\ Thus, the Service's rationale for limiting public comment--i.e., 
because Congress alone has the power to lift the ban on drilling, it 
cannot or should not consider oil and gas development as an 
alternative--is a rationale that courts have rejected.
---------------------------------------------------------------------------
    \6\ Natural Res. Defense Council, Inc. v. Morton, 458 F.2d 827, 837 
(D.C. Cir. 1972); see also Save Our Cumberland Mts. v. Kempthorne, 453 
F.3d 334, 343-344 (6th Cir. 2006) (observing that statutory limitations 
on an agency's decision making authority cannot limit the range of 
alternatives an agency must consider). See generally D. Mandelker NEPA 
Law and Litigation Sec. Sec. 9:19, 9:24 (2d. ed. 2007) (collecting 
cases).
---------------------------------------------------------------------------
    Third, where an action is taken pursuant to a specific statute, the 
statutory objectives of the project serve as a guide to determine the 
reasonableness of an agency's decision to limit the scope of an EIS.\7\ 
Here, the Service has unreasonably restricted the scope of the public 
comment period to exclude discussion of oil and gas development because 
ANILCA expressly requires the Service to consider how oil and gas 
development will impact wildlife and the environment.
---------------------------------------------------------------------------
    \7\ Westlands Water Dist. v. U.S. Dep't of the Interior, 376 F.3d 
853, 866 (9th Cir. 2004).
---------------------------------------------------------------------------
    More specifically, ANILCA provides that the purpose of Section 1002 
``is to provide for a comprehensive and continuing inventory of the 
assessment of the fish and wildlife resources . . . an analysis of the 
impacts of oil and gas exploration development, and production, and to 
authorize exploratory activity within the coastal plain[.]'' \8\ The 
statute goes on to provide that the Secretary must also provide 
Congress with recommendations ``with respect to whether further 
exploration for, and the development and production of, oil and gas 
within the coastal plain should be permitted and, if so, what 
additional legal authority is necessary to ensure that the adverse 
effects of such activities on fish and wildlife, their habitats, and 
other resources are avoided or minimized.'' \9\ Similarly, Section 1005 
of ANILCA provides that the Secretary ``shall work closely with the 
State of Alaska and Native Village and Regional Corporations in 
evaluating the impacts of oil and gas exploration, development, and 
production . . . on the wildlife resources of these lands[.]''
---------------------------------------------------------------------------
    \8\ 16 U.S.C. Sec. 3142(a).
    \9\ 16 U.S.C. Sec. 3142(h)(6).

---------------------------------------------------------------------------
    Accordingly, because the Department of Interior, and therefore the 
Service, is expressly required by statute to evaluate the impacts of 
oil and gas exploration, it is a violation of NEPA for the Service to 
limit the scope of public comments on this issue.
    Indeed, the Service's decision to restrict public comment begs 
several questions: How can the Service know if new information exists 
related to the environmental effects of oil and gas development if it 
refuses to consider public comments on this issue? And how can the 
Service say that it is ``looking for meaningful comments that will help 
determine the desired future conditions of the Refuge and address the 
full range of purposes'' but then go on to limit the scope of public 
comment?
    Despite these and many other comments, and to our disappointment 
and our Nation's detriment, the DOI has indicated it will not address 
oil and gas issues in the ANWR planning document.
    The ANWR 1002 Area was specifically set aside for the future study 
of whether it could be made available for responsible oil and gas 
exploration and development. The area holds a very rich supply of oil--
oil that the Nation needs, is technically recoverable, and that the 
vast majority of Alaskans want to develop. The draft CCP goes to great 
lengths to discuss the ``benefits'' associated with designating the 
Refuge lands as wilderness, but offers nothing to explain the trade-
offs and lost opportunities associated with precluding responsible 
development of the 1002 Area's rich oil and gas resources. Given the 
explicit direction in ANILCA for the 1002 Area, not only is this 
contrary to NEPA requirements, it is grossly irresponsible.

V. The State of Alaska Has Developed a Detailed, Scientific Resource 
        Evaluation and Exploration Proposal for the ANWR 1002 Area and 
        Will Fund up to $50 Million to Implement the Proposal
    For these reasons, Alaska has stepped up to help complete the work 
the Federal Government seems unwilling to do. On Monday, May 20, 2013, 
Governor Parnell announced that the State of Alaska has prepared an 
``Oil and Gas Resource Evaluation and Exploration Proposal for the ANWR 
1002 Area.'' This detailed proposal satisfies a component that should 
have been included, but has been consistently omitted, from the ongoing 
CCP process. The detailed plan proposed three primary things:

    1. Completion of a 3D seismic program in ANWR's 1002 Area;
    2. Planning and permitting that would entail environmental studies 
and Federal, State and local permitting approvals based on the 
interpretation of the 3D seismic data to prepare for exploration 
drilling; and
    3. Completion of a wintertime exploration plan, using ice roads and 
ice pads, to define the oil and gas potential in the 1002 Area with 
minimum environmental impact.

    As the proposal describes, accurately defining the oil and gas 
resource potential in the 1002 Area is a critical part of understanding 
the value of the 1002 Area to the Nation. It is also a critical factor 
in understanding the human environment associated with ANWR and 
Alaska's North Slope.
    The proposal's reasonable, phased approach focuses on potential 
impacts to the environment and how to best mitigate or completely avoid 
them. The most important mitigation measure of this entire proposal is 
to make it an almost exclusively winter program. The 3D seismic and 
exploration drilling activities would only be conducted during the 
winter when ice roads and ice pads are required. Alaska is the foremost 
expert in the world on ice road and ice pad construction in the Arctic 
with very minimal impact.
    Combined with the State of Alaska's very high environmental 
standards and best practices using new technology--like extended reach 
or directional drilling--our proposal can be conducted with very little 
to no impact on the surrounding environment. This point is critical: 
the debate on ANWR has not kept up with the advances in technology and 
best practices, all of which dramatically lessen the surface footprint 
and impact of any Arctic work. We see this every day in Alaska.
    Not only did the State of Alaska develop this plan, but we are also 
providing the resources to implement the plan. Governor Parnell has 
pledged to request up to $50 million from the Alaska Legislature to add 
to Federal funding that we hope will be made available for this 
exploration program. Alaska stands ready to provide its oil and gas 
expertise, and now we have offered a major financial commitment to 
advance what Congress and the DOI have stated is critical: a full 
assessment of the oil and gas potential in the 1002 Area.
    Section 1005 of ANILCA provides that the Secretary ``shall work 
closely with the State of Alaska and Native Village and Regional 
Corporations in evaluating the impacts of oil and gas exploration, 
development, and production . . . on the wildlife resources of these 
lands[.]'' We are poised to do that. The Federal Government cannot 
legitimately evaluate impacts unless it knows the breadth of the oil 
and gas resource it stands to recover for Americans' benefit.
    President Obama has also recognized the need to use comprehensive 
information when making decisions in the Arctic. The White House's 
recently released ``National Strategy for the Arctic Region'' stresses 
a partnership with Alaska and Alaska Native organizations, and the use 
of scientific research to inform Arctic energy decision-making.
    We are eager to strengthen our relationship with the Federal 
Government, Native leaders, and other Alaska stakeholders. An updated 
resource assessment in the 1002 Area is an essential first step. Once 
we know what oil and gas resources underlie the 1002 Area--through the 
implementation of our proposal--we will be able to have an informed 
discussion about ANWR.
    In addition, we will have more thoroughly defined the economic 
benefits for all Americans: how many jobs ANWR development would 
create; the revenues it would generate for the treasury; and the secure 
oil supplies it would provide to the Nation. These numbers will confirm 
what many Alaskans have long advocated--that ANWR's energy resources 
are a major national asset, and development would provide immense 
benefits to our country.
    Alaska stands ready to support the investment in ANWR--one that 
will grow our Nation's economy, improves our energy security, and 
brings the U.S. further along the path to energy independence.

VI. The State of Alaska Will Submit an Exploration Plan Based on this 
        Proposal for the Secretary of Interior's Approval Pursuant to 
        ANILCA 1002(e)
    As noted above, our goal would be for the Department of Interior to 
adopt the above detailed Exploration Proposal as part of the Department 
of Interior's CCP. For the reasons stated above, including the fact 
that this proposal will have limited environmental impact, we believe 
it is strongly in the best interest of the country and the State of 
Alaska for the Department of the Interior to make this Exploration 
Proposal part of the CCP. The leaders of the North Slope Borough and 
Arctic Slope Regional Corporation agree with this course of action.
    However, because we are not confident that the Department of the 
Interior will do this, we also have a plan pursuant to ANILCA to 
directly apply to the Secretary of the Department of the Interior for 
acceptance of this plan as required under Federal law. ANILCA Section 
1002(e) provides:

        EXPLORATION PLANS--(1) After the initial guidelines are 
        prescribed under subsection (d), any person including the U.S. 
        Geological Survey may submit one or more plans for exploratory 
        activity (hereinafter in this section referred to as 
        ``exploration plans'') to the Secretary for approval. An 
        exploration plan must set forth such information as the 
        Secretary may require in order to determine whether the plan is 
        consistent with the guidelines, including, but not limited to--

    (A) A description and schedule of the exploratory activity proposed 
to be undertaken;
    (B) A description of the equipment, facilities, and related 
manpower that would be used in carrying out the activity;
    (C) The area in which the activity would be undertaken; and
    (D) A statement of the anticipated effects that the activity may 
have on fish and wildlife, their habitats and the environment.

        (2) Upon receiving any exploration plan for approval, the 
        Secretary shall promptly publish notice of the application and 
        the text of the plan in the Federal Register and newspapers of 
        general circulation in the State. The Secretary shall 
        determine, within 120 days after any plan is submitted for 
        approval, if the plan is consistent with the guidelines 
        established under subsection (d). If the Secretary determines 
        that the plan is so consistent, he shall approve the plan: 
        except that no plan shall be approved during the 2-year period 
        following the date of enactment of this Act. Before making the 
        determination, the Secretary shall hold at least one public 
        hearing in the State for purposes of receiving the comments and 
        views of the public on the plan. . . .

    The State of Alaska will be submitting an Exploration Plan based on 
this reasonable resource evaluation and exploration proposal that we 
believe meets all of the criteria of ANILCA Section 1002(e). It should 
be noted that if such criteria are met, the Secretary of the Interior 
is mandated by law to approve such plan.
                                 ______
                                 
    Letter Submitted for the Record From The Honorable Sean Parnell
                                          Governor,
                                           State of Alaska,
                                       Anchorage, AK, May 18, 2013.
The Honorable Sally Jewell, Secretary,
U.S. Department of the Interior,
Washington, DC 20240.

    Dear Secretary Jewell,

    Congratulations on your nomination and confirmation to lead the 
Department of the Interior. Your leadership and decisions will be 
significant to the future of the State of Alaska and the United States. 
I wish you the best and offer assistance and partnership from my 
Administration.
    One area under your management is the coastal plain of the Arctic 
National Wildlife Refuge (ANWR), as described in Section 1002 of the 
Alaska National Interest Lands Act. The 1002 Area and the remainder of 
ANWR are the subject of a multi-year planning process led by the U.S. 
Fish and Wildlife Service to update the ANWR Comprehensive Conservation 
Plan (CCP). My Administration has participated in several scoping and 
comment periods in regard to the CCP. Our comments and letters have 
encouraged DOI to consider the potential for oil and gas exploration 
and development in the 1002 Area. Indeed, we believe that such a 
consideration is required by law. To our disappointment, the Department 
of the Interior has indicated that they have no intention of 
considering this alternative for the 1002 Area.
    Therefore, the State of Alaska would like to offer you two items. 
The first is the Oil and Gas Resource Evaluation and Exploration 
Proposal (the ``Exploration Proposal'')--a detailed proposal that 
satisfies a component that should have been included, but has been 
consistently omitted, from the ongoing CCP process. The Exploration 
Proposal is available at
            http://gov.alaska.gov/parnell_media/resources_files/
            ANWR_051713a.pdf
            http://gov.alaska.gov/parnell_media/resources_files/
            ANWR_051713b.pdf
    The Alaska Department of Natural Resources, which has some of the 
world's foremost experts on arctic oil and gas exploration and 
development issues, has dedicated a great deal of effort to assemble 
this document. I hope you will include the Exploration Proposal in the 
CCP's analysis.
    As the Exploration Proposal describes, accurately defining the oil 
and gas resource potential is a critical part of understanding the 
value of the 1002 Area to the Nation. It is also a critical factor in 
understanding the human environment associated with ANWR and Alaska's 
North Slope. With recent advancements in technology, responsible oil 
and gas exploration and development can be accomplished with very 
little impact on the environment.
    The second offer is a pledge to request up to $50 million from the 
Alaska State Legislature during its 2014 legislative session to help 
fund the 3D seismic program for the 1002 Area as described in the 
Exploration Proposal. We would of course need a positive indication 
that the Federal Government would want to partner with the State of 
Alaska on such a seismic program before submitting a budget request to 
our Legislature at the end of the year. This would be in addition to 
generous exploration credits that the State of Alaska would be able to 
provide the private sector in assisting with the Exploration Proposal.
    For 26 years, Americans have engaged in a debate about the wildlife 
and oil and gas resources on and underneath the 1002 Area. 
Unfortunately, ANWR's oil and gas resources have been estimated using 
archaic 2D seismic data. State of Alaska land managers have found that 
3D seismic data is an indispensable tool to managing our lands. We 
believe that it would be very valuable for your land managers to have 
this data to inform their planning efforts for the 1002 Area.
    I would recommend that the U.S. Geological Survey conduct this 3D 
seismic program in conjunction with the Alaska Division of Geological 
and Geophysical Surveys (DGGS) in order to provide a much-needed update 
to the 1987 USGS resources report to Congress. As you likely know, the 
USGS and Alaska's DGGS have a strong, cooperative working relationship 
that dates back decades.
    I look forward to visiting with you at your earliest convenience 
about this and the many other topics that we can work together on to 
benefit Alaska and the United States.
            Sincerely,
                                              Sean Parnell,
                                         Governor, State of Alaska.
                                 ______
                                 

                            State of Alaska

                         OFFICE OF THE GOVERNOR

FOR IMMEDIATE RELEASE                                        No. 13-083

    Governor Rolls Out ANWR Exploration Proposal for ANWR 1002 Area

    May 20, 2013, Anchorage, Alaska--Governor Sean Parnell today 
announced an exploration proposal for the Arctic National Wildlife 
Refuge (ANWR) 1002 Area, which the State has developed and is offering 
to help finance.
    ``Accurately defining the oil and gas resource potential is a 
critical part of understanding the value of the 1002 Area to the 
Nation,'' Governor Parnell said. ``The Federal Government has the 
responsibility to do this under Federal law, but is clearly reluctant 
to do so. Therefore, we are stepping forward with our expertise and 
financing to provide a detailed resource evaluation and exploration 
proposal.''
    Governor Parnell outlined the proposal in a letter sent to Interior 
Secretary Sally Jewell, and he and Department of Natural Resources 
Commissioner Dan Sullivan rolled out the 187-page document during a 
press event at the U.S. Chamber of Commerce headquarters in Washington, 
D.C.
    Also speaking at the Monday event in support of the proposal were 
Charlotte Brower, mayor of the North Slope Borough, and Rex Rock, 
president and chief executive of the Arctic Slope Regional Corp., a 
regional Alaska Native corporation based in Barrow.
    In his letter to Secretary Jewell, Governor Parnell offered to 
request up to $50 million from the Alaska Legislature to support the 
seismic program contained in the proposal. Such a budget request will 
be contingent on the Federal Government indicating its interest in 
partnering with the State of Alaska on the seismic program.
    The proposal, called the ``Oil and Gas Resource Evaluation & 
Exploration Proposal for the ANWR 1002 Area,'' was produced by the 
Alaska Division of Oil & Gas, and it is being shared with Alaska 
stakeholders, the U.S. Department of the Interior and members of 
Congress this week.
    The report details a 7-year seismic and exploration program to 
provide a much more definitive assessment of the magnitude of the oil 
and gas resources within the 1002 Area--thought to be one of the most 
prolific regions for undiscovered oil in America. This assessment will 
provide Congress and the Federal Government a much clearer 
understanding of the best way to manage this small portion of ANWR for 
the benefit of all Americans.
    ``We hope that the Department of the Interior and Congress will 
partner with the State in adopting and implementing this exploration 
proposal,'' Governor Parnell said.
    ``This is a reasonable proposal based on Alaska's high standards 
for responsible resource development and environmental protection,'' 
Sullivan said. ``Implementation of this proposal will have negligible 
impacts on the environment and should be acceptable to a wide range of 
stakeholders.''
    Governor Parnell's letter to Secretary Jewell and the report are 
available at:
http://gov.alaska.gov/parnell_media/resources_files/jewell_052013.pdf
http://gov.alaska.gov/parnell_media/resources_files/ANWR_051713a.pdf
http://gov.alaska.gov/parnell_media/resources_files/ANWR_051713b.pdf
                                 ______
                                 
    Mr. Lamborn. OK, thank you for your testimony.
    Mayor Brower.

  STATEMENT OF CHARLOTTE E. BROWER, MAYOR, NORTH SLOPE BOROUGH

    Ms. Brower. Good morning, Mr. Chairman and members of the 
Committee. My name is Charlotte Brower. I am Mayor of the North 
Slope Borough. And I want to thank you for the opportunity to 
speak before you on H.R. 1964.
    The National Petroleum Reserve Alaska Access Act would 
amend the Naval Petroleum Production Act of 1976 to direct the 
Secretary of the Interior to conduct a competitive leasing 
program of oil and gas in the NPR-A, including holding lease 
sales at least once every year. The North Slope Borough was 
given some limited participation in the development of the NPR-
A management plan. However, the Borough did not support the 
majority of the management decision embodied in the alternative 
B2 adopted in the final management plan.
    No one is more mindful of the need to protect the 
environment and preserve subsistence opportunities than the 
people of the North Slope. The potential for oil and gas 
leasing exploration and development in the NPR-A, therefore, 
presents difficult questions of priorities and policy for all 
North Slope organizations. Our challenge has always been to 
balance the development with the preservation of a healthy 
North Slope environment, abundant subsistence resources, and 
the vibrant traditional subsistence culture of our people.
    With respect to H.R. 1964, I would like to thank the 
Chairman and members of the Committee and Chairman Hastings and 
Congressman Young for looking at the energy needs of the Nation 
and advocating for the balanced management of the NPR-A. The 
final management for the NPR-A prohibits oil and gas leasing, 
on well over 50 percent of the NPR-A. This includes areas 
identified by BLM's own estimates as having a high potential 
for oil and gas resources.
    We also support efforts to conduct updated resource 
assessments within the NPR-A to understand the resources that 
are available. This kind of information is critical to making 
effective and informed decisions over NPR-A management. While 
this hearing focuses on the Federal Government's management of 
the NPR-A and specifically H.R. 1964, I would like to comment 
on a couple of policy matters that are fundamentally related.
    First, along with the Arctic Slope Regional Corporation, we 
commend BLM for establishing the new NPR-A working group, and 
we are pleased that the BLM has obtained funding for this 
important initiative. My administration has focused on the 
value of collaboration, communication, and coordination in the 
review of management decisions involving the NPR-A. Management 
decisions involving the NPR-A can have a cultural and economic 
impact, while disproportionately effecting local populations. 
We hope that any proposed legislation that impacts the 
management of the NPR-A will include language, and acknowledges 
the importance of this type of collaboration.
    Second, I would also like to comment on the BLM's Fiscal 
Year 2014 Budget. Under the President's budget proposal for 
BLM, Alaska's share of revenue from oil and gas activity in the 
NPR-A would be diverted from the State to the BLM to pay for 
the clean-up legacy wells drilled by the Federal Government 
between 1944 to 1981. I cannot emphasize enough how offensive 
this proposal is to the North Slope Borough. The majority of 
the NPR-A aid grant funding goes to four communities: Nuiqsut, 
Barrow, Atqasuk, and Wainwright. These same communities used 
impact aid funding for things such as recreational activities 
for youth and suicide prevention programs.
    Over 25 percent of our residents are unemployed, and nearly 
50 percent are under-employed. A loss of funds will severely 
impact programs funded by workforce and training development 
grants, adding to the unemployment problem. It is my hope that 
Congress will act to ensure that responsible resource 
development in the NPR-A is coupled with a firm mandate that 
the State and local communities continue to receive the impact 
aid funds that they rely upon.
    ``Quyanaqpak'' for the opportunity to address you today.
    [The prepared statement of Ms. Brower follows:]

Prepared Statement of Charlotte E. Brower, Mayor, North Slope Borough, 
                                 Alaska

                               H.R. 1964

    Chairman Hastings, Congressman Young, members of the Committee:

    I want to thank you for the opportunity to provide comments for 
your hearing on the Federal Government's management of the National 
Petroleum Reserve-Alaska (NPR-A) and, specifically, H.R. 1964, the 
``National Petroleum Reserve Alaska Access Act'', which would, among 
other things, nullify the NPR-A Integrated Activity Plan (IAP) Record 
of Decision (ROD) issued by the Secretary of the Interior on February 
21, 2013, and amend the Naval Petroleum Reserves Production Act of 1976 
to direct the Secretary of the Interior to conduct a program of 
competitive leasing of oil and gas in the NPR-A.
    As you may know, the North Slope Borough (Borough) participated in 
the development, by the Bureau of Land Management (BLM), of the IAP and 
Environmental Impact Statement (EIS) for the NPR-A. The Borough did not 
support several of the management decisions embodied in Alternative B-
2, the preferred alternative in the final EIS. Alternative B-2 served 
as the basis for the ROD adopted by BLM for the management of the NPR-
A.\1\ The Borough does, however, maintain a good relationship with 
BLM's Alaska office. We appreciate BLM's efforts to ensure that the 
Borough and our communities have a seat at the table when it comes to 
managing NPR-A lands, and in particular, we support the recent efforts 
of the BLM to establish the NPR-A Working Group to better involve North 
Slope communities in NPR-A management decisions.
---------------------------------------------------------------------------
    \1\ The Borough recommended implementation of Alternative A, but 
with the southern region of NPR-A also opened for oil and gas leasing. 
Specifically, the Borough recommended that BLM apply the current 
package of stipulations and required operating procedures (ROPs) as 
presented in the 2008 Record of Decision for the former Northeast 
Planning Area, to the entire NPR-A. The Borough recommended that the 
area in the former Northwest Planning Area previously deferred from 
leasing until 2014 should be included in future lease sales upon 
expiration of the deferral. The Borough recommended that the area north 
and east of Teshekpuk Lake previously deferred from leasing until 2018 
should be subject to an additional, targeted planning process before a 
decision was made to extend the deferral or open the area to leasing 
subject to appropriate protective measures. The Borough recommended 
that Special Areas should remain as previously defined. The Borough 
also recommended that no Wild and Scenic Rivers should be designated.
---------------------------------------------------------------------------
    The NPR-A IAP governs the management of the entire 22.6 million-
acre NPR-A, focusing on the potential effects of oil and gas leasing, 
exploration, and development within the area. The entire NPR-A lies 
within the boundaries of the North Slope Borough, a home rule regional 
municipal charter government operating under the laws of the State of 
Alaska. The majority of Borough residents are Inupiat Eskimos that live 
a subsistence lifestyle and are dependent upon the wild resources of 
our traditional lands and waters for our physical health and our 
cultural and spiritual well being.
    All of the NPR-A has been used by the Inupiat people for centuries, 
and continues to be of great importance to the well-being of our 
residents today. It contains habitat unique on the North Slope, and 
sees exceptional seasonal concentrations of wildlife resources. The 
region contains important nesting and staging areas for waterfowl, 
shorebirds, and raptors, overwintering and spawning areas for fish, and 
calving and insect-relief habitat for caribou. Many of these resource 
populations, including vast numbers of waterfowl and the Teshekpuk 
Lake, Central Arctic, and Western Arctic Caribou Herds migrate to, 
through, and from the NPR-A following relatively predictable patterns. 
In terms of the numbers of caribou harvested for subsistence, the 
Teshekpuk Lake Herd is today the most important herd on the North 
Slope. Scores of traditional subsistence cabins, campsites, 
transportation routes, and key harvest areas can be found throughout 
the region. Many significant Inupiat cultural and historic sites dot 
the landscape.
    While always mindful of the critical need to protect the 
environment and preserve subsistence opportunities, the North Slope 
Borough and our residents also recognize that our ability to continue 
to provide even the most basic services to our communities depends 
largely upon a revenue stream generated by taxes on oil and gas 
facilities located on land and in waters of the State of Alaska.
    The potential for oil and gas leasing, exploration, and development 
in the NPR-A therefore presents difficult questions of priorities and 
policy for all North Slope organizations. Our challenge has always been 
to find a balance between the need for industry-fueled revenue and 
preservation of a healthy North Slope environment, healthy subsistence 
resource populations, and vibrant traditional subsistence culture of 
our people.
    Throughout the past 40 years, we have vigorously exercised our 
authority and influence to see industrial operations sited and 
conducted to the greatest extent possible in an environmentally and 
culturally sensitive manner. We have not always been successful in 
halting or conditioning operations to fully avoid or minimize adverse 
impacts. Cumulative impacts have occurred, and are only now being 
acknowledged by industry and the responsible Federal and State 
agencies. For the most part, however, and to some extent because of the 
Borough's insistence on appropriate conditions, onshore oil and gas 
operations have been designed and operated without significant long-
term effects on the environment, wildlife populations, or the Inupiat 
subsistence culture.

H.R. 1964, the ``National Petroleum Reserve Alaska Access Act''
    I would like to take this opportunity to thank Chairman Hastings 
and Congressman Young for taking a hard look at the energy needs of our 
Nation and for addressing the importance of a well-balanced approach to 
the management of the National Petroleum Reserve-Alaska. In particular, 
I think it is important for Congress to reaffirm that the purpose of 
the NPR-A is to provide oil and gas resources to the United States and 
to take steps to ensure that the Reserve is managed in a way that 
allows for responsible natural resource development.
    The IAP released by the Department of the Interior prohibits oil 
and gas leasing in well over 50 percent of the NPR-A. This includes 
areas identified by BLM's own estimates as having a high potential for 
oil and gas resources. While we are appreciative of Interior's intent 
to protect and preserve wildlife resources and the habitats they depend 
on, we also feel that it is equally important for the NPR-A to be 
managed in a way that promotes responsible oil and gas development and 
economic opportunities for local communities.
    We also support efforts to conduct updated resource assessments 
within the NPR-A to understand the resources that are available. This 
kind of information is critical to making effective and informed 
decisions over NPR-A management.

NPR-A Working Group
    While this hearing focuses on the Federal Government's management 
of the NPR-A and, specifically, H.R. 1964, the ``National Petroleum 
Reserve Alaska Access Act'', I would be remiss not to comment on a few 
additional policy matters that are fundamentally related.
    First, along with Arctic Slope Regional Corporation and the Inupiat 
Community of the Arctic Slope--for which there are representatives here 
today--we commend BLM for establishing the new NPR-A Working Group. And 
we are pleased that the BLM has obtained funding for this important 
initiative.
    My administration has focused on the value of collaboration, 
communication, and coordination in the review of management decisions 
involving the NPR-A. Management decisions involving the NPR-A can have 
cultural and economic impacts which disproportionately affect local 
populations. The effects of climate change on the Arctic environment 
are rapidly changing known plant and animal distributions, habitats, 
and ranges as well as the physical landscape and subsistence hunting 
practices and areas.
    Because of these impacts, infrequent commenting opportunities 
through the National Environmental Policy Act process, and other public 
processes, may not provide the most effective mechanism for local 
entities to provide meaningful input on NPR-A management decisions. We 
hope the NPR-A Working Group will strengthen coordination and 
cooperation between BLM, the Borough, and North Slope entities on NPR-A 
management issues. And we further hope that any proposed legislation 
that impacts the management of the NPR-A will include language that 
acknowledges the importance of this type of collaboration.

Legacy Wells
    I also want to address the BLM's duty to fulfill its mission of 
protecting public land by plugging and remediating more than a hundred 
oil wells in northern Alaska.
    These wells, known as the ``Legacy Wells,'' were drilled between 
1944 and 1982 by the Federal Government in an attempt to locate 
commercial quantities of oil and natural gas. The U.S. Navy and U.S. 
Geological Survey drilled 136 wells in Northern Alaska over the span of 
five decades, which are now abandoned. Only a handful of the 136 wells 
have been plugged and cleaned up by State of Alaska standards. This 
issue is of concern to the entire State.
    The Federal Government wishes to act as steward of the land in 
Alaska, often telling our people what they can or cannot do on the 
land. Yet here is an example of the same government failing to fulfill 
the most basic of responsibilities as a land owner. Residents of the 
North Slope want to develop resources, but we want to do so 
responsibly.
    The State of Alaska's Oil and Gas Conservation Commission (AOGCC) 
has commented that all of BLM's legacy wells are or have been out of 
compliance with multiple Alaska regulations. If these wells were 
operated by an oil company, the AOGCC would force compliance with its 
regulations and impose fines for any non-compliance.

BLM's FY 2014 Budget
    Under the President's FY 2014 budget proposal for BLM, Alaska's 50-
percent share of revenue from oil and natural gas activity in the NPR-A 
would be diverted from the State to the BLM to pay for the cleanup of 
legacy wells drilled by the Federal Government between 1944 to 1981 and 
to complete land conveyances owed to the State and to Alaska Natives. I 
cannot emphasize enough how offensive this proposal is to the North 
Slope Borough.
    The majority of NPR-A Impact Aid grant funding goes to four 
communities located within the NPR-A--Barrow, Nuiqsut, Wainwright and 
Atqasuk--which rely heavily on Local Government Operation grants to 
sustain their city governments. The four Local Government Operational 
grants total approximately $3.1 million annually, subject to NPR-A 
Impact Aid funding. These projects support operations and maintenance 
costs necessary to operate the local governments.
    BLM's proposal to divert NPR-A revenues owed to the State will 
result in the elimination of NPR-A Impact Aid payments to the four NPR-
A villages that depend on NPR-A revenues to operate. In 2010, the North 
Slope Borough completed a comprehensive Economic Profile and Census 
project in our region. The results indicated that 26.5 percent of our 
residents are unemployed and 49.4 percent are underemployed. If NPR-A 
revenue sharing payments cease, our villages and our already 
economically vulnerable residents will be harmed.
    BLM has expended $86 million to address 18 legacy wells ($4.77 
million per well). Current NPR-A Impact Fund deposits are less than $4 
million per year, and there are more than 110 additional wells to 
address--that means the ``temporary'' halt in revenue sharing payments 
proposed by BLM would end in about 150 years if all revenues are 
diverted to the Legacy Well cleanup program and no funding is committed 
to State and Native land conveyances.
    We cannot understand why BLM would choose to deprive our villages 
and our residents of Impact Aid grant funds, which are specifically 
authorized by Congress to address the impacts of oil and gas 
development in the region. Moreover, NPR-A revenues cannot 
realistically support either the Legacy Well cleanup program or the 
Alaska Land Conveyance program, as proposed in BLM's budget. We hope 
BLM will find another way to fulfill its Federal commitments to Alaska 
and to our people.
    Quyanaqpak (Thank you very much) for the opportunity to address you 
today.
                                 ______
                                 
    Mr. Lamborn. Thank you all for your testimony. I am going 
to now recognize myself for the first questions. Members are 
limited to 5 minutes for questions. We may have additional 
rounds.
    Mayor Brower, that is amazing. I did not know, until you 
explained it so clearly, that BLM wants to divert the money 
from the people of the communities there. I have no doubt that 
BLM has a worthwhile objective for that money, but they have 
many other ways that they can access funds. They can come to 
Congress and submit it in their budget. Is this unprecedented?
    Ms. Brower. Mr. Chairman, it is. I have worked for North 
Slope Borough for over 40 years, and I have also worked in 
various organizations that rely on the NPR Impact Aid Fund. And 
we work closely with the four communities that are within the 
National Petroleum Reserve-Alaska. And those communities depend 
heavily on the impact aid that they receive through the State 
from the Federal Government on the NPR-A.
    And you have to understand. In order to receive funding, 
there has to be some activities within the NPR-A. And whatever 
activities that there are results in revenues that we get a 
share, through the State. And so, when we understood that the 
BLM decided that they would divert any funding that is given to 
the State and funneled to the North Slope Borough would be used 
to clean the legacy oil wells that had been there by the 
Department of Navy at the time they had done the NPR-A from 
between 1944 to 1981, and when they released that, BLM took 
over, of course they have left some legacy wells that are not 
within the standards that they should have.
    And so, when the North Slope Borough and State of Alaska 
says, ``We want that clean-up because it is environmentally 
safe for our residents so that they can hunt on the same 
grounds,'' then when we found out that they were going to take 
our money away, this presents a position for the North Slope 
Borough to be strong on.
    Mr. Lamborn. OK, thank you. And I don't doubt that it is a 
worthy objective, but they have other ways they can get those 
funds.
    Commissioner Sullivan, in your testimony you point out that 
while the BLM claims nothing in their plan and Environmental 
Impact Statement is intended to bar the construction of 
pipelines, yet that is exactly what would happen. Can you 
specifically elaborate on why that is the case?
    Mr. Sullivan. Mr. Chairman, sure. And just on the other 
question you had, the State of Alaska fully supports the North 
Slope Borough on its position on the NPR-A and the funding and 
the legacy well issue. As a matter of fact, we wrote a joint 
letter to the Department of the Interior on that issue.
    That had been a very big concern in all the different 
iterations of the proposal on the NPR-A. And although they did 
try to address it in the final record of decision, we still 
think that it has significant uncertainty, in terms of where 
the route would allow a pipeline. And that is absolutely 
critical, because almost any pipeline that goes from NPR-A or, 
importantly, if Shell's Outercontinental Shelf development 
brings in oil, significant oil, and that comes down and through 
the NPR-A, any of that oil is going to have to go into the 
Trans-Alaska Pipeline system. And to have uncertainty on where 
a pipeline across the NPR-A area can go, just brings investment 
risk and uncertainty to increasing oil production from NPR-A or 
the OCS into----
    Mr. Lamborn. OK. Thank you. Commissioner Connell, why is 
BLM allowing this uncertainty, when there needs to be certainty 
for investments? We are talking about major investments, given 
the important environmental safeguards that have to be complied 
with in pretty adverse conditions.
    Ms. Connell. Yes, sir. The record of decision for the most 
recent BLM announcement on the NPR-A development scenario would 
include a requirement for a pipeline that would run from the 
Chukchi Sea down to the Trans-Alaska Pipeline. The site-
specific analysis of exactly where that pipeline would go, we 
didn't have enough detailed information about every mile of 
that proposed line to be able to make a site-specific decision, 
but there is absolutely commitment to provide for a pipeline.
    Mr. Lamborn. OK, I am really glad to hear that, because 
that maybe will alleviate some of the uncertainty. Some people 
might be skeptical and say, well, this is a ploy to sort of 
draw things out and stonewall and delay and prevent. You are 
saying that is not the case.
    Ms. Connell. That is not the case. There is a commitment 
for a pipeline to go from the Chukchi Sea down to the Trans-
Alaskan Pipeline.
    Mr. Lamborn. OK, thank you very much. I appreciate hearing 
that on the record.
    Representative Holt?
    Dr. Holt. Thank you. Thank you. Ms. Connell, can you help 
explain or clarify the diversion of funds that Mayor Brower was 
talking about? I am not quite sure that I understand.
    Ms. Connell. Yes, sir. I will do my best. As you know, I am 
visiting from the State of Montana, where I am the State 
Director for BLM Montana, North and South Dakota. So I 
appreciate your invitation to be here.
    My understanding of that situation is that in the 
President's budget for 2014 they were looking for a number of 
different ways to fund the vast array of BLM's 
responsibilities. One of these responsibilities is, in fact, 
the clean-up of those legacy wells, wells that have not been 
plugged and abandoned appropriately in Alaska.
    This year for the Bureau of Land Management I can speak to 
specifically, our budget is $90 million less than it was last 
year. My organization, Montana, North and South Dakota, is less 
than that. It is less than an entire State organization. So $90 
million is significant cuts to our Bureau's budget. And so we 
are really trying to be creative.
    I 100 percent appreciate the concerns of my colleagues here 
from Alaska, and we have been working diligently with the 
State, and would be more than happy to work with this Committee 
to come up with different ideas and different funding 
strategies for that plug-in abandonment. It can be extremely 
expensive and time-consuming to take care of that situation, 
but we really would like to see the clean-up completed.
    Dr. Holt. OK. Isn't this at least partly due to the 
sequester and the budget cuts that we have seen?
    Ms. Connell. Yes, sir. It certainly is a funding 
discussion. We really need to find a place to pay for those 
plug-in abandonments of those wells.
    Dr. Holt. Thanks. Ms. Connell, continuing, according to the 
BLM, the percentage of land parcels protested has declined in 
each of the last 4 years, following the leasing reforms by the 
Department. In 2009 I understand 47 percent of the lease 
parcels were protested. In 2012, protests were down to fewer 
than 18 percent of the 2,064 parcels offered for sale.
    You state in your testimony that, ``It could be 
counterproductive to develop energy resources on Federal lands, 
if the result is greater near-term resource damage that, in 
turn, would necessitate more onerous restrictions on future 
energy development activities.'' So, in other words, rather 
than planning smartly from the beginning, as the Department is 
trying to do, H.R. 1965 might actually mean that we would be 
forced to require more long-term restrictions on development. 
And it could actually reduce the certainty that the sponsors of 
this legislation say they are seeking. Am I correct on that?
    Ms. Connell. You have quoted our testimony accurately, yes, 
sir. Certainly, the Bureau's determination to provide for 
energy development on public lands and in an environmentally 
responsible and balanced way is one of the highest and most 
important priorities for our Bureau.
    And we have seen a decrease in the number of protests. And 
I personally think that is because a plan may actually consider 
whether or not lands are suitable for oil and gas leasing on 
somewhere in the neighborhood of 7 to 10 million acres, which 
is a large landscape to look at anything in a very specific 
way. When we do our site-specific NEPA analysis or 
environmental analysis, when the lease parcels come in, we take 
a much closer look at each individual parcel. And I think that 
has provided for better decisions, more defensible decisions, 
and our ability, even if there are protests, our ability to 
defend our decisions in that case.
    Dr. Holt. And, as I understand it, H.R. 1965 would really 
undermine the progress you are making in this--well, yes or no, 
would you agree?
    Ms. Connell. It is my understanding, the way that it is 
written, that it would provide a problem for us to continue 
with the local-level review of lease parcels.
    Dr. Holt. Just in the few seconds remaining, I wanted to 
ask if the Department has looked at this proposal of a $5,000 
protest fee for anybody who wants to challenge a lease or a 
permit. Putting aside the constitutional free speech questions 
for another time, let me ask you, have you looked at it as a 
Department? Do you think this would reduce the number of 
protests, which are already at a smaller number than in the 
past?
    Ms. Connell. I don't know that we looked at it as to 
whether or not it would reduce them. Although the concern that 
was listed in our testimony referenced to the fact that, as a 
Federal agency, we know that we are not perfect, we know that 
once in a while we might make a mistake, and it seems as if it 
should be reasonable for there to be an opportunity for people 
to call us on those mistakes.
    Dr. Holt. Thank you.
    Mr. Lamborn. Thank you. Representative Benishek?
    Dr. Benishek. Thank you, Mr. Chairman. Ms. Connell, you are 
not in charge of the Alaska area, from what I understand from 
your comments. You actually work in the Western Continental 
United States.
    Ms. Connell. I do. I am here as the Acting Deputy Director 
for the Bureau of Land Management. So for the past several 
months I have had responsibilities for all of the United 
States, including Alaska. But my permanent job is, along with 
Congressman Cramer, is back in Montana and North and South 
Dakota.
    Dr. Benishek. All right. Well, the question I have, brought 
up by Ms. Brower, mitigation of these wells, these wells were 
done producing in 1981. Is that right? I mean this is from the 
1940s to the 1970s, these wells were in production for the 
Naval Reserve. Is that right, Ms. Brower?
    Ms. Brower. That is correct.
    Dr. Benishek. So why are we doing the mitigation now? I 
mean hasn't that been done in the 35 years already? What is the 
story there?
    Ms. Connell. BLM has been working, since it became the 
responsibility of our Bureau, and I am sorry, I don't know the 
exact date of that, but when the lands were transferred to the 
BLM, we have been working toward clean-up and plug-in 
abandonment of these wells, but it has been a bit slow-going 
because of the cost and the complexity of the abandonment of 
the wells.
    Dr. Benishek. So, since 1981, I think, you have been 
responsible for that land. And yet only now, 30-some years 
later, are you deciding that we need to cutoff the funds to 
this area in order to do that, 30 years later? I just don't get 
the thinking there.
    Ms. Connell. Well, that is currently the proposal in the 
President's budget, yes.
    Dr. Benishek. All right. OK, thank you. Mr. Sullivan, I 
have a question for you. Ms. Connell seems to state in her 
opening statement that there was leasing going on up there in 
Alaska all the time, and that they are committed to doing 
leasing. And yet it seems like the wells aren't getting done. 
What is the discrepancy there? I mean I don't understand. Can 
you explain that to me?
    Mr. Sullivan. Sure, Congressman. And just real quick on the 
legacy wells, I am sure this Committee has probably seen the 
pictures, but they are leaking all over the place, and there is 
oil all over the place. And if this were a private company that 
was ignoring this for 30 years, you would probably have 
executives in a fair amount of trouble. So the notion that all 
the sudden the State and the Borough have to pay for that, 
which is really the essence of the budget proposal, is why, 
Mayor Brower mentioned why that is such an offensive issue to 
us.
    But with regard to the leasing, one of the things that we 
are most concerned about is in the integrated plan, how that 
essentially took half of the National Petroleum Reserve of 
Alaska, which, again, was set aside by this body for oil and 
gas security-related issues, and in the latest management plan 
took half of that off the table for leasing.
    So, in terms of future leasing, on a huge area of Federal 
land in Alaska, it has just been cut in half.
    Dr. Benishek. So that was a regulatory decision by the BLM, 
then?
    Mr. Sullivan. Correct. And we think that it might bump up 
against Federal law with regard to what is required and how 
that, the NPR-A, is managed. The organic focus on the NPR-A, 
just think about the title, the National Petroleum Reserve of 
Alaska, was focused on oil and gas security for the country. 
Half of that is now gone.
    Dr. Benishek. So, despite the fact that Congress mandated 
this use for a petroleum reserve, the BLM, by regulation, 
cutoff half of it.
    Mr. Sullivan. That is our view, yes.
    Dr. Benishek. Tell me more about these legacy wells that 
are streaming oil on the surface. This is the responsibility, 
then, of the BLM. And it has been going on for 30 years? Is 
that what you are saying? I guess I wasn't familiar with that.
    Mr. Sullivan. No, this is the responsibility of the Federal 
Government. And we would be glad, we have many members of the 
State of Alaska Legislature would love to come testify, show 
you pictures. Because, again, a legacy well sounds a little 
innocuous. When you go look that they are spilling oil all over 
the tundra, it is not innocuous. And we believe it is the 
Federal Government's responsibility to clean it up.
    Dr. Benishek. Well, it sounds like you are right.
    Ms. Connell, are you aware of that situation, there is oil 
coming out of the ground on the tundra there, in that legacy 
well?
    Ms. Connell. I am familiar with the situation, and it is 
why the Department and the Bureau are adamant that we need to 
figure out, working with our partners at the State, a way to 
move forward. And funding is definitely an issue, and if this 
is not an acceptable means of funding those, we need to look 
for another means of doing that.
    Dr. Benishek. Thank you, and I think I am out of time.
    Mr. Lamborn. OK, thank you. We are going to have a little 
interruption here. As is our practice, whenever the Chairman or 
Ranking Member of the Full Committee are present, they are 
invited to give an opening statement also. So at this time I 
would like to now recognize the Chairman of the Full Committee, 
Representative Hastings of Washington, for 5 minutes.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman, for the 
courtesy in going out of turn, but there are several hearings 
that are going on on the Hill today.
    The Natural Resources Committee has frequently discussed 
the Congressional Research Service reports that have shown that 
all of the recent increase in U.S. oil and natural gas 
production has occurred on State and private lands, and not on 
Federal lands. The lack of production on Federal lands is not 
for a lack of resources. But, rather, the lack of production is 
because of Federal regulations that hinder and block 
development. And the four bills before us today that we are 
discussing will hopefully help to reverse that trend.
    Together, these bills will help us expand oil and natural 
gas and renewable energy production on public lands. They will 
streamline government red tape, break down bureaucratic 
hurdles, and put in place a clear plan for developing our own 
energy resources. Even more importantly, these bills will spur 
job creation and help strengthen our economy.
    This week the AAA reported that motorists can expect 
another spike in gas prices this Memorial Day weekend. Prices 
have jumped $.14 in the last month and the national average is 
now $3.65 a gallon. These high prices hurt families and small 
businesses and weigh down our economy. But Americans shouldn't 
have to settle for and accept near $4 gasoline prices. 
Continuing to increase our domestic supply, as these bills 
would do, is the best way to respond to these spikes.
    While our country continues to face looming deficits, it's 
important to remember that energy production is a revenue 
generator. Increasing American energy production is one of the 
best things we can do to ensure job creation and economic 
growth.
    And I want to take a moment to talk specifically on H.R. 
1964, the National Petroleum Reserve Alaska Access Act, that I 
introduced with my colleague from Alaska, Don Young. Alaska is 
a tremendous energy asset to our Nation. But the Obama 
Administration appears determined, against the wishes of most 
Alaskans, to keep their energy resources off limits.
    The NPR-A was specifically designated in 1923 as a 
petroleum reserve. Its express purpose was to supply our 
country with American energy. That is why it is completely 
unacceptable that the Obama Administration this year finalized 
a plan to close over half of NPR-A to energy production.
    This bill, that I introduced with Mr. Young, would nullify 
that plan and require the Interior Department to produce a new 
plan for responsible development of these resources. This bill 
would require annual leases in the NPR-A and ensure that 
necessary roads, bridges, and pipelines needed to transport 
energy out of the NPR-A can be approved and completed in a 
timely, efficient manner. This is crucial to ensure that the 
Trans-Alaska Pipeline, or TAPS, remains full and operational.
    While the most recent focus has been on the Keystone XL 
Pipeline, and the House will consider a bill this afternoon to 
approve it, we cannot forget that TAPS is one of our most 
important pieces of energy infrastructure in the Nation. 
Reduced production in Alaska has left TAPS at less than half 
its capacity, threatening a shut-down that would cost jobs and 
significantly weaken our energy security. We can not allow that 
to happen, and developing our resources and NPR-A is vital to 
ensure that it doesn't.
    President Obama cannot continue to talk about his support 
for all-of-the-above energy and then continue to pursue 
policies that actively block all types of energy production on 
our Federal lands. All-of-the-above energy needs to be more 
than just a politically popular sound byte. The majority of the 
provisions in these bills passed the House in the last Congress 
with bipartisan support, and it is time for Congress once again 
to move forward with these common-sense, job-creating energy 
plans.
    And, Mr. Chairman, I thank you for holding this hearing, 
and thank you for your consideration of my schedule. Thank you.
    [The prepared statement of Mr. Hastings follows:]

 Prepared Statement of The Honorable Doc Hastings, Chairman, Committee 
                          on Natural Resources

    The Natural Resources Committee has frequently discussed the 
Congressional Research Service reports that have shown that all of the 
recent increase in U.S. oil and natural gas production has occurred on 
State and private lands--not Federal lands. The lack of production is 
not for the lack of resources, but rather the lack of production is 
because of Federal regulations that hinder and block development. The 
four bills before us today will help to reverse that trend.
    Together, these bills will help us expand oil, natural gas and 
renewable energy production on public lands. They will streamline 
government red tape, break down bureaucratic hurdles and put in place a 
clear plan for developing our own energy resources. Even more 
importantly, these bills will spur job creation and help grow and 
strengthen our economy.
    This week, AAA reported that motorists can expect another spike in 
gasoline prices this Memorial Day weekend. Prices have jumped 14 cents 
in the past month and the national average is now $3.65. These high 
prices hurt families and small businesses, and weigh down our economy. 
But Americans shouldn't have to settle for and accept near $4 a gallon 
gasoline prices. Continuing to increase our domestic supply, as these 
bills do, is the best way to respond to volatile price spikes.
    And while our country continues to face looming deficits, it's 
important to remember that energy production is a revenue generator. 
Increasing American energy production is one of the best things we can 
do to ensure job creation and economic growth.
    I want to take a moment to specifically touch on H.R. 1964, the 
National Petroleum Reserve Alaska Access Act that I introduced with my 
colleague from Alaska Rep. Don Young. Alaska is a tremendous energy 
asset for our Nation. But the Obama Administration appears determined, 
against the wishes of most Alaskans, to keep their energy resources 
off-limits.
    The NPR-A was specifically designated in 1923 as a petroleum 
reserve. Its expressed purpose was to supply our country with American 
energy. That's why it's completely unacceptable that the Obama 
Administration this year finalized a plan to close over half of the 
NPR-A to energy production. This bill would nullify that plan and 
require the Interior Department to produce a new plan for 
responsibility developing these resources.
    This bill would require annual lease sales in the NPR-A and ensure 
that necessary roads, bridges and pipelines needed to transport energy 
resources out of the NPR-A can be approved and completed in a timely, 
efficient manner. This is crucial to ensure that the Trans Alaskan 
Pipeline System (TAPS) remains full and operational.
    While most of the recent focus has been on the Keystone XL 
pipeline, and the House will consider a bill this afternoon to approve 
it, we cannot forget that TAPS is one of the most important pieces of 
energy infrastructure in our Nation. Reduced production in Alaska has 
left TAPS at less than half of its capacity, threatening a shutdown 
that would cost jobs and significantly weaken our energy security. We 
cannot allow that happen and developing our resources in the NPR-A is 
vital to ensuring that it doesn't.
    President Obama cannot continue to talk about his support for all-
of-the-above energy and then continue to pursue policies that actively 
block all types of energy production on our Federal lands. `All-of-the-
above energy' needs to be more than just a politically popular sound 
bite.
    The majority of the provisions in these bills passed the House last 
Congress with bipartisan support. It's time for Congress to once again 
move forward with these common sense, job-creating energy plans.
                                 ______
                                 
    Mr. Lamborn. You are certainly welcome. We will now have 
questions from Representative Tipton.
    Mr. Tipton. Thank you, Mr. Chairman, and I would like to 
thank our panel for taking the time to be able to be here. I 
think I would like to be able to start first, if I may, with 
Ms. Connell.
    In your testimony you had stated that, under H.R. 1394, 
that the primary purpose of the bill is to be able to promote 
energy development, rather than thoughtful decisions based on 
multiple-use management through public-based process. Can you 
point to me in the bill where it says that?
    Ms. Connell. I would have to take a look through my 
notebook, sir, to point exactly to where that is.
    Mr. Tipton. Yes, I would like you to be able to get back to 
us, actually, on that. Because I will be able to give you a 
head start on this. In Section 2(a) it requires the Secretary 
to ``be able to promote energy development and national 
security in accordance with the BLM land management mission of 
promoting multiple use on Federal lands, as set forth under the 
FLPMA policy.'' And I think that is worthy of note.
    This is a critical time for the United States. From Alaska 
to Colorado to New York to California, all across this land, we 
are seeing families right now that are struggling to be able to 
pay their bills, to be able to keep the lights on, young 
families, senior citizens on fixed incomes.
    And when we look at what is going on in the Middle East, 
and maybe this can just be a simple, yes-or-no sort of an 
answer, when we see what is going on in the Middle East, the 
challenges that we are facing being able to put Americans back 
to work, is it a responsible time for the United States of 
America to be able to put forward an all-of-the-above energy 
strategy, to be able to put Americans back to work, to be able 
to develop American energy resources, to be able to create 
American energy security on American soil? Ms. Connell?
    Ms. Connell. Yes.
    Mr. Tipton. It is. Sir?
    Mr. Sullivan. Yes, sir.
    Mr. Tipton. Ms. Brower?
    Ms. Brower. Yes, sir.
    Mr. Tipton. That is the purpose of H.R. 1394. I would 
think, and I will challenge the BLM, the Administration, 
actually, to be able to point in the bill where we eliminate 
any of the environmental safeguards, any of the requirements 
under the FLPMA policy for that all-of-the-above strategy, in 
terms of developing that public use of that public land.
    It is time that we put the politics aside and we stand up 
for the American people and American energy resources and 
American jobs for a change, rather than playing political 
games, when we can, responsibly, and should, responsibly, 
develop these resources on American soil.
    If we put forward that all-of-the-above strategy to develop 
American energy certainty, and we aren't removing those 
environmental requirements, maybe just yes and no, is that 
going to be a responsible way to be able to move forward? Ms. 
Connell?
    Ms. Connell. Do I have to say yes or no?
    [Laughter.]
    Mr. Tipton. It is pretty straightforward.
    Ms. Connell. Just a very quick add-on to that. I think that 
the BLM's concern, we support many of the goals of this bill. 
The concern is that in writing one environmental impact 
statement that would cover a nationwide energy development 
scenario that would, in fact, then provide for site-specific 
development seems a bit problematic. We would like to see 
something that would also allow for the environmental analysis 
at the site-specific level. And also recognize that we can 
improve efficiencies, and we should be able to do that----
    Mr. Tipton. You do note in the bill, however, that we give 
a lot of latitude in there to be able to work with the 
Secretary of the Interior, the Secretary of Agriculture, to be 
able to make those determinations. In fact, this bill 
specifically notes that we aren't telling you when and where to 
develop these resources. We just do need to develop them. Isn't 
that in the interest of our country?
    Ms. Connell. It is certainly in the interest of the country 
and a mission of the Bureau of Land Management to manage for 
multiple use, including oil and gas and other energy resources.
    Mr. Tipton. And that all-of-the-above that is specifically 
enumerated in the bill.
    Ms. Connell. Yes, sir.
    Mr. Tipton. Thank you. Sir?
    Mr. Sullivan. Congressman Tipton, just one thing from our 
experience in Alaska is certainly that you can responsibly 
develop the resources in an Arctic environment and protect the 
environment. And we think we have a very strong track record, 
the highest standards in the world, in terms of doing that. And 
that has been our goal, and we want to be able to do that on 
Federal land, as well.
    Mr. Tipton. Great. Ms. Brower, you probably love where you 
live, you like to be able to have clean air, clean water, and 
like to be able to turn on the lights. Can we responsibly 
develop these resources?
    Ms. Brower. Yes, sir, you can.
    Mr. Tipton. Great. Thank you. With that, Mr. Chairman, my 
time is about expired. I appreciate it.
    Mr. Lamborn. Thank you. Representative Cramer.
    Mr. Cramer. Thank you, Mr. Chairman and Ranking Member 
Holt, and all of the witnesses.
    Ms. Connell, I just want to sort of explore a little bit 
more Mr. Holt's discussion with you about the documentation fee 
in H.R. 1965. Would this be the only opportunity that the 
public would have to comment on the rules or on the process, on 
the NEPA process, is the only possibility for the public to 
comment would be with the $5,000 documentation fee?
    Ms. Connell. No, certainly the public can comment at any 
time during the environmental analysis. We have open comment 
periods, that is correct.
    Mr. Cramer. So what would the $5,000 cover, then? Is that 
not the formal protest that does, in fact, cost BLM a great 
deal to defend?
    Ms. Connell. Protests can, in fact, be costly. It is not 
clear to me exactly what were the thoughts of the people 
drafting the bill as to what the $5,000 fee would be used to 
cover.
    Mr. Cramer. Let me ask this, then, too, about the statistic 
regarding fewer protests and the decline in protests. Would it 
not stand to reason that since there are fewer leases, there 
would be fewer protests? Would that not be a common conclusion?
    Ms. Connell. I think if you counted them in numbers, that 
could be a problem. We have been evaluating that based on 
percentages. And a number of years ago we were receiving 
protests on more than 50 percent of our leases, and now it is 
down to somewhere around 18 percent.
    Mr. Cramer. All right. With that, I have no further 
questions and I would yield back. Thank you.
    Mr. Lamborn. Representative Cardenas, do you wish to ask 
questions?
    Mr. Cardenas. Yes.
    Mr. Lamborn. OK.
    Mr. Cardenas. Thank you, Mr. Chairman. I do have a 
question. When it comes to the permitting that goes through 
your Department, do we have permits that have been approved as 
of late in the last year, two, three, four, five? Yes, please.
    Ms. Connell. And are you asking for across the United 
States, or in a specific location?
    Mr. Cardenas. Across the United States, just a general 
activity.
    Ms. Connell. We have. As far as drilling applications, the 
number of permits have averaged around 4,000 for the last 
number of years. And, in fact, we have permitted approximately 
4,000 wells, on average, in recent years. And the number of 
wells drilled have been somewhere between 3,000 and 4,000.
    Mr. Cardenas. OK. So there is, in fact, a process that is 
accessible and it is usable, correct? As far as permitting 
goes.
    Ms. Connell. That is correct.
    Mr. Cardenas. OK. Thank you for the time, Mr. Chairman. I 
just wanted to clarify, because sometimes what happens, 
Americans read the press or what have you, and it seems it is a 
black or white issue, as though at one point in time the permit 
process was accessible and usable and permits were granted, and 
then all of a sudden, because some people say that perhaps the 
process is flawed, or we should make it better, or what have 
you, the press tends to report that there is complaints that it 
has come down to the point where people can't do business, or 
people can't access those resources.
    So, I just wanted to get that on the record, that it 
hasn't, the situation right now is not that permits aren't 
granted, or that activity is not occurring, it is just that in 
any situation, in my opinion, there is always room for 
improvement, and there is always room for an opportunity for 
us. When we say we want to be accessible, and that there be a 
process, that process be accessible as a process, and that 
there be a light at the end of the tunnel, where people can 
actually achieve and then actually obtain a permit. Thank you 
very much. I yield back my time, Mr. Chairman.
    Mr. Lamborn. Thank you. And let's have a second round of 
questions. I know some of you have come 5,000 miles and the 
other witness came 5 miles. But it is great that you are all 
here, so let's take advantage of this opportunity, and then we 
will go on to the second panel.
    Commissioner Sullivan, you say that your State withdrew its 
participation in the planning process because of reputed 
refusals by the BLM to consider Alaska's concerns. Can you 
elaborate on how or why they did not fully allow Alaska to take 
your concerns into consideration?
    Mr. Sullivan. Sure, Mr. Chairman. We had been a cooperating 
agency in the review process, and that is actually a legal term 
that enables you to supposedly have a significant influence on 
the decision. And our concerns throughout the process, and they 
are very voluminous, we can certainly submit them for the 
record, whether it is letters from the Governor, myself, many 
other State of Alaska officials, were, we viewed, not taken 
into account at all. And we, in many ways, are kind of the 
ultimate stakeholder up there on this issue, because it is so 
important to the State of Alaska. And even the number of 
meetings we had with BLM during the initial process, as this 
process was going forward, was limited to, like, one or two.
    So, we saw that the cooperating agency role that we were 
supposed to play was very, very limited. And the reason the 
Governor wrote a letter to Secretary Salazar withdrawing our 
participation is because, being a cooperating agency, you also 
have a bit of an imprint on the final decision. And we, saying, 
yes, were cooperating many times, we are good to go with that 
decision, and we were not good to go with that decision at all. 
It was certainly not the alternative of the many alternatives 
that were laid out. I think many other entities, the North 
Slope Borough, ASRC, who is going to testify later, had similar 
views.
    So that has been one of the themes, where we comment a lot, 
and we seem to get very, very little feedback or indication 
that our views are taken into account. And it is an important 
issue, because we don't consider ourselves just another 
stakeholder in the process. We are the other sovereign in the 
process. We are the other constitutionally-endowed entity 
involved in helping make this decision. So it has been 
frustrating.
    Mr. Lamborn. Thank you. Did any other statewide official in 
Alaska support the BLM plan?
    Mr. Sullivan. From the State of Alaska?
    Mr. Lamborn. That you are aware of.
    Mr. Sullivan. No, sir.
    Mr. Lamborn. OK, thank you. And specifically, Commissioner, 
what is it, is it the fact that 50 percent of the NPR-A is 
taken off the table? Is that what Alaskans considered a poor 
decision on the part of BLM?
    Mr. Sullivan. Yes, sir. That is the primary issue here. And 
they have been saying that, ``Well, we took 50 percent off the 
table, but the vast majority of the known resources in NPR-A 
were left on the table.'' We think that is an argument that is 
very flimsy. The latest proposal, the latest USGS estimates of 
what is in NPR-A, we think, had significant flaws. And, to be 
honest, it is an area that has enormous potential that hasn't 
really been looked at that much. So----
    Mr. Lamborn. And that is why you want to do the seismic 
project.
    Mr. Sullivan. Well, that is actually in the 1002 Area for 
ANWR.
    Mr. Lamborn. Oh, that is right, that is 1002.
    Mr. Sullivan. Yes, sir. But we think that the latest 
assessment that USGS did, and we worked very closely, my agency 
in particular, very closely with USGS, we have a great 
relationship with them. But we went to them after their latest 
assessment which dropped the oil potential in NPR-A by 90 
percent, 90 percent, and we went back to them and said, 
``Really, 90 percent, how did you get to that?''
    And so we had significant issues with the latest resource 
assessment, as well, which was part of the reason they claimed 
that they could cut the available leasing in half and not 
affect the resources available to the country. We think that is 
a conclusion that is, as I mentioned, on very thin ice.
    Mr. Lamborn. Supported by scientific evidence, or not?
    Mr. Sullivan. We think it is supported by an assessment, 
the latest assessment, that has significant problems with it.
    Mr. Lamborn. OK, thank you. And, Mayor Brower, besides the 
diversion of funding that you talked about earlier to several 
of us, what other objections do you have to the BLM plan?
    Ms. Brower. The concern that the North Slope Borough has is 
the decision, record of decision, that was made on the area 
that we felt would be better served for a use of leasing and 
not be made into a wilderness area, same as has been done to 
the ANWR.
    I would like to also state for the record that the National 
Petroleum Reserve Act that had been created in 1926 and in 
1940s the Department of Navy went and put all the stakes of 
where the National Petroleum--and in earlier years it was 
called PET4. My father-in-law, Harry K. Brower, Sr., was the 
man who helped a geologist from the Department of Navy and 
staked out all the National Petroleum Act. And if he were alive 
today, he would say, ``What did I do to my people?'' Because it 
is very disheartening when our people have to listen to our 
Federal Government, our State of Alaska, and then when we 
created our own borough, that--``What did I do,'' is what he 
would say.
    Anyway, he is a very true environmentalist. He wants to see 
his country, his area that he hunted and trapped for many years 
to be pristine. But he knows he had to feed his 9 children, the 
same as the way that I am with my 6 children and my 23 
grandchildren. We are all living in that area. So we live and 
breathe it. So, yes, we support development, as long as it is 
responsible development.
    Mr. Lamborn. OK.
    Ms. Brower. And we concur with the State of Alaska. 
However, we remain as a cooperating agency to BLM.
    Mr. Lamborn. OK. Thank you very much. Representative Holt?
    Dr. Holt. Again, thank you, Mayor Brower, for coming all 
this distance to advocate for your citizens.
    Let me turn to you, Mr. Sullivan. And I want to make sure 
that I am clear and that everyone is clear on the NPR-A 
management plan. You keep referring to the management plan 
applying to only half the area. But it applies, does it not, to 
nearly three-quarters of the resources that are to be made 
available for development.
    Mr. Sullivan. So, Congressman Holt, with all due respect, 
that was the point I was making earlier, that has been the 
number that the Department of the Interior laid out. And we----
    Dr. Holt. Yes. That is the plan. That is what I am asking. 
The plan says three-quarters, actually 72 percent.
    Mr. Sullivan. Right. So that is their----
    Dr. Holt. The resources would be available for development.
    Mr. Sullivan. No, but we disagree with that. We think that 
is a premature estimate based on the latest USGS estimates and 
again, we have highlighted this. And I do want to emphasize we 
have the utmost respect for USGS. We work super cooperatively 
with them across the board, probably the best State-Federal 
relationship on resources in the country.
    Dr. Holt. Well, I understand----
    Mr. Sullivan. But we had very significant----
    Dr. Holt. So your estimates of the resources are different 
than----
    Mr. Sullivan. Yes, and to----
    Dr. Holt. OK. Well, but----
    Mr. Sullivan [continuing]. Get to 82 percent was very----
    Dr. Holt. But I think maybe----
    Mr. Sullivan [continuing]. Premature for the Federal 
Government to say that, very premature.
    Dr. Holt. OK.
    Mr. Sullivan. There are not enough wells----
    Dr. Holt. OK, well, let me----
    Mr. Sullivan [continuing]. There has been little 3D seismic 
shock there----
    Dr. Holt. If I may, please?
    Mr. Sullivan. Sure.
    Dr. Holt. I think maybe a better measure, then, is--what 
are the oil exploration companies doing? And if you look after 
2005, oil and gas companies relinquished more than 100 leases 
in the reserve. In 2010, 64 leases were released. Currently 
there are no pending applications to drill. I think this means 
they are voting with their feet. They are saying the resources, 
they are choosing not to go for these.
    Mr. Sullivan. Well----
    Dr. Holt. And doesn't that have more to do with the fact 
that there is more gas and less oil?
    Mr. Sullivan. So, I think voting with their feet is a big 
picture item that relates to regulatory uncertainty. One of the 
biggest issues we had to deal with, with----
    Dr. Holt. Yes, they are saying the uncertainty of how much 
money they will get for the gas, and how they would transport 
or pipe the gas out of there. That is the concern----
    Mr. Sullivan. It is the uncertainty of----
    Dr. Holt [continuing]. That there is not much--I mean they 
are not going for the oil.
    Mr. Sullivan. Right now, ConocoPhillips is looking to do a 
development in the NPR-A that----
    Dr. Holt. Have they applied for a lease?
    Mr. Sullivan. Oh, they are going to drill it. The big 
problem with that, they have drilled it. The big problem with 
that was Fish and Wildlife and the EPA vetoed a Corps of 
Engineers' permit to build a bridge over the Colville River to 
actually access the oil out of NPR-A. And that is the kind of 
regulatory uncertainty that has been hurting development----
    Dr. Holt. That is on the basis of an issued permit, isn't 
it?
    Mr. Sullivan. No, that was going to be issued by the Corps 
of Engineers. All of us, the borough, everybody in the State of 
Alaska----
    Dr. Holt. That permit has been issued, has it not?
    Mr. Sullivan. We worked for 5 years on that, together----
    Dr. Holt. Has that permit been issued?
    Mr. Sullivan. It was denied. And for 2 years we all fought 
it together----
    Dr. Holt. So that permit has not been issued?
    Mr. Sullivan. They finally reversed themselves. But after--
--
    Dr. Holt. That is my point. That permit has been issued. 
Thank you.
    Mr. Sullivan. A long time it took, and a lot of 
uncertainty.
    Dr. Holt. OK. If you could answer a little more succinctly, 
because the time is limited.
    Mr. Sullivan. Sorry.
    Dr. Holt. If we are looking at H.R. 1394, often here in 
this Committee, the Majority talks about how the environment is 
different in different parts of the country, whether you are 
talking about fracking or other mining or extraction. And yet 
we have a bill, H.R. 1394, that for oil and gas and for 
strategic minerals, and even for coal, would have one 
environmental review for all production across the entire 
United States, and that review must be completed in 1 year.
    Let me ask the three panelists. Do you think this gives 
good local specificity?
    Ms. Brower. For the North Slope Borough? No.
    Dr. Holt. No? Mr. Sullivan----
    Ms. Brower. One year is not sufficient.
    Dr. Holt [continuing]. In a very few seconds, please.
    Mr. Sullivan. So certainly the State would like to be 
involved in any kind of environmental reviews with regard to 
resources----
    Dr. Holt. OK. So something handed down from Washington 
probably would not be local----
    Mr. Sullivan. We would want input on that.
    Ms. Connell. This was actually the area of our core concern 
for this bill.
    Dr. Holt. OK, thank you. Thank you, Mr. Chairman.
    Mr. Lamborn. You are welcome. Representative Tipton.
    Mr. Tipton. Mr. Chairman, I will yield my time to you.
    Mr. Lamborn. OK, thank you. Commissioner Sullivan, your 
plan for seismic exploration--that is, the State of Alaska's 
plan that you were describing earlier concerning ANWR?
    Mr. Sullivan. Yes, sir.
    Mr. Lamborn. Is contingent upon cooperation by the Federal 
Government. What is it that you would like from Congress or the 
Federal Government?
    Mr. Sullivan. Well, Mr. Chairman, right now we are going 
through a similar process that we went through on NPR-A with an 
ANWR comprehensive management plan. And the State and many 
other agencies have been very focused on trying to get an 
alternative in that plan that would enable the 1002 Area, that 
was the area set aside by Congress in the Federal act, to 
assess the oil and gas resource potential. It has been done 
previously by the Federal Government, it hasn't been done in 30 
years.
    We think that you can do it in an environmentally 
responsible way, ice roads, ice pads, the highest standards, 
with 3D seismic, limited exploration drilling, very limited 
impact on the environment. And then you, the Congress, the 
American people, would actually know what the resource is in 
the 1002 Area. It has been estimated to be above 11 billion 
barrels of oil.
    And so, we think it is so important that we have put 
forward a very specific scientific plan, and the Governor has 
said that the State will fund it up to $50 million, which would 
be about a third of the 3D seismic program. So we think it is 
very modest, hopefully going to enable bipartisan support, 
simply exploration, not development. Just to answer the 
question, why wouldn't you want to know what the resources are 
when BLM and Interior manage those lands, and Congress is 
focused on the 1002 Area as an important oil and gas province?
    Mr. Lamborn. Thank you. Also on Representative Hastings' 
bill, which is one of the four we are looking at today, it 
would direct the Administration to go back and get another 
option on the final management plan for the NPR-A. What was the 
State's preferred option?
    Mr. Sullivan. Mr. Chairman, I can get back to you on that, 
because it is A, B, C, and D, and I am not recalling exactly 
which one it is. But we can get back to you on that. But it was 
the one that we were focused on that had the most oil and gas 
leasing potential in NPR-A.
    Mr. Lamborn. OK, thank you. Director Connell, I want to ask 
you about an unrelated matter. Last week the Ocotillo Wind 
Project in California suffered a catastrophic accident when one 
of its 170-foot blades flew off. This is a few hundred yards 
from a busy highway. And hikers and others are in and about 
this immediate area. What has BLM done with regards to 
reviewing the cause of this failure, where the blade flew off?
    Ms. Connell. You are correct that we had an incident in 
California, where a wind turbine, a blade from a wind turbine, 
became detached. That was on May 16th, when it was reported to 
the BLM. The location has been shut down, the entire project, 
while the industry, as well as BLM and others, are looking to 
determine what has been the cause of that incident. All of the 
various towers and blades are being inspected.
    Mr. Lamborn. In that project, or elsewhere?
    Ms. Connell. Well, at this point in time we are inspecting 
that project, but we are looking to learn from that to see if 
there could be implications elsewhere.
    Mr. Lamborn. So if there is metal fatigue or something like 
that, and it seems possibly systemic, you will expand your 
investigation?
    Ms. Connell. Yes, sir.
    Mr. Lamborn. To other wind farms, would it be of towers 
made by that same manufacturer, or all wind towers?
    Ms. Connell. I wouldn't want to speak to the mechanical 
engineer based on that, but I think we will take the 
information we learned from this and use it to inform decisions 
we are making elsewhere.
    Mr. Lamborn. And does BLM contemplate putting additional 
safeguards in place to prevent, or at least mitigate the damage 
from this kind of catastrophic failure?
    Ms. Connell. If our investigations prove that to be the 
appropriate action, that is what we could do.
    Mr. Lamborn. OK, thank you. Now I would like to recognize 
Representative Cardenas.
    Mr. Cardenas. Thank you very much. I have a question 
regarding the either disagreement or the difference between the 
USGS estimates of 896 million barrels of oil versus the 10.6 
billion barrels of oil estimated in 2002. That is a tremendous, 
tremendous, over tenfold disparity. What seems to be the 
difference, in your opinion, of those two estimates?
    Mr. Sullivan. So, Congressman, we agree that when that came 
out, that was a big shock to us, because there has been a 
number of estimates in NPR-A previously that were all in a 
similar ballpark, but pretty significant. Huge amounts of gas, 
natural gas, always. But also very significant amounts of oil. 
So when that number came out, it was kind of shocking because, 
as you mentioned, it was a 90 percent drop.
    So we had worked with and wrote letters, again, to the 
USGS. We have the utmost respect for that agency, but we 
thought it failed to consider and looked at a very limited 
number of exploration wells. So, as you can imagine, in an area 
that large, basing something so dramatically with regard to a 
downgrade----
    Mr. Cardenas. Well----
    Mr. Sullivan [continuing]. Based on a few wells, we 
thought, was not a very scientific----
    Mr. Cardenas. Because time is limited----
    Mr. Sullivan. Sorry.
    Mr. Cardenas [continuing]. Could we get to this set of 
points, if you have them, and that it was, in your opinion, was 
it a technology difference? Was it a scope of the amount of 
testing and/or information gathering was maybe a 10-to-1 
difference? I mean was----
    Mr. Sullivan. It was principally, we thought it was based 
on very limited data, not enough seismic, not enough wells. 
And, for example, it didn't even touch the issue of 
unconventional oil and gas, which we think in Alaska has 
enormous potential, the shale oil, shale gas. Didn't even look 
at that.
    Mr. Cardenas. OK. So the 2002 estimate, what was the 
difference between the scope and/or the magnitude of that 
testing and that figure that resulted?
    Mr. Sullivan. Well, I mean, that had been the basis of a 
number of previous work, including some of the work that 
industry had done. And even that, to be honest, did not really 
look hard at the unconventional potential in Alaska, which now 
everybody is starting to look at.
    And to give USGS credit, they are starting to go up and do 
a broad-based survey of Alaska unconventional oil and gas 
resources, which we think is going to show very significant 
amounts of additional prospects.
    Mr. Cardenas. Now, in that span of 10 years, I mean I am an 
engineer myself, and looking at the last 30 years, the last 20 
years, the last 10 years, and the last 2 years, in the hope of 
advances in technology over the next 6 months, shouldn't tests 
or estimates that are given in 2012 potentially have a better 
opportunity for accuracy than what happens in 2002?
    Mr. Sullivan. You would think so, but we thought that it 
actually----
    Mr. Cardenas. Are both departments actually using the same 
technologies on these estimates?
    Mr. Sullivan. What we typically do, both departments, with 
regard to what the Department of Natural Resources has the 
ability to do and USGS, is look at seismic data, look at well 
data, discuss the prospects that have been drilled with 
industry. And we thought that, in this case, basing such a 
huge, dramatic drop on the oil side didn't take into enough of 
that, that there wasn't enough data to justify such a dramatic 
drop. That has been our basic issue, in addition, not even 
looking at the unconventional potential.
    Mr. Cardenas. So my last question, Mr. Chairman, is how do 
both of the departments determine how much resources/funds that 
they get to actually do that component of their job?
    Mr. Sullivan. Well, one of the things, it is a little bit 
off the topic, but one of the things that we are trying to do 
on the ANWR proposal that we put forward is advance the very 
issue that you are talking about, which is to actually shoot 3D 
seismic, only 2D seismic has been shot in the 1002 Area, and 
that was in the early eighties, so that is 30 years old. And 
because we know the Federal Government has limited funds, we 
said we would step up and put $50 million toward that program, 
which would be about a third of the cost to do that.
    And that is why we think it is reasonable, and we certainly 
hope the Federal Government takes us up on it, to have a really 
good, up-to-date, modern assessment of what is in the 1002 
Area. And right now, unfortunately, we are getting a little bit 
of silence from the Department of the Interior on whether they 
want to partner with us on that. The Governor wrote Secretary 
Jewell a letter over the weekend that specifically said the 
Department of Geological Survey in Alaska has a great 
relationship with the USGS, it would be great if these two 
entities could work together with the $50 million to shoot a 3D 
seismic program, and it would address with much more certainty 
what we have in that important part of Federal lands.
    Mr. Cardenas. Mr. Chairman, it would be great to see how 
both of the departments would address future exploration and/or 
estimates, and whether or not they have internal resources that 
they could shift and/or dedicate, or if they would have to come 
to us and ask us for those resources.
    Mr. Lamborn. Absolutely. Thanks for raising that point.
    I want to thank the witnesses all for being here. I know 
you came a long way, and, at least in two of your three cases, 
and thank all of you for being here and providing the testimony 
and the answers to our questions.
    For the witnesses, Members may have additional questions. 
And if those are submitted to you in writing, we ask that you 
would respond to those, as well. Thank you.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Mr. Lamborn. I would like to now have the second and last 
panel come forward. We have Mr. Richard Glenn, Executive Vice 
President of Lands and Natural Resources for the Arctic Slope 
Regional Corporation; Mr. Jack Ekstrom, Vice President of 
Corporate and Government Relations for Whiting Petroleum 
Corporation; Mr. William Britain, President and CEO of 
EnergyNet.com, Inc.; Ms. Debbie Miller, Founder and Member of 
the Board of Directors of the Alaska Wilderness League; and Mr. 
Jim Spehar, former Mayor of Grand Junction, Colorado, and whose 
son lives in my district and is a constituent.
    Like all our witnesses, your written testimony will appear 
in full in the hearing record, so I ask that you keep your oral 
statements to 5 minutes. Our microphones are not automatic, so 
you have to push the button to begin. The timing lights work in 
the following way. It is green when you start at 5 minutes. 
After 4 minutes, it turns yellow. And then after 5 minutes, 
when you need to stop, it turns red.
    Mr. Glenn, you may begin.

STATEMENT OF RICHARD K. GLENN, EXECUTIVE VICE PRESIDENT, LANDS 
    AND NATURAL RESOURCES, ARCTIC SLOPE REGIONAL CORPORATION

    Mr. Glenn. Thank you. Thank you, Chairman Lamborn and 
Committee members. My name is Richard Glenn. And, like Mayor 
Brower, I am a resident of Alaska, Alaska's North Slope. We 
live inside the National Petroleum Reserve in Alaska. I am the 
Vice President of Lands for Arctic Slope Regional Corporation. 
And we depend on this environment, both for the resources it 
provides the country in terms of oil and gas, and for what we 
call the subsistence resources, the food and the cultural ties 
that have sustained us for centuries.
    Mr. Chairman, in our region the proportion of land owned by 
the Federal Government is remarkable. We think it exists 
nowhere else in the country. We are talking about 23 million 
acres of NPR-A lands, 19 million acres of lands in the Arctic 
National Wildlife Refuge, 7 million acres in the Gates of the 
Arctic National Park. These are huge swaths of Federal lands 
managed by Congress and the Federal agencies.
    Within this area is the National Petroleum Reserve. It is 
the center of our region. It is our home, and it contains four 
of our communities. It is also a petroleum reserve, though. It 
holds the potential of oil and gas resources of national 
interest. And safe and responsible oil and gas development is 
the only industry in our region that has been around long 
enough to foster improvements to the quality of life in our 
communities. There is no agriculture, no fishing, no timber. 
There is only the oil and gas industry in our region.
    Arctic Slope Regional Corporation and the people of the 
North Slope have a heightened concern for the environmental 
effects of oil and gas exploration and development, because we 
live there. Regarding risks related to this industry, no one 
has more at stake than we do. It is for these reasons that we 
support H.R. 1964, specifically Sections 4 and 5. We appreciate 
the Committee's efforts to require the Department of the 
Interior to go back to the drawing board with respect to the 
recently finalized integrated activity plan for NPR-A.
    We met with Interior representatives only after they formed 
a record of decision. If you ask me, I would say there was 
insufficient meaningful consultation with the native land 
owners or the municipalities within NPR-A.
    The current NPR-A plan is ambiguous with respect to rights 
of way also for pipelines. When a preferred and alternate route 
for pipelines are identified, our communities will want to be 
at the table to discuss all of the options. Further, we believe 
that the subsistence resources, the animals, the fish, the 
water fowl, the caribou, they don't recognize lines on a map. 
They migrate in and out of the region in huge annual 
migrations. And no special habitat protection is going to 
protect these resources.
    Instead, what is going to happen is that the protection of 
these resources exists by the sheer size of the petroleum 
reserve, itself. Most of the reserve will remain untouched 
because of its huge size and the widely spaced nature of the 
oil and gas resources. So it is for these reasons that we 
should allow development to occur in the few places where it 
exists, especially if it is shown not to have an impact on 
wildlife species. So, we have opposed any designations that 
would erect additional barriers to responsible oil and gas 
development.
    In our region, millions of acres are locked up as 
wilderness, national parks, and similarly other restrictive 
status for other lands. More of these efforts threaten to paint 
us into a corner within our own region.
    On Monday, the State of Alaska proposed the wintertime 
exploration of the Arctic National Wildlife Refuge. We support 
the State's proposal. This exploration of the coastal plain 
done in wintertime has no lasting, permanent effects on the 
land. It is safe, and it occurs over snow cover. Evaluation of 
the coastal plain will give Congress and the American people 
enough information then to make reasonable decisions about the 
public lands and the wildlife refuge.
    Thank you for the opportunity to provide input in this 
process. And as Congress goes forward to debate this issue, I 
ask that you remember the impacts that your decisions will have 
on our communities, our culture, and our people. Thank you.
    [The prepared statement of Mr. Glenn follows:]

Prepared Statement of Richard K. Glenn, Executive Vice-President, Lands 
        and Natural Resources, Arctic Slope Regional Corporation

    Chairman Hastings, Ranking Member Markey, and distinguished members 
of the Subcommittee, thank you for allowing me this opportunity to 
provide comments today. My name is Richard Glenn and I am the Executive 
Vice President of Lands and Natural Resources for Arctic Slope Regional 
Corporation. I live in Barrow, Alaska. My professional background is in 
geology and Arctic geologic processes. Like most of my fellow community 
members, I also depend on the land and sea for what we call subsistence 
resources, the food and cultural web that has sustained us for 
centuries.
    The Arctic Slope Regional Corporation is one of the 12 land-based 
Native regional corporations created by Congress pursuant to the Alaska 
Native Claims Settlement Act of 1971.
    ASRC owns approximately 5 million acres of land, and represents the 
interests of approximately 11,000 Inupiat Eskimo shareholders, that 
mostly reside in 8 communities within Alaska's North Slope. The mandate 
prescribed by law to ASRC requires ASRC to return benefits back to our 
people. The only asset transferred to ASRC through this act was land 
entitlement. We continue to explore options on how to use this asset to 
return those benefits back to our people. ASRC lands are impacted by 
the Federal management decisions in NPR-A. As one of the largest 
private landowners within the NPR-A, its decisions affect our 
corporation and our people.
    The North Slope and State of Alaska economies are dependent upon 
finding and developing new oil and gas resources. Communities within 
NPR-A are even more dependent. They are at the tip of the spear on the 
effects of management decisions on public lands in Alaska.
    Our villages are small and separated by great distance in an area 
about the size of the State of Montana. No roads connect our villages. 
My hometown of Barrow is a coastal community located inside NPR-A, 340 
miles north of the Arctic Circle, near the boundaries of both the 
Chukchi and Beaufort Seas.
    The proportion of Federal land owned by the Federal Government in 
one region is remarkable. It does not exist anywhere else in the United 
States. NPR-A, 23 million acres, ANWR, 19 million acres, and the Gates 
of the Arctic National Park, 7 million acres--these are huge swaths of 
land controlled by decisions made in Congress and Federal agencies such 
as the Department of the Interior. The National Petroleum Reserve in 
Alaska is the center of our home. Larger than some Eastern Seaboard 
States, the NPR-A has no roads and only four of our Inupiat 
communities. The region hosts huge populations of migratory animals. 
Caribou, fish, waterfowl and others; they do not recognize lines on a 
map, but move in and out of the area in sweeping migrations.
    The NPR-A is also a petroleum reserve; it holds the potential of 
oil and gas resources of national interest. Within its boundaries are 
also the corridors for the development of important resources in 
Alaska's outer continental shelf.
    Committee members, in just my lifetime, our communities have gone 
through great change, with developments that have improved the quality 
of life from formerly very harsh conditions. Today, our ``villages'' 
are actually small cities with small city needs: reliable power, water 
and sewer treatment facilities, health services, fire protection, 
airports and schools.
    Our people depend on these services. We have not looked to many 
Federal or even State-funding sources to build our community 
improvements. They were developed thanks to our home-rule municipality, 
the North Slope Borough, and a locally-derived property tax base based 
on oil and gas exploration. There is essentially no other economy in 
our region. Safe and responsible oil and gas development is the only 
industry that has remained in our region long enough to foster village 
improvements that have improved our quality of life. There is no 
agriculture, no fishing, and only a modest tourist presence. In short, 
Alaska's North Slope Native people, depend upon continued development 
to sustain their communities. So oil and gas development is important 
to us, perhaps even more than to our State and Nation.
    The volume of oil being produced in Alaska is in deep decline, 
producing today at less than one-third the rate of its peak production 
of 2 million barrels per day and continues to drop every year. This 
decline has caused us to question the future of the communities that we 
have worked so hard to improve. We have asked ourselves: where will our 
grandchildren go to school, what will power their villages, how will 
their communities be sustained? With prospective onshore areas now off-
limits, we may be unable to offset it in the near term. This decline is 
not just a lingering tail of decreasing production, but can become a 
``brick wall'' when the pipeline reaches its minimum throughput limits 
and is unable to move production. Hence, the need for significant new 
production.
    We understand that the currently-known onshore resources are not 
enough to stem the decline in production; they only reduce its 
severity. New exploration is needed. Oil, as they say, is where you 
find it. We have hydrocarbons-coal, natural gas and oil, and in some 
places we have them in abundance. Resource potential exists on both 
State- and federally-owned owned lands, as well as private lands owned 
by North Slope Alaska Natives, including prospects in the NPR-A. NPR-A 
and the Alaskan offshore represent the future; they will help fill the 
gap in throughput capacity in coming years.
    ASRC and the people of the North Slope have a heightened concern 
for the environmental effects of oil and gas exploration and 
development. We live there. Regarding environmental risks, no one has 
more at stake than we do.
    It is for these reasons that we support H.R. 1964. Specifically, 
Sections 4 and 5.
    We appreciate the Committee's efforts to require the Department of 
the Interior to ``go back to the drawing board'' with respect to the 
recently finalized NPR-A Integrated Activity Plan. We met with Interior 
representatives only after they formed a Record of Decision for the 
NPR-A. If you ask me, I would say there was insufficient meaningful 
consultation with Native landowners or municipalities.
    The current NPR-A Integrated Activity Plan is ambiguous with 
respect to rights-of-way. Clarity and certainty is needed, and H.R. 
1964, provides both. When preferred and alternate routes for pipelines 
are identified, our communities will need a seat at the table to 
discuss the options. We want to be part of the process that preserves 
the subsistence hunting and fishing rights of our people, while 
delivering domestic energy to our region and to the Nation.
    Further, we believe it is important to recognize that the 
subsistence resources do not recognize lines on a map. The areas of 
special habitat protection in general will do nothing to protect those 
resources. Caribou, waterfowl and fish move across the petroleum 
reserve and far beyond as part of their annual migration. I believe 
that much of the NPR-A affected by the recent Record of Decision will 
remain untouched, due to its large size and widely-spaced energy 
potential, not because of any special environmental protection. It is 
for these reasons that we allow development in the places where such 
potential exists, especially if it is shown to have little or no 
impacts on wildlife species.
    We were frustrated with the lack of meaningful consultation during 
the IAP/EIS process with tribal and other Native groups. The Record of 
Decision now includes a role for the North Slope Borough, as well as 
our village and regional corporations who are landowners within the 
petroleum reserve. That is a good thing, but the Interior Department 
should have incorporated local input before, and not after the Record 
of Decision.
    ASRC and the North Slope Borough have participated in all four of 
the NPR-A IAP/EIS processes since 1999. Through extensive consultation 
and collaboration with all of the stakeholders in NPR-A, prior 
administrations including those under Interior Secretaries Babbit 
Norton accepted and considered local input prior to forming their 
management decisions. The result was a more ``balanced plan'' to which 
all parties generally agreed.
    ASRC believes that responsible oil and gas development on the North 
Slope and offshore allows ASRC to meet its congressionally-mandated 
obligations to its Alaskan Native shareholders. We continue to believe 
that responsible resource development and appropriate management of 
resources, including subsistence resources, are not mutually exclusive 
goals. Responsible development also provides a safe and secure source 
of energy to the Nation, creates important jobs, and helps ensure 
future flow through the Trans-Alaska Pipeline System. Public law states 
the NPR-A is to be managed ``in a manner consistent with the total 
energy needs of the Nation.'' The discovery and development of oil and 
gas resources in the Arctic, including in the NPR-A, is needed to meet 
the ``total energy needs'' of the country.
    We have opposed any designations that would erect additional 
barriers to responsible oil and gas exploration in the NPR-A where 
there is no demonstrated need. Millions of acres on the North Slope are 
already essentially locked up as Wilderness, National Parks or 
similarly restrictive status, and more of these efforts threaten to 
``paint us into a corner'' within our own region.
    The petroleum reserve, set aside by President Warren Harding in 
1923, was explored by the U.S. Navy in the 1940s and 1950s using older 
methods that polluted some lands and damaged the landscape. The Bureau 
of Land Management recently published its management plan for the 
cleanup of what are now called legacy wells in NPR-A. We support the 
plan, and our residents will benefit from the BLM's goal of remediating 
the most hazardous legacy wells first. The cleanup of the legacy wells 
is a debt owed to North Slope residents and the American public. It 
should be supported by the Federal budget, as is the case with formerly 
used defense sites, for example, and not from Federal proceeds that 
would otherwise be going to North Slope communities.
    We are encouraged that Congress is taking the appropriate steps to 
require the DOI to revisit its decision.
    Perhaps the Committee is also aware that yesterday the State of 
Alaska proposed to Interior Secretary Jewell the wintertime exploration 
of the 1002 Area of the Arctic National Wildlife Refuge (ANWR). We 
support the State's proposal because it is directly aligned with our 
message on ANWR that has been unchanged now for more than 20 years. 
Exploration of the Coastal Plain, mandated by law, can be performed in 
the wintertime and leave no lasting impacts on the land. Seismic 
evaluation of the Coastal Plain will give Congress and the American 
people the information needed to make reasonable decisions of the 
public lands in the wildlife refuge.
    Mr. Chairman and committee members, thank you for the opportunity 
to provide input into this process. Our intent is to remain at the 
table with both government agencies and industry explorers. Please do 
not to prevent us from meeting our responsibility to our grandchildren 
and future generations. As Congress goes forward to debate this issue, 
I ask you to remember the impacts that your decisions will have on our 
communities, our culture and our people.
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony and for being 
here.
    Mr. Ekstrom?

  STATEMENT OF JACK R. EKSTROM, VICE PRESIDENT, CORPORATE AND 
      GOVERNMENT RELATIONS, WHITING PETROLEUM CORPORATION

    Mr. Ekstrom. Chairman Lamborn and members of the Committee, 
good morning. I am Jack Ekstrom, Vice President of Whiting 
Petroleum Corporation, a Denver-based, New York Stock Exchange-
traded exploration and production company. Whiting was founded 
in 1980, and has endured the ups and downs of the exploration 
production business since then. Whiting became a publicly 
traded company in 2003 and, through acquisitions, doubled the 
size of the firm in 2004, and again in 2005. Among those 
acquisitions were properties in North Dakota that provided 
Whiting with the toehold that has allowed us to become the 
number one oil producer in the State.
    How does that translate into jobs? When Whiting went public 
in 2003, we had 110 employees. As of May 1, 2013, Whiting 
employed 850 individuals. And that represented an increase of 
more than 100, just this past year. In Whiting, we now have 
more than 180 open positions.
    A drilling rig employs approximately 25 individuals, and a 
frack crew employs approximately 65 individuals. We have two 
full-time frack crews employed. There are approximately 40 
vendors involved in the drilling of any well. If each vendor 
had only a single employee, that would be another 40 jobs. And 
you add it all up and it approaches 700 indirect jobs created 
by our activity alone. These people need a place to live, they 
need food, daycare, schools, stores, and churches. The impact 
of our efforts on the economy, obviously, is far-reaching.
    We are fortunate that oil-bearing shale such as the Bakken 
in North Dakota and Montana, the Niobrara in Wyoming and 
Colorado, and the Eagle Ford in Texas exist in the United 
States. Much of the surface and mineral ownership in these 
locales is by individuals, with a minor ownership by the 
Federal and State governments. Obtaining permits from the State 
agencies is a reasonable process. Areas where we are having 
difficulty, however, are on Forest Service lands in Stark 
County, North Dakota, and the Pawnee Grasslands in Weld County, 
Colorado. The average time to receive an approved Federal 
drilling permit is 298 days for us. On average, we receive an 
approved drilling permit from North Dakota and Colorado 
regulators in less than 40 days.
    Whiting, like the vast majority of our peers, strives to 
prudently manage our assets for our shareholders, for the State 
and Federal Government areas where we operate, and for the 
mineral interest owners who have allowed us to develop their 
resource. We strive to be good stewards of the environment, to 
preserve the environmental resource for future generations.
    I have provided the Committee a Whiting map of operations 
in a portion of Colorado. It provides graphic evidence of how 
our operational focus and many other operators is on private 
and State-owned lands. On this map, the light green shaded 
acreage is federally owned. Many of these tracks are relatively 
small, and you can see that if you get up close to this map. 
These Federal lands have been nominated multiple times in 
recent years, but they have never been offered, though our 
conversations with leasing authorities have made clear we and 
others, as lessees, would be happy to accept no surface 
occupancy stipulations.
    Nevertheless, the lands are not offered, and U.S. citizens 
are denied the multiple benefits associated with their 
development. This is not only the case in Colorado. The Federal 
Government owns millions of acres prospected for oil and gas 
across the Intermountain West.
    The unmistakable conclusion is that the prosperity, the 
jobs, the harvest of domestic resources from unconventional oil 
and gas plays, enhanced recovery projects, and technology 
breakthroughs to come, can only be realized to their potential 
by mandating the Department of the Interior devise and 
publicize a plan to encourage development, provide leasing 
certainty, and streamline oil and gas permitting.
    Thank you for the opportunity to present our views, and I 
look forward to your questions.
    [The prepared statement of Mr. Ekstrom follows:]

 Prepared Statement of Jack R. Ekstrom, Vice President, Government and 
           Corporate Relations, Whiting Petroleum Corporation

         TESTIMONY ON H.R. 1964, H.R. 1965, H.R. 1394, H.R 555

Tapping America's Unconventional Oil Resources for Job Creation and 
        Affordable Domestic Energy: Technology, Policy and Legislative 
        Pathways
    Mr. Chairman Lamborn, and members of the Committee. Good morning. I 
am Jack Ekstrom, Vice President of Whiting Petroleum Corporation, a 
Denver-based, New York Stock Exchange traded Exploration and Production 
Company. Whiting was founded in 1980 and has endured the ups and downs 
of the E&P business since then. Whiting became a publicly traded 
company in 2003 and through acquisitions doubled the size of the firm 
in 2004 and again in 2005. Those acquisitions provided three assets 
that today comprise approximately 95 percent of our 345 million barrels 
of oil equivalent (BOE) reserves. Those assets are the Postle Field, 
located in Texas County, Oklahoma; the North Ward Estes Field located 
in Ward and Winkler Counties, Texas; and several properties in the 
Williston Basin of North Dakota that provided Whiting with the toe hold 
that has allowed us to become the number three oil producer in that 
State.
    What sets Whiting apart from many of our peers is we are an oil 
company. Based on either production or reserves we are approximately 85 
percent oil. In the first quarter of 2013 our net production was just 
over 89,000 BOE per day. What has enabled Whiting to grow production 
from 33,100 BOE per day in 2005 to over 89,000 BOE per day in 2013 is 
technology. Drilling horizontal Bakken wells in North Dakota is not a 
new concept. In the late 1980s and early 90s several operators were 
drilling horizontal wells in the Bakken. However it was taking them XXX 
days and they were relying totally on Mother Nature to provide the 
fracturing. Sometimes she provided it, sometimes she did not. That 
activity was followed by a round of drilling in 2000 through 2005 in 
the Elm Coulee Field in Richland County, Montana. In this round of 
drilling, horizontal wells were drilled not in the Bakken Shale, but in 
a dolomitic section in what was identified the Middle Bakken. These 
4,000 to 7,000 foot laterals were fracture stimulated with one big frac 
job. This effort was very successful and was responsible for the big 
production increase that occurred in Montana during the early part of 
this century.
    Whiting did not have a material lease position in the Bakken in 
Montana, so we tasked our technical staff to look other places in the 
Williston Basin and in other basins where we might repeat what had 
occurred in the Elm Coulee field. We had learned that we probably did 
not want to drill in the shale, we needed a poor grade reservoir rock 
to provide the conduit for the oil to get from the shale to the 
horizontal wellbore. Staff identified an area on the Eastern side of 
the Williston Basin in a very lightly drilled area in Mountrail County, 
North Dakota. Whiting leased around 100,000 acres and drilled several 
wells utilizing the same technology that had been employed in Montana 
and the results were not very encouraging. Other operators were also 
attempting to get the Bakken to produce in North Dakota and they were 
also having mixed results. In August of 2007 Whiting drilled a well 
named the Locken 11-22H. This well was drilled across two sections, 2 
square miles, with a lateral length of approximately 10,000 feet. A new 
Frac Point technology being developed by Baker Hughes was utilized 
where we ran 10 swell packers on the outside of the 4\1/2\" diameter 
pipe that was installed in the horizontal portion of the well. When 
swell packers come in contact with hydrocarbons, they adsorb the 
hydrocarbon, swell, and create a seal between the pipe and the rock 
walls of the borehole. This segregates the horizontal wellbore into 10 
separate sections. In between each set of swell packers is a sliding 
sleeve that is opened by dropping successively larger ceramic balls to 
activate the sleeves. This allows the horizontal wellbore to be 
hydraulically fracture-stimulated 10 times, rather than just a single 
time as earlier technology allowed. This technology was a game changer. 
The Locken had an initial production rate over 1,600 BOE per day.
    Today, in the Bakken, Whiting drills down 10,000, vertically, close 
to 2 miles, turns and drills a 6\1/4\" diameter hole horizontally for 
another 2 miles. We run 4\1/2\" pipe in the well. Sliding sleeve 
technology has advanced and now allows us to run up to 40 sliding 
sleeves and swell packers on the outside of the pipe. The drilling rig 
is moved off, production facilities are constructed, frac tanks are 
moved on location and filled with up to 50,000 barrels (2.1 million 
gallons) of water. A pressure pumping company is moved on location and 
the wells are frac'd with up to 2 million pounds of sand in 40+/- 
individual frac stages. This entire fracture stimulation treatment is 
completed in around 24 hours. The pressure pumping company is moved off 
location and the well is placed on production.
    Our goal is to have zero gas emissions from the well during 
flowback. The associated gas produced with the Bakken oil must be 
processed before it can be sold. The gas has a high BTU content in its 
native state. Whiting has constructed two gas plants in North Dakota; 
one in Mountrail County and a second in Stark County to process this 
gas. Liquids are removed from the gas and we sell the residue into the 
local market. We are processing as much gas from other operator's wells 
as we are from the wells Whiting has drilled. We have built two oil 
gathering systems and we are transporting as much of the produced oil 
as possible from the basin via pipeline.
    If the frac job is performed in Sanish Field, a micro-seismic 
survey of the frac is recorded to determine what portion of the 
reservoir was frac'd. In March of 2010 Whiting completed the 
installation of 298 permanent seismic monitors across the Sanish field. 
This installation allows us to record data and map the fracture 
stimulations to determine the rock volume contacted with the frac job.
    I am going to switch gears and talk a bit about our Enhanced Oil 
Recovery projects. We are utilizing CO<INF>2</INF> to recover an 
additional 15-20 percent of the oil in these reservoirs. At North Ward 
Estes, in Texas we are injecting 325 million cubic feet per day of 
CO<INF>2</INF> managing 790 patterns containing more than 2,000 wells 
total. About one-half of the CO<INF>2</INF> we inject stays in the 
reservoir. The CO<INF>2</INF> that is recycled is separated, purified 
utilizing a membrane technology and re-injected. Whiting has recently 
executed a contract with Summit Energy to utilize the CO<INF>2</INF> 
from their coal gasification plant.
    Much of what I have discussed would not have been possible even 5 
years ago. Unconventional resource plays and technology have impacted 
every facet of our business from consummating the lease to reporting 
production. Because of the size of the resource plays we have gone from 
leasing portions of townships to leasing counties. To assist with this 
effort we have digitized lease records for entire counties. We 
routinely drill a 20,000, horizontal well in 15 to 20 days. We utilize 
technology to send information being recorded at the bit to the surface 
in real time. The engineers and geologists in Denver can access this 
information at their desk. Sliding sleeve technology has continued to 
advance. Whiting was the first company to pump a 24 and 40 stage frac 
utilizing sliding sleeves.
    We have a rock lab located in our Denver office where we have two 
scanning electron microscopes (SEM) to help us understand how oil is 
produced from these unconventional reservoirs. The resolution with 
these microscopes is about a nanometer, about the size of a methane 
molecule. The Helios Nanolab 650 SEM allows us to create a 3D 
visualization of a cube of the reservoir rock. With this 3D 
visualization we can examine the size and shape of the pore throats in 
the rock. What we have learned is although natural gas will flow 
through a shale, i.e. the Barnett, oil molecules are too large to fit 
through the pore throats. We need to find a pseudo-reservoir located in 
proximity to the shale to allow oil to be produced. Our goal is to 
transfer what we have learned in North Dakota to other basins. We are 
actively working in the DJ Basin in Colorado and the Delaware Basin in 
west Texas. In each of these areas our results are encouraging. We 
believe there is potential to utilize what we know in several other 
prospects located in other basins in the lower 48 States.
    How does this translate into jobs? When Whiting went public in 2003 
we had 110 employees. As of May 1, 2013 Whiting employed 850 
individuals. In Whiting we now have more than 180 open positions. Today 
we have 24 drilling rigs in operation. A drilling rig employs 
approximately 25 individuals. A frac crew employs approximately 65 
individuals and we have two full time frac crews employed. There are 
approximately 40 vendors involved in the drilling of a well. If each 
vendor had one employee, that would be another 40 jobs. Add it all up 
and it approaches 600 indirect jobs created by our activity. These 
people need a place to live, they need food, and schools and Walmarts. 
The impact of our efforts on the economy is far reaching.
    A topic getting a fair share of attention these days is the price 
of gasoline at the pump. Oil companies get lumped together and get 
blamed for the price of gas. In this regard, Whiting is similar to the 
farmer, we are price takers. We try to protect our cash flow utilizing 
hedges and the commodity markets but we have little influence on the 
overall price. To impose legislation that would make it more expensive 
to produce oil would make no sense. Along those lines, the Keystone XL 
pipeline was (or is) scheduled to transport around 200,000 barrels per 
day of North Dakota production to the refining markets. This would be 
most beneficial and help alleviate the high price differentials that 
have been experienced in North Dakota. This would improve the net backs 
and increase the royalties paid to the Federal Government, the State of 
North Dakota and the mineral interest owner.
    We are fortunate that oil-bearing shales, such as the Bakken in 
North Dakota and Montana, the Niobrara in Wyoming and Colorado and the 
Eagle Ford in Texas exist in the United States. Much of the surface and 
mineral ownership in these locales is by individuals with a minor 
ownership by the Federal and State governments. Obtaining permits from 
the State agencies is a reasonable process. Areas where we are having 
difficulty are on Forest Service lands in Stark County, North Dakota 
and in the Pawnee Grasslands in Weld County, Colorado. The average time 
to receive an approved Federal drilling permit is 298 days. On average 
we receive an approved drilling permit from North Dakota and Colorado 
regulators in less than 40 days.
    Whiting, like the vast majority of our peers, strives to be a good 
steward of our assets for our shareholders, for the State and 
governmental areas where we operate, and for the mineral interest 
owners who have allowed us to develop their resource. We strive to be 
good stewards of the environment to preserve the environmental resource 
for future generations.
    I am providing a Whiting map of operations in a portion of Colorado 
to the Committee. It provides graphic evidence of how our operational 
focus, and many other operators, is on private and State-owned lands. 
On this map the green shaded acreage is federally owned. Many of these 
tracts are relatively small and are surrounded by State and private 
acreage that has been leased. These Federal lands have been nominated 
multiple times in recent years, but they have never been offered, 
though our conversations with leasing authorities have made clear we as 
lessees would be happy to accept ``no surface occupancy'' stipulations. 
Nevertheless, the lands are not offered and U.S. citizens are denied 
the multiple benefits associated with their development.
    This is not only the case in North Dakota. The Federal Government 
owns millions of acres prospective for oil and gas across the Inter-
Mountain West. The unmistakable conclusion is that the prosperity, the 
jobs, the harvest of domestic resources--from unconventional oil and 
gas plays, enhanced recovery projects and technology breakthroughs to 
come--can only be realized to their potential by mandating the 
Department of the Interior devise and publicize a plan to: encourage 
development, provide leasing certainty and streamline oil and gas 
permitting.
    Thank you for the opportunity to present our views.

    [GRAPHIC] [TIFF OMITTED] T1285.001
    
                                 .eps__
                                 
    Mr. Lamborn. You are certainly welcome.
    Mr. Britain?

      STATEMENT OF WILLIAM W. BRITAIN, PRESIDENT AND CEO, 
                      ENERGYNET.COM, INC.

    Mr. Britain. Chairman Lamborn, Representatives, staff 
members, we very much appreciate the opportunity to get to be 
here today. I want to recognize the bill's sponsor, 
Representative Johnson of Ohio.
    The BLM Live Internet Auctions Act, H.R. 555, provides the 
opportunity to dramatically improve the Bureau of Land 
Management sale of on-shore oil and gas leases. As 
Representative Johnson has stated in the past, the Leasing 
Reform Act of 1987 was ``unintentionally'' restrictive, in that 
it bound the BLM to only be able to sell oil and gas leases in 
an Internet-auction-only format, which is not surprising, of 
course, because there was no Internet in 1987.
    I am Cofounder and President of EnergyNet, a company which, 
over the last 14 years, has conducted the sale of more than 
39,000 leases and oil and gas properties, and a continuous live 
Internet auction format. H.R. 555 will amend that restrictive 
language, ``oral auction only,'' in the Mineral Leasing Act, 
and authorize the Secretary of the Interior to ``conduct 
onshore oil and gas lease sales through Internet-based, live 
lease sales.'' This allows the BLM to utilize the incredibly 
powerful technological reach of an Internet oil and gas 
property auction marketplace. It will increase participation 
and competition, which results in greater revenue to the BLM.
    Under the current oral-only auction system, bidders must 
travel to 12 different auction venues. I submit to you this 
seems unnecessary and inefficient in today's environment. With 
the Internet as an auction platform, a bidder could participate 
from any web browser in any of these auctions. If you have 
access to a computer, you have a seat at a BLM auction. 
Increased competition among bidders translates to more BLM 
revenue.
    Picture this room, if you would, as one of these 12 live 
auction venues. What you will see is 20 or 30 people holding up 
a paddle or a piece of paper, bidding on BLM leases. Now, 
contrast that, if you will, to what we do in the private sector 
with an online auction format. There are 17,000 bidders in that 
room, coast to coast, bidding on leases and properties. There 
just simply is no comparison.
    Internet bidders can evaluate leases and place bids from 
anywhere without travel expense or time away from the office. 
That is customer service by the BLM. And it is how EnergyNet 
has done business for nearly 14 years. We believe the results 
confirm the process. We have sold properties all across the 
United States, generating more than $1 billion in property 
sales, and we have done it all on the Internet.
    This bipartisan, historic H.R. 555 opens the door to that 
same opportunity for the BLM. The oil and gas industry has 
already embraced the Internet as a critical tool in their 
investment arsenal, and the BLM already effectively uses the 
Internet. We have successfully divested properties on the 
Internet for Chevron, Exxon, Shell, and 3,000 other private and 
public companies. We have signed 5-year contracts with the 
State of North Dakota and Utah to sell their State leases, and 
that is directly analogous, selling State leases on State 
minerals, just like selling Federal leases on Federal minerals.
    In 2011, EnergyNet signed a 5-year contract to conduct 
Internet auctions of oil and gas assets for the Federal Deposit 
Insurance Corporation. In 2009, EnergyNet sold BLM leases using 
the first-ever Internet auction venue. We were fortunate enough 
to have been selected to do that job for the BLM. And that 
information is provided in our separate material that we have 
handed in. OGLIAP, O-G-L-I-A-P, OGLIAP is the acronym, the Oil 
and Gas Lease Internet Auction Pilot.
    In conclusion, H.R. 555 will bring the 1987 unintentionally 
restrictive Mineral Leasing Act into the 21st century by 
increasing participation and competition for the BLM's lease 
parcels, to ensure the best return for the Federal taxpayer. 
And, of course, that is the key. Passage of this bill will 
benefit the BLM, the oil and gas industry, and, most of all, 
the taxpayers of this great Nation. This bill does not increase 
permitting of wells, it simply increases the value of what the 
BLM gets for their leases.
    On behalf of the EnergyNet team, we thank you for this 
opportunity to share our experiences, and we encourage your 
sponsorship and passage of H.R. 555. Thank you for your kind 
attention.
    [The prepared statement of Mr. Britain follows:]

   Prepared Statement of William W. Britain, CEO, EnergyNet.com, Inc.

       TESTIMONY ON THE BLM LIVE INTERNET AUCTIONS ACT--H.R. 555

    The BLM is currently hindered by outdated legislative language. 
During this presentation we will explore how you can fix this problem. 
As members of Congress, you have an opportunity to dramatically improve 
the BLM's revenue-generating oil and gas leasing program.
    EnergyNet is a company that has spent nearly 14 years conducting 
oil and gas auctions on a fully Internet-based, continuous oil and gas 
marketplace, and we appreciate the opportunity to share our 
professional experience with you.
    Let's start with the biggest question: Why does the BLM need the 
freedom to utilize the Internet for their lease program?
    There are many reasons why an Internet auction is superior to a 
traditional, live, outcry auction. The BLM Live Internet Auctions Act 
that you are considering would allow the BLM to harness the power of a 
vast Internet-based oil and gas auction marketplace, which presents a 
host of new opportunities to the BLM.
    In this presentation, we would like to highlight three of the 
benefits of passing the BLM Live Internet Auctions Act:

    <bullet>  The opportunity to modernize the BLM leasing program;
    <bullet>  The increased participation and competition an Internet 
platform fosters; and
    <bullet>  The increased revenue the BLM can realize as a result of 
that competition, and as a result of the cost savings an Internet 
platform can provide.

    To modernize the BLM's Leasing Program, we must first realize that 
the current legislation is simply outdated, and ``accidentally 
specific.'' The Internet, and certainly an Internet auction platform, 
was unheard of in 1920, but at the time, lease sales could be conducted 
by ``competitive bidding.''
    Unfortunately, the unintentionally-limited wording of the Leasing 
Reform Act of 1987 bound the BLM to an oral auction format, which has 
become outdated in the 26 years since.
    The BLM Live Internet Auctions Act fixes this--allowing the 
Secretary of the Interior the option to ``conduct onshore oil and gas 
lease sales through Internet-based live lease sales,'' modernizing the 
Mineral Leasing Act.
    Under the current, oral-auction-only system, bidders who wish to 
participate in lease sales from multiple State offices have to deal 
with different physical locations to travel to, different hotels to 
stay in, different auction venues, and even different auctioneers.
    With the Internet as an option for the BLM, a bidder could 
participate from any web browser, from any location, using the same 
tools and bidding interface for every sale. Bidders can even 
participate in multiple lease sales that are being held simultaneously.
    If you have a web browser, you already have a seat at the auction.
    While participants will appreciate a standardized, uniform auction 
experience, BLM State offices should also expect a system that lets 
them customize their individual sales wherever necessary, and one that 
plugs into their existing workflow.
    Rather than retrofit each State office's sale process to fit an 
Internet model, a well-designed Internet auction serves the State 
office, and will provide each office with an easy way to:

    <bullet>  Transmit sale group and parcel information to the auction 
Web site, and to potential bidders;
    <bullet>  Display each parcel's due diligence information in a 
uniform format;
    <bullet>  Update that parcel information instantly when new 
information becomes available or a parcel has to be pulled from the 
auction, and then immediately contact every participant who viewed the 
now-outdated information;
    <bullet>  Perform the actual auction itself; and then
    <bullet>  Receive transactional data and other post-sale reporting 
after the sale in a format that best suits the State office.

    BLM offices with unique bidder qualification requirements, parcel 
stipulations or timing restrictions can have these terms built directly 
into the sale, and even automated in many cases.
    This ultimately reduces costs and workload for the BLM, while 
letting individual State offices retain the unique characteristics of 
their sales.
    Even one large room full of potential Buyers pales in comparison to 
an entire Nation full of potential buyers. There is no doubt: An 
Internet-based auction reaches more people than a traditional auction 
ever could.
    For example, EnergyNet has more-than-17,000 active, sophisticated, 
registered, accredited oil and gas investors, representing every State 
in the United States. Every EnergyNet Buyer with a bid allowance has 
had their identification validated through direct communication with 
that buyer's banker, in order to circumvent fraudulent bidding activity
    EnergyNet buyers can evaluate assets and place bids from anywhere, 
without travel hassles or expenses. It's how we've done business for 
nearly 14 years, and we believe the results confirm the process: Our 
Internet marketplace has sold more than 39,000 properties all across 
the United States since we began in 1999--over $1 billion in total 
sales, and we've done it all through a web browser.
    This is the power of an Internet marketplace, and this is exactly 
what the BLM Live Internet Auctions Act opens the door to.
    Guhan Subramanian serves both as a professor of Law & Business at 
Harvard Law School and as a professor of Business Law at Harvard 
Business School--the only person in Harvard's history to hold tenured 
appointments at both universities.
    Professor Subramanian's research focuses on negotiations, auctions, 
and ``deal process design.'' His work has been featured in the Harvard 
Business Review, the Harvard Law Review, the Wall Street Journal, and 
the New York Times. He is also the author of Negotiauctions, a book 
that explores the connections between negotiations and auctions.
    In 2010, EnergyNet contacted Professor Subramanian and requested 
that he examine 5 years of our raw, historical auction data, so that we 
could truly understand how our Internet marketplace compared to 
traditional, live oil and gas auctions.
    Among his conclusions, Professor Subramanian noted the following 
about using the Internet as a marketplace:

    <bullet>  The online auction format attracts bidders who would be 
unable or unwilling to attend on-site auctions, and . . .
    <bullet>  The online-only process preserves a level playing field 
among all bidders.

    Overall, he said, ``It's simple: Greater buyer exposure leads to 
more competition. More competition leads to higher returns for 
sellers.''
    The oil and gas industry understands this, and has embraced the 
Internet as a critical part of their divestment activities.
    EnergyNet's Internet platform has successfully divested properties 
for:

    <bullet>  Chevron, Exxon, Shell and other major oil companies
    <bullet>  Chesapeake, and other large independents
    <bullet>  Universities and bank trust departments
    <bullet>  Government institutions, such as the FDIC and the States 
of North Dakota and Utah
    <bullet>  . . . and even for the BLM, when we were proud to develop 
and host their Oil and Gas Lease Internet Auction Pilot program in 
2009--their first opportunity to test the viability of an Internet 
auction

    One seller put our Internet auction to the test in a significant 
way.
    In 2008, EnCana split a large divestiture package, into two equal-
sized component packages. EnergyNet received one of the packages. The 
other package was given to one of our competitors who hosts a 
traditional outcry auction with a ``hybrid'' Internet component.
    Each package was given a reserve price valuation of approximately 
$16.5 million dollars. To ensure that oil and gas prices were the same, 
both auctions were held during the same week.
    Our competitor's traditional auction sold their package for $18.5 
million.
    EnergyNet's Internet auction sold its package for $24.5 million--
over 32 percent more than the traditional auction.
    Another of EnergyNet's sellers, Chevron Incorporated, named the 
16th largest public company in the world by Forbes Global 2000, has had 
tremendous success divesting oil and gas assets on an Internet-only 
platform.
    From June 2003 through April 2011, Chevron utilized our Internet 
auction platform to divest over 2,000 lots from 27 States with a 
combined anticipated reserve price of $87.7 million. Their total actual 
sales were more than $134 million, a 53 percent premium over their 
combined anticipated reserve, and far above their expectations.
    In conclusion: Through modernization, you allow the BLM to increase 
the participation and competition for every lease sale, and increase 
their revenue through higher parcel values and lower internal costs.
    This can happen for the BLM through the BLM Live Internet Auctions 
Act. This piece of legislation opens the door, by giving the Secretary 
of the Interior the authorization to establish an Internet leasing 
program.
    This common sense piece of legislation can truly change the future 
of the BLM's leasing program.
    That concludes our presentation. On behalf of the entire team at 
EnergyNet, we thank you for the opportunity to share our professional 
experience with you.
    Thank you very much!
                                 ______
                                 
                        SUBMITTED FOR THE RECORD

    On September 13, 2011, the following testimony was submitted to the 
House Natural Resources Subcommittee on Energy and Mineral Resources on 
behalf of the Bureau of Land Management in support of H.R. 2752.
    The current bill, H.R. 555, continues the effort that H.R. 2752 
began.
    Notable quotes:
    ``The Bureau of Land Management (BLM) supports the goal of 
diversifying and expanding the Nation's onshore leasing program to 
ensure the best return to the Federal taxpayer and supports H.R. 2752. 
The BLM would like to work with the committee on technical and 
clarifying modifications to the bill and on an amendment pertaining to 
the location and frequency of lease sales.''
    Regarding the BLM's Oil and Gas Lease Internet Auction Pilot 
(OGLIAP) of 2009: ``The Web site functioned extremely well and the sale 
was successfully completed. An evaluation of the Internet auction found 
that leasing online would have immediate cost savings and benefits, 
such as potentially increased competition. The Internet pilot test had 
nearly twice as many bidders compared to the average number that attend 
the BLM Colorado's oral lease sales.''
    ``The BLM supports H.R. 2752, which allows the BLM to expand upon 
its success with the oil and gas Internet lease auction pilot 
project.''

Statement for the Record, Bureau of Land Management, U.S. Department of 
                    the Interior, September 13, 2011

 BEFORE THE HOUSE NATURAL RESOURCES SUBCOMMITTEE ON ENERGY AND MINERAL 
       RESOURCES ON H.R. 2752, THE BLM LIVE INTERNET AUCTIONS ACT

    Thank you for the opportunity to present this Statement for the 
Record on H.R. 2752, the BLM Live Internet Auctions Act, which 
authorizes the Secretary of the Interior to conduct onshore oil and gas 
lease sales through Internet-based live lease auctions. The Bureau of 
Land Management (BLM) supports the goal of diversifying and expanding 
the Nation's onshore leasing program to ensure the best return to the 
Federal taxpayer and supports H.R. 2752. The BLM would like to work 
with the Committee on technical and clarifying modifications to the 
bill and on an amendment pertaining to the location and frequency of 
lease sales.

Background
    The Mineral Leasing Act of 1920 establishes the statutory framework 
to promote the exploration and development of oil and natural gas from 
the Federal onshore mineral estate. Secretary Salazar has emphasized 
that as we move toward the new energy frontier, the development of 
conventional energy resources from BLM-managed public lands will 
continue to play a critical role in meeting the Nation's energy needs. 
Facilitating the safe, responsible, and efficient development of these 
domestic oil and gas resources is part of the Administration's broad 
energy strategy--outlined in the President's Blueprint for a Secure 
Energy Future--that will protect consumers and help reduce our 
dependence on foreign oil.
    The BLM is working diligently to fulfill its part in securing 
America's energy future. The BLM currently manages more than 40 million 
acres of onshore oil and gas leases. In FY 2010, onshore oil production 
from public lands increased by 5 million barrels from the previous 
fiscal year as more than 114 million barrels of oil were produced from 
the BLM-managed mineral estate--the most since FY 1997. Meanwhile, the 
nearly 3 trillion cubic feet of natural gas produced from public lands 
made 2010 the second-most productive year of natural gas production on 
record. In 2010, conventional energy development from public lands 
produced 14.1 percent of the Nation's natural gas, and 5.7 percent of 
its domestically-produced oil.
    Current and future lease sales are benefitting from much-needed 
reforms that the BLM put in place in May 2010. The BLM reforms 
established a more orderly, open, and environmentally sound process for 
developing oil and gas resources on public lands. They focus on making 
oil and gas leasing more predictable and increasing certainty for 
stakeholders. With these reforms, the number of protests of parcels 
offered in lease auctions has declined dramatically. During 2011, only 
12 percent of nearly 900 parcels offered for lease have been protested 
compared with over 40 percent of parcels offered being protested during 
the 2 years before the reforms were implemented. Twelve lease sales 
this year have been conducted without any parcels being protested. In 
addition, revenues from lease sales have increased from approximately 
$165 million dollars in FY 2009 to nearly $235 million dollars to date 
in FY 2011.

Onshore Competitive Oil & Gas Lease Sale Process
    In accordance with the Mineral Leasing Act, the BLM competitively 
offers eligible lands which are available for lease by oral auction on 
a quarterly basis. As part of the competitive leasing process, the BLM 
accepts informal expressions of interest (EOI) and noncompetitive 
presale offers from industry or other interested parties. The BLM 
collects the requested parcels into draft sale lists and adjudicates 
them for availability, verifying mineral ownership, and ensuring there 
are no pre-existing oil and gas leases on the requested lands. The 
parcels are then evaluated through the BLM multiple-use planning 
process required by the Federal Land Policy and Management Act.
    Once parcels are evaluated and found to be in conformance with BLM 
Resource Management Plans (RMP) and the BLM has documented site-
specific National Environmental Policy Act compliance, the parcels are 
made available and placed on the next Notice of Competitive Oil and Gas 
Lease Sale by the BLM State Office with jurisdiction over the lands. 
Competitive lease sales are held at least quarterly by each of the BLM 
State Offices where there are eligible lands.
    Parties interested in bidding on parcels must attend the oil and 
gas competitive lease sale auction to obtain a competitive lease or 
make formal arrangements for someone to represent them at the auction. 
No sealed or mailed bids are accepted.

BLM's Oil & Gas Internet Lease Auction Pilot
    Congress directed the Secretary of the Interior through the Fiscal 
Year 2008 Consolidated Appropriations Act (Public Law 110-161) to 
establish an oil and gas leasing Internet pilot program, under which 
the Secretary could conduct lease sales through methods other than oral 
auctions. To carry out the pilot program, the Secretary was permitted 
to use up to $250,000 from the BLM's oil and gas Permit Processing 
Improvement Fund. The BLM developed a pilot oil and gas lease Internet 
auction as an alternative to the quarterly oil and gas oral auctions 
required by the Mineral Leasing Act. The intent of the pilot was to 
test the feasibility of conducting a web-based lease sale auction, and 
evaluate the potential savings and benefits for the Federal Government 
and lease sale participants.
    On July 8, 2009, the BLM's Colorado State Office offered the first 
Federal oil and gas lease parcels for sale on the Internet. All parcel 
evaluation, registration, and bidding were performed online. Bidding 
opened on September 9, 2009, for 7 days and closed over a 2-day period 
on September 16 and 17, 2009. The Web site functioned extremely well 
and the sale was successfully completed. An evaluation of the Internet 
auction found that leasing online would have immediate cost savings and 
benefits, such as potentially increased competition. The Internet pilot 
test had nearly twice as many bidders compared to the average number 
that attend the BLM Colorado's oral lease sales.

H.R. 2752
    H.R. 2752 amends the Mineral Leasing Act to authorize the Secretary 
of the Interior to conduct onshore oil and gas lease sales through 
Internet-based live lease sales, in order to expand the Nation's 
onshore leasing program and to ensure the best return to the Federal 
taxpayer. The bill also requires the Secretary to conduct an analysis 
of the first 10 Internet based live lease sales and report the findings 
of the analysis to Congress within 90 days following the 10th Internet-
based live lease sale.
    The BLM supports H.R. 2752, which allows the BLM to expand upon its 
success with the oil and gas Internet lease auction pilot project. The 
BLM would like to work with the Committee to include related language 
in the bill to provide the Secretary the discretion to hold lease sales 
(via the Internet or oral auction) more or less frequently than 
quarterly (as currently required by the Mineral Leasing Act) or within 
any State in which lease tracts are available and there is public 
interest. Finally, the BLM would like to work with the Committee on 
technical and clarifying modifications to the bill.
Conclusion
    Thank you again for the opportunity to present this Statement for 
the Record on H.R. 2752.
                                 ______
                                 
    Mr. Lamborn. And you are certainly welcome.
    Ms. Miller, you may begin.

STATEMENT OF DEBORAH S. MILLER, FOUNDER AND MEMBER OF BOARD OF 
              DIRECTORS, ALASKA WILDERNESS LEAGUE

    Ms. Miller. Good morning, Chairman and staff. Thank you for 
the opportunity to provide testimony to the Subcommittee on 
Energy and Mineral Resources on H.R. 1964, the National 
Petroleum Reserve Alaska Access Act. My name is Debbie S. 
Miller. I serve as a founder and a board member for the Alaska 
Wilderness League. I have lived in Alaska since 1975, as a 
teacher, author, mother of two grown daughters.
    Over the past four decades, I have explored the Arctic on 
numerous trips in the Arctic National Wildlife Refuge, Gates of 
the Arctic National Park, and the National Petroleum Reserve 
Alaska, that I will refer to as the Reserve. These explorations 
and studies of the environment and wildlife have involved 
several thousand miles of travel by canoe, by raft, and on 
foot. My experiences in the Arctic have been the foundation and 
inspiration for many books and articles that I have authored 
for adults and children.
    Most recently I explored the Reserve on three expeditions, 
traveling by canoe and on foot for more than 600 miles. Along 
four of the Reserve's beautiful rivers: the Nigu, the Etiviluk, 
the Colville and the Utukok. I worked with a team of 
photographers, scientists, a sound recording artist, and other 
writers, including biologist Jeff Fair, Rosemary Ahtuangaruak 
of Barrow, and distinguished anthropologist and long-time 
Alaskan, Dr. Richard Nelson. We worked together to create the 
first photo essay book about the Reserve, published by Braided 
River last July 2012.
    I am submitting a copy of this book for the House Resources 
Library, and I hope that each member of the Committee and 
staffers will have the opportunity to review this book. It was 
a labor of love to describe the beauty, the rich diversity of 
wildlife and environments, and a cultural history that spans 
more than 13,000 years, including some of the oldest 
archeological sites in North America. It is a vast land, so 
immense that you can't measure its bigness. It is a land of 
forever sky, with an endless sweep of rolling tundra, long 
ridges, immense grasslands and wetlands, and the countless 
rivers that curl through the valleys and foothills across the 
North Slope for hundreds of miles to the Beaufort and Chukchi 
Seas.
    It is a land of greats, including two of America's largest 
caribou herds, huge concentrations of grizzly bears, the 
biggest deposit of dinosaur bones in the Arctic, our largest 
intact grasslands, and the most expansive Arctic wetlands 
complex in the world, where hundreds of species of birds nest, 
molt, and stage their migrations from five different 
continents. This is a world-class region, in terms of Arctic 
habitats and wildlife. It is the birthplace for millions of 
animals, and the ancient land where humans first migrated to 
North America from Asia, crossing the Bering Land Bridge.
    The Reserve, though old, is rich with life. We traveled for 
weeks through some of the wildest country remaining on the 
planet and rarely saw another human or airplane. The Reserve 
represents the Nation's largest unit of public land, an area 
about the size of Indiana, where local and Inupiaq residents 
still hunt and fish, practicing a subsistence lifestyle that 
reflects thousands of years of living and surviving near the 
top of the world.
    I commend the Department of the Interior for their first 
plan, their efforts creating a very balanced, integrated 
activity plan for the Reserve. The Bureau of Land Management 
followed a rigorous and very public process, seeking out and 
receiving substantial input from local people, Alaskans in 
general and the citizens of the United States. During the 
drafting process, BLM received over 400,000 comments, a vast 
majority in support of a balanced management approach that 
included the protection of key special areas in the Reserve.
    The BLM listened and crafted a well-thought-out plan for 
the future of the Reserve and America's Arctic. In the end, it 
created a plan that opens 11.8 million acres, roughly half of 
the Reserve, to oil and gas leasing, including some of the most 
promising high-potential lands for exploration. At the same 
time, BLM set aside half of the Reserve to protect the highest 
conservation and subsistence values of five designated special 
areas.
    I do not support H.R. 1964 because it negates the excellent 
work and sound management choices that are represented in the 
current plan. This proposed legislation circumvents public 
process by nullifying a very strong visionary and balanced plan 
that has broad public support. This legislation would also 
authorize a redundant assessment of hydrocarbon resources 
within NPR-A after the USGS just recently completed such an 
analysis. This amounts to wasteful spending.
    Thank you for letting me testify, and I would be happy to 
answer any of your questions.
    [The prepared statement of Ms. Miller follows:]

   Prepared Statement of Deborah S. Miller, Teacher, Author, Arctic 
 Explorer, Guide, Mother, and Founding Board Member, Alaska Wilderness 
                                 League

       HR 1964--THE NATIONAL PETROLEUM RESERVE ALASKA ACCESS ACT

    Thank you for the opportunity to provide testimony to the 
Subcommittee on Energy and Mineral Resources on H.R. 1964--``The 
National Petroleum Reserve Alaska Access Act''. My name is Deborah S. 
Miller.
    I've lived in Alaska since 1975, working as a teacher, author, and 
mother of two grown daughters. Over the past four decades, I've 
extensively explored the Arctic on numerous trips in the Arctic 
National Wildlife Refuge, Gates of the Arctic National Park, and the 
National Petroleum Reserve-Alaska. These explorations and studies of 
the environment and wildlife have involved several thousand miles of 
travel by canoe, raft, and on foot. My experiences in the Arctic have 
been the foundation and inspiration for many books and articles that 
I've authored for adults and children.
    Most recently, I explored the National Petroleum Reserve-Alaska 
(``Reserve'') on three expeditions, traveling by canoe and on foot for 
more than 600 miles, along four of the Reserve's beautiful rivers: the 
Nigu, Etiviluk, Colville and the Utukok. I worked with a team of 
photographers, scientists, a sound recording artist, and other writers, 
including biologist Jeff Fair, and Rosemary Ahtuangaruak of Barrow, and 
distinguished anthropologist and long-time Alaskan, Dr. Richard Nelson. 
We worked together to create the first photo-essay book about the 
Reserve, published by Braided River in July of 2012.
    I helped found the Alaska Wilderness League in 1993 to ensure that 
policy-makers in D.C. and elsewhere had accurate information on which 
to make public land management decisions. The League has an extensive 
environmental justice program through which it brings Alaska Natives 
and other Arctic residents to D.C. to ensure that their voices are 
heard.
    Today's hearing is partially focused on the topic of my most recent 
book--the National Petroleum Reserve-Alaska, which is the largest 
single land management unit in the United States. After WWI, the 
Reserve was set aside by President Harding in 1923 as Naval Petroleum 
Reserve #4 for emergency defense purposes. The Navy was in the process 
of converting from coal to oil for its fuel supply. In 1976, Congress 
enacted the Naval Petroleum Reserves Production Act (NPRPA) and 
transferred management of the Reserve to the Department of the 
Interior. Under this act, Congress recognized the need to conserve the 
extraordinary natural resource values of the Reserve and explicitly 
authorized the Secretary of the Interior to establish ``special areas'' 
that contained ``significant subsistence, recreational, fish and 
wildlife historical or scenic value'' and to provide ``maximum 
protection'' to areas with exceptional surface values.\1\
---------------------------------------------------------------------------
    \1\ 42 U.S.C. Sec. 6504.
---------------------------------------------------------------------------
    At over 23 million acres, the Reserve is roughly the size of 
Indiana. It is a vast landscape that remains largely undeveloped. This 
large landscape can allow for a balanced approach between oil and gas 
development and the protection of the Reserve's unique values, just as 
Congress has called for in the NPRPA. These values include subsistence 
resources that are critical to meeting the needs of Alaska Natives, and 
other local residents.
    The requirement that this balance be struck is firmly established 
in the letter and spirit of NPRPA and the 1980 Interior Department 
Appropriations Act that amended NPRPA and provided for leasing within 
the Reserve. NPRPA requires the Secretary of Interior to assume 
responsibility for protection of ``significant subsistence, 
recreational, fish and wildlife, or historical or scenic value.''\2\ In 
the law, NPRPA specifically recognizes the importance of the Utukok 
River, Teshekpuk Lake area, and other areas found to have significant 
natural or historic values, by requiring any oil and gas activities in 
these areas to assure ``maximum protection'' of those values.\3\
---------------------------------------------------------------------------
    \2\ 42 U.S.C. Sec. 6503 (``With respect to any activities related 
to the protection of environmental, fish and wildlife, and historical 
or scenic values, the Secretary of the Interior shall assume all 
responsibilities . . . [and] may promulgate such rules and regulations 
as he deems necessary and appropriate for the protection of such values 
within the reserve.'').
    \3\ 42 U.S.C. Sec. 6504(a) (If exploration occurs within the Utukok 
River, the Teshekpuk Lake areas, and other areas containing any 
significant subsistence, recreational, fish and wildlife, or historical 
or scenic value (as designated by the Secretary), it must be conducted 
``in a manner which will assure the maximum protection of such surface 
values.''); see also H.R. Rep. 94-81(I), 94th Cong., 2nd Sess. 1976, 
1975 WL 12380 (acknowledging the value of the western side of the 
reserve as a calving ground of the Arctic caribou herd; the 
northeastern coastal plain area as the best waterfowl nesting area on 
the North Slope, and lands in and adjacent to the Brooks Range as being 
highly scenic).
---------------------------------------------------------------------------
    In the 1980 Interior Department Appropriations Act that amended the 
NPRPA and opened the Reserve to leasing, Congress reiterated the 
importance of Special Areas \4\ and directed the Secretary to provide 
for ``conditions, restrictions, and prohibitions'' to mitigate 
``reasonably foreseeable and significant adverse effects'' on surface 
values.\5\ Regulations governing the Reserve provide for the Bureau of 
Land Management (``BLM'') to ``limit, restrict, or prohibit use of and 
access to lands within the Reserve, including ``Special Areas'' and to 
take action to ``protect fish and wildlife breeding, nesting, spawning, 
lambing of calving activity, major migrations of fish and wildlife, and 
other environmental, scenic, or historic values.''\6\ To summarize, 
Congress has long-recognized and directed that the Reserve's remarkable 
environmental and social values be identified and protected.
---------------------------------------------------------------------------
    \4\ See Pub. L. 96-514, 94 Stat 2957 (1980) (``any exploration or 
production undertaken pursuant to this section shall be in accordance 
with section 104(b) of the [Petroleum Reserve Act] of 1976'' which 
provided for protection of Special Areas).
    \5\ 42 U.S.C. Sec. 6506a(b), Mitigation of adverse effects 
(``Activities undertaken pursuant to this Act shall include or provide 
for such conditions, restrictions, and prohibitions as the Secretary 
deems necessary or appropriate to mitigate reasonably foreseeable and 
significantly adverse effects on the surface resources of the National 
Petroleum Reserve in Alaska.'')
    \6\ 43 CFR Sec. 2361.1(e)(1).
---------------------------------------------------------------------------
    H.R. 1964 would directly contradict this long history of the 
congressionally recognized need to provide for balanced management of 
the Reserve to ensure protection of significant surface resources.

Exceptional Biological Resources in the Reserve
    The Reserve contains a remarkable diversity of pristine and 
globally significant wild lands and biological resources that remain 
largely intact. The Reserve provides essential and critical habitat for 
a broad array of species and includes areas that support subsistence 
activities for more than 40 Alaska Native communities spread across 
northern and western Alaska.
    The Reserve's wetland complex of ponds, lakes, rivers, streams, and 
lagoons provide nesting, feeding, molting and staging habitat for 
migratory bird populations of national and international significance. 
Marine mammals, including the polar bear, walrus, beluga whale, and 
several species of ice seal, use the Reserve's shorelines, lagoons, and 
barrier islands. The Reserve provides the calving grounds, insect 
relief areas, and migration corridors for the Teshekpuk Lake Caribou 
Herd and the Western Arctic Caribou Herd, which are vital subsistence 
resources for North Slope and Western arctic communities. Important 
populations of predators including grizzly bear, wolf, wolverine, and 
arctic fox are found throughout the Reserve. Other values include: 
designated Important Bird Areas of international significance, ancient 
archeological and paleontological sites; and extraordinary wilderness 
and wild river values that are found throughout this remarkable 
landscape.
    During my three expeditions to the Reserve I observed nesting birds 
that had migrated from six different continents, such as the Northern 
Wheatear from Africa, or the American Golden Plover from Patagonia. I 
witnessed the migration of the Western Arctic Herd, where hundreds of 
cows with week-old calves swam across the river in front of our tent. 
It was amazing and humbling to discover ancient archeological sites, 
some dating back more than 10,000 years, and I was stunned to discover 
and hold an ankle bone of a duck-billed dinosaur that lived on the 
North Slope 75 million years ago! The Reserve has a rich history, and 
an incredible diversity of wildlife and habitats. The wilderness 
frontier that we traveled through was like no other in terms of its 
vastness and wildness.

National Petroleum Reserve-Alaska Integrated Activity Plan
    In July of 2010 the BLM published a Notice of Intent to prepare an 
Integrated Activity Plan and associated Environmental Impact Statement 
for the National Petroleum Reserve-Alaska.\7\ The notice kicked off 
more than 2\1/2\ years of scoping meetings, public hearings, and draft 
plans, concluding with the National Petroleum Reserve Integrated 
Activity Plan Record of Decision (``2013 ROD'') on February 21, 2013. 
This was the final action of an extensive process that resulted in the 
first ever area-wide plan for the Reserve.
---------------------------------------------------------------------------
    \7\ Notice of intent to prepare an Integrated Activity Plan 
Environmental Impact Statement for the National Petroleum Reserve 
Alaska was released on July 28 2010. See: https://www.blm.gov/epl-
front-office/projects/nepa/5251/14500/15450/
default.jsp?projectName=DOI-BLM-AK-0000-2010-0001-EIS.
---------------------------------------------------------------------------
    I was one of many Alaskans who testified at the scoping meeting in 
Fairbanks, and submitted written testimony in support of Management 
Alternative B of the draft integrated activity plan.
    The National Petroleum Reserve-Alaska Final Integrated Activity 
Plan (``IAP'') represents a well thought out and balanced approach 
toward management of the Reserve. The IAP opened up roughly half of the 
Reserve's acreage (encompassing 72 percent of Interior's estimate of 
the recoverable oil in the Reserve) to oil and gas leasing while 
protecting the other half as five Special Areas critical to wildlife 
and subsistence use. Further, the IAP also expressly does not foreclose 
the placement of a pipeline across the Reserve. Through this balanced 
approach the Department of Interior has found a reasonable balance for 
industry, conservation groups, Alaska Natives, sportsmen, 
recreationists, scientists, and other groups.
    During the drafting process, the BLM received over 400,000 
comments, a vast majority in support of the protection of key Special 
Areas in the Reserve. These individuals included Alaskans, sportsmen, 
scientists, Alaskan Tribes and many others from around the country that 
care about the values within this world-class American treasure. The 
Department of the Interior (DOI) responded to this overwhelming 
support, by putting forward a final IAP that allows for access to oil 
and gas resources on 11.8 million acres, while safeguarding other 
areas--the most critical wildlife habitat--as unavailable for oil and 
gas leasing.
    The IAP is in keeping with the long history of Congressional 
support for a balanced approach to management of the Reserve.

Special Areas
    Going back to 1976, and as reflected in the IAP, the BLM has 
appropriately implemented the congressional mandate to provide 
``maximum protection'' for significant surface values and thus honor 
the area for more than just its potential oil and gas resources. The 
Reserve currently contains five designated Special Areas recognized by 
the BLM. These include: Teshekpuk Lake, the Utukok River Uplands, 
Kasegaluk Lagoon, the Colville River and Peard Bay.

Teshekpuk Lake Special Area
    Teshekpuk Lake is the largest freshwater lake on the North Slope 
and the third largest lake in Alaska. The lake and its associated 
Special Area support a unique and globally significant assemblage of 
biological and subsistence resources. The Teshekpuk Lake Special Area 
includes the most important goose molting habitat in the Arctic and 
provides vital habitat for tens of thousands of geese that gather 
annually in the area, including Brant, Greater white-fronted geese, 
Snow geese, and Canada geese. In the fall, the waterfowl that rely on 
the wetlands in this area migrate back south utilizing all four North 
American flyways and several international flyways.
    The area around Teshekpuk Lake also includes the concentrated 
calving and insect relief areas for the Teshekpuk Lake Caribou Herd, 
which provides a critical subsistence harvest resource for North Slope 
communities, especially Barrow and Nuiqsut, a community that I have 
visited on two occasions. I wrote an in-depth article for the Amicus 
Journal about the effects of oil development on the lives of people in 
Nuiqsut. I was touched and troubled by some of the health and 
subsistence struggles that villagers face because of increased 
development around their community.\8\
---------------------------------------------------------------------------
    \8\ Ground zero. (oil industry effects on eskimos) June 22, 2001. 
Amicus Journal. Miller, Deborah S. See: http://www.accessmylibrary.com/
article-1G1-76586494/ground-zero-oil-industry.html.
---------------------------------------------------------------------------
    The Western Arctic Caribou Herd Working Group, an organization 
comprised of subsistence users from small communities across northern 
and western Alaska, has identified and recommended that the lands 
surrounding Teshekpuk Lake should not be leased or developed for oil 
and gas.\9\
---------------------------------------------------------------------------
    \9\ Letter of R. Ashenfelter, Chair of the Western Arctic Caribou 
Herd Working Group to the Bureau of Land Management Planning Team re: 
the Integrated Activity Plan-Draft Environmental Impact Statement for 
the National Petroleum Reserve-Alaska, dated June 1, 2012.
---------------------------------------------------------------------------
Utukok River Uplands Special Area
    The Utukok River Uplands Special Area was originally established in 
1977 and currently spans approximately 7.1 million acres containing 
much of the Western Arctic Herd's calving and insect-relief habitat. 
The herd numbered approximately 75,000 when the Special Area was 
established, and now at approximately 340,000, is Alaska's largest 
caribou herd and one of the three largest in North America. The IAP 
expanded the Utukok River Uplands Special Area by approximately 3.1 
million acres to more fully encompass prime calving and insect-relief 
habitat for the herd within the Reserve.\10\ The expansion of the 
Utukok River Uplands Special Area within the IAP is consistent with the 
recommendations from the Western Arctic Caribou Herd Working Group.\11\
---------------------------------------------------------------------------
    \10\ NPRA/IAP FEIS vol 1 p. 22.
    \11\ Letter of R. Ashenfelter, Chair of the Western Arctic Caribou 
Herd Working Group to the Bureau of Land Management Planning Team re: 
the Integrated Activity Plan-Draft Environmental Impact Statement for 
the National Petroleum Reserve-Alaska, dated June 1, 2012.
---------------------------------------------------------------------------
    In addition to the important caribou habitat, this special area has 
the highest concentration of grizzly bears in the Arctic, and healthy 
populations of wolverines and wolves, as well as many species of 
migratory songbirds, shorebirds, raptors and waterfowl, including the 
bar-tailed godwit, a shorebird that makes the longest known non-stop 
migration across the Pacific Ocean from Alaska to New Zealand!
    The Utukok River Uplands Special Area includes the northern edge of 
the Brooks Range Mountains and foothills, as well as the expansive 
tundra grasslands that roll north toward the sea. This region holds 
outstanding wilderness values and many ancient archeological sites, 
some dating back more than 10,000 years ago. The Inupiaq word Utukok 
means ``something old.'' Indeed, this is the area where the first North 
Americans lived who crossed the Bering Land Bridge from Asia. During my 
2011 trip down the Utukok River, we discovered chert flakes from an 
archaeological site where human hands had crafted tools and weapons 
long ago. We felt incredibly humbled by this experience and I have 
tremendous respect for the Inupiaq people who continue to live in this 
region following their subsistence traditions.

Colville River Special Area
    As originally established, the Colville River Special Area 
encompassed 2.3 million acres and provided some of the most significant 
Arctic habitats for raptors.\12\ The majority of the lower river area 
supports the highest densities of raptors, passerines and moose on 
Alaska's Arctic Slope. The Northeast NPR-A Record of Decision expanded 
the Colville River Special Area by 2.44 million acres to incorporate 
two miles on either side of two major tributaries of the Colville 
River--the Kikiakrorak and Kogosukruk rivers. The IAP expanded the 
purposes for which the Colville River Special Area was established to 
protect all raptors, rather than the original intent of protection for 
arctic peregrine falcons.\13\
---------------------------------------------------------------------------
    \12\ Kessel and Cade 1956 and 1958, Cade 1960, White and Cade 1971.
    \13\ NPRA/IAP FEIS vol. 1 p. 22.
---------------------------------------------------------------------------
    Along the Colville River and the Etivluk River we spotted nesting 
raptors on the bluffs that flank these rivers every day. It was a 
thrill to see rough-legged hawks, gyrfalcons and arctic peregrine 
falcons on a regular basis.

Kasegaluk Lagoon Special Area
    Kasegaluk Lagoon Special Area, as established in 2004 during the 
George W. Bush administration, encompasses approximately 97,000 acres 
and includes the lagoon, its barrier islands and an area 1 mile inland 
from the shore of the lagoon. It was designated for its high values for 
marine mammals, wilderness character, and notable primitive recreation 
opportunities, and is a rich ecosystem on the Arctic Slope with marine 
tidal flats, a unique feature in the Arctic.\14\
---------------------------------------------------------------------------
    \14\ NPRA/IAP FEIS vol 1. p. 365.
---------------------------------------------------------------------------
Peard Bay Special Area
    The IAP established the Peard Bay Special Area. The Peard Bay 
Special Area encompass 1.6 million acres to protect haul-out areas and 
nearshore waters for marine mammals and habitat for waterbird and 
shorebird breeding, molting, staging, and migration.\15\
---------------------------------------------------------------------------
    \15\ NPRA/IAP FEIS vol. 1 p. 22.
---------------------------------------------------------------------------
    These Special Area designations incorporate the principles of 
conservation biology, focusing on ecosystem and watershed integrity and 
protection, buffer zones around critical wildlife habitats, and 
protected corridors for movement of animals between diverse uplands and 
coastal areas or between seasonal areas of use. The designations are 
also based on the best available information regarding habitat and 
adaptation needs of wildlife and ecosystems that face dramatic shifts 
as the result of climate change. The designations also reflect the 
benefits for retaining wilderness values by leaving large ecosystems 
intact for wildlife and subsistence users.\16\ The current Special Area 
designations within the IAP are consistent with the intent of congress 
as provided for under the NPRPA.
---------------------------------------------------------------------------
    \16\ Gale A. Norton, Secretary of the Interior, January 22, 2004, 
Northwest NPR-A IAP/Final EIS, Vol. 1, page II-8; and, Record of 
Decision, p. 20. The wilderness values of the NPR-A were well detailed 
in the National Petroleum Reserve in Alaska Task Force, 1978, National 
Petroleum Reserve in Alaska, Values and Resources Analysis, Wilderness 
Resources, U.S. Department of the Interior, National Petroleum Reserve 
in Alaska, 105(c) Land Use Study, Study Report 2, section 4.
---------------------------------------------------------------------------
    For the reasons noted above, Congress specifically recognized the 
Teshekpuk Lake and Utukok Uplands areas as warranting ``maximum 
protection'' when it enacted the National Petroleum Reserve Production 
Act in 1976.\17\ Under NPRPA, Congress clearly established that while 
energy development was an important reason for initial establishment of 
the reserve in 1923, it is now a purpose that must be balanced with 
``conditions, restrictions, and prohibitions'' to ensure protection of 
the Reserve's extraordinary ecological values and subsistence 
resources. Past presidential administrations, both Republican and 
Democrat, have embraced the need for protection of these Special 
Areas.\18\ The IAP continues this bi-partisan support for balanced 
management through an expanded Teshekpuk Lake and Utukok Uplands 
Special Area and the creation of the Peard Bay Special Area. The 
following is a summary of the Special Area designations within the 
Reserve:
---------------------------------------------------------------------------
    \17\ See Pub. L. 94-258, 90 Stat 304 (1976) ("Any exploration 
within the Utukok River, the Teshekpuk Lake areas, and other areas 
designated by the Secretary of the Interior containing any significant 
subsistence, recreational, fish and wildlife, or historical or scenic 
value, shall be conducted in a manner which will assure the maximum 
protection of such surface values to the extent consistent with the 
requirements of this Act for the exploration of the reserve.")
    \18\ Past presidential administrations as philosophically disparate 
as those of former President Jimmy Carter and former President George 
W. Bush have embraced the need for protection of these areas. The 
Carter administration established the Teshekpuk Lake, Utukok Uplands 
and Colville River Special Areas in 1977. The George W. Bush 
administration created Kasegaluk Lagoon Special Area within the 2004 
Record of Decision for the Northwest NPR-A plan.

    <bullet>  In the 1976 NPRPA, congress recognized that Teshekpuk 
Lake and Utukok Uplands areas as warranting ``maximum protection''.
    <bullet>  In 1977, Secretary of Interior Cecil Andrus designated 
three Special Areas within the Reserve--the Teshekpuk Lake, the 
Colville River and the Utukok River Uplands Special Areas.
    <bullet>  Consistent with the 1998 Northeast Planning unit Record 
of the Decision, the Teshekpuk Lake and Colville River Special Areas 
were expanded.
    <bullet>  Consistent with the 2004 Record of Decision for the 
Northwest NPR-A planning unit, the George W. Bush administration 
created the approximately 97,000 acre Kasegaluk Lagoon Special Area.
    <bullet>  The IAP expanded the Teshekpuk Lake and Utukok River 
Uplands Special Areas and established the Peard Bay Special Area.

Oil and Gas Leasing & Exploration in the Reserve
    Consistent with the Congressional requirement within NPRPA to 
``conduct an expeditious program of competitive leasing of oil and gas 
in the Reserve'' \19\ the BLM has conducted numerous oil and gas lease 
sales within the Reserve. The IAP opens potential oil and gas leasing 
for approximately 11.8 million acres within the Reserve, including 72 
percent of the total recoverable oil reserves.
---------------------------------------------------------------------------
    \19\ 42 U.S.C. Sec. 6506a.
---------------------------------------------------------------------------
    Following President Obama's directive in May of 2011 \20\ that 
annual oil and gas lease sales be conducted in the Reserve, BLM offered 
3 million acres in December of 2011. That sale generated 17 winning 
bids covering more than 120,000 acres. Another lease sale on November 
7, 2012, offered 4.5 million acres and received 14 winning bids on 
160,088 total acres. There are now 191 authorized oil and gas leases in 
the Reserve, encompassing roughly 1.5 million acres.\21\ The following 
is a historic summary of the leasing program that has taken place in 
the Reserve:
---------------------------------------------------------------------------
    \20\ During his May 14, 2011 Weekly Address, President Obama 
announced new plans to increase domestic oil production. He directed 
the Department of Interior to conduct annual lease sales in the 
National Petroleum Reserve-Alaska. See: http://www.whitehouse.gov/the-
press-office/2011/05/13/weekly-address-president-obama-announces-new-
plans-increase-responsible-.
    \21\ As of April 4 2013, there are 191 active lease tracts in the 
NPR-A. See: http://www.blm.gov/pgdata/etc/medialib/blm/ak/aktest/
energy/npra_maps.Par.76062.File.dat/2012 NPR-A Oil & Gas Leases Rpt 02-
20-2013.pdf.

    <bullet>  There have been 12 lease offerings in the Reserve since 
1982.
    <bullet>  Over half of those lease sales were in the past decade 
and the vast majority of the 13.4 million acres within the Northeast 
and Northwest Planning areas have been offered for lease multiple 
times.
    <bullet>  There have been six lease sales in the Northeast Planning 
Area alone (1999, 2004, 2008, 2010, 2011 and 2012).
    <bullet>  The most recent Reserve lease sale offering was conducted 
by the Obama Administration on November 7, 2012 and was the fifth lease 
sale in 6 years.

    Consequently there has been ample opportunity for oil and gas 
exploration in the Reserve.

Industry Interest in the Reserve
    As a result of the 12 lease sales that have taken place since 1982 
and the 5 that have taken place in the last 6 years, over 7 million 
acres have been leased across large portions of the Reserve. In 
conjunction with these sales, extensive surveys have been conducted, 
and dozens of exploration wells have been drilled.
    However, in the past several years, the trend has been for industry 
to relinquish leases as opposed to the purchase additional tracts 
within the Reserve. The November 7, 2012 lease sale generated very 
little interest from industry. Of the 398 tracts compromising roughly 
4.5 million acres, only a total of 14 were purchased by 2 companies 
totaling a little over 160,000 acres.\22\
---------------------------------------------------------------------------
    \22\ November 7, 2012 NPR-A lease sale bid recap. See: http://
www.blm.gov/pgdata/etc/medialib/blm/ak/aktest/energy/2012K_NPR-
A_Lease_Sale_Docs.Par.53369.File.pdf/2012_NPR-
9A_Lease_Sale_Bid_Recap.pdf.
---------------------------------------------------------------------------
Standards for Future Development Within the Reserve
    The IAP opens up 11.8 million acres of the Reserve as available for 
oil and gas leasing. As the BLM continues to move forward with lease 
sales in the Reserve, we believe that it is critical for the agency to 
ensure that future infrastructure is located and constructed in the 
least invasive manner possible to ensure the Reserve's recognized 
values are protected.
    In particular, BLM should act to ensure that decisions about the 
location and construction of roads and other oil and gas related 
infrastructure are made pursuant to strong standards. Permanent roads 
in particular, are a concern, as they can result in a multitude of 
negative impacts, including destruction of habitat, disturbance of fish 
and wildlife, displacement of subsistence resources, and increased 
competition for those resources. Roadless development is now an 
accepted and viable option, used in many parts of the world including 
the sensitive tundra wetlands of the Arctic.
    During the planning process there was discussion and speculation 
regarding the potential construction of a western Arctic pipeline to 
extend across the Reserve to help facilitate oil and gas production in 
the Outer Continental Shelf. At the same time, the IAP EIS did not 
analyze impacts of pipeline scenarios. Any future proposal to locate 
and construct such a pipeline across the Reserve must, therefore, go 
through a separate permitting process, including an analysis under the 
National Environmental Policy Act.

H.R. 1964--The National Petroleum Reserve Alaska Access Act
    There are several elements to the draft legislative proposal under 
review by the Subcommittee on Energy and Mineral Resources (H.R. 1964) 
``The National Petroleum Reserve Alaska Access Act''). These include 
provisions that would:

    <bullet>  Effectuate a fundamental change to existing policy in the 
NPRPA that would undermine the requirement for balance that Congress 
has appropriately established in law for management of the Reserve, the 
Nation's single largest land management unit;
    <bullet>  Require the Secretary of Interior put forward a new IAP, 
thus nullifying the IAP that was the result of multi-year planning 
process where BLM evaluated the values and uses of the reserve thus 
forcing DOI to duplicate their efforts and waste considerable 
resources;
    <bullet>  Establish arbitrary fixed timelines for permit decisions 
and other authorizations regardless of their complexity;
    <bullet>  Require the Department of the Interior to undertake a 
redundant study of oil and gas resources within the NPRA after having 
just recently completed such an analysis.

    For all of the reasons discussed above, the provisions of this 
legislation are neither necessary nor beneficial. I urge the House 
Subcommittee on Energy and Mineral Resources to defer further action on 
the proposal.

Conclusion
    The Reserve, our Nation's largest unit of public lands, is an 
extraordinary landscape that contains an exceptional array of 
internationally significant surface values. The recently completed IAP 
appropriately balances oil and gas leasing consistent with the long-
standing Congressional recognition that the Reserve contains more than 
just oil and gas. Congress has properly required that oil and gas 
development in the Reserve should proceed in a manner that balances 
energy development with other public interests, specifically the 
protection and conservation of the Reserve's Special Areas and 
exceptional biological resources. The IAP reflects this intent.
    As future development is considered there are important issues of 
national and local interest regarding where and how any such 
development is undertaken. Given the immense size of the Reserve, 
balance can be achieved between development and protection of the 
Reserve's Special Areas, which contain extraordinary surface values.
    The DOI is to be commended for adopting a very fair and balanced 
approach to resource development and protection of the Special Areas in 
the Reserve through the approved IAP in concert with the law.
                                 ______
                                 
    Mr. Lamborn. You are very welcome. Thanks for being here.
    Mr. Spehar.

  STATEMENT OF JAMES G. SPEHAR, FORMER MAYOR, GRAND JUNCTION, 
                            COLORADO

    Mr. Spehar. Thank you, Mr. Chairman. It is a pleasure to be 
here in front of my son's Congressman and my own Congressman, 
and I thank you for the invitation. I am pleased to be here 
also, because energy jobs are important in my personal, 
professional, and public lives. Coal mining brought my great-
grandfathers to western Colorado six generations ago. I have 
owned small businesses in both boom and bust cycles in my home 
town of Grand Junction, Colorado. I also helped govern my 
community as a county commissioner, city councilman, and mayor 
in both good times and bad.
    I have worked hard to create good jobs, as a former member 
of the Colorado Economic Development Commission, and the past 
board member of our local economic development organization. 
And I have worked with other communities as a former President 
of the Colorado Municipal League and a past board member of 
Associated Governments of Northwest Colorado, an epicenter of 
energy development in the West.
    What have I learned that is important to today's discussion 
of H.R. 1965 and H.R. 1394? First, take care of jobs you 
already have. Next, quality of life ultimately trumps 
everything else in job recruitment. Third, you can't sustain or 
develop jobs where markets don't support them. And, finally, 
never put all of your eggs in one basket.
    H.R. 1965 and H.R. 1394 create issues in each of those 
areas. They seem to prioritize energy development over other 
uses of our public lands, upending the multiple-use philosophy. 
That threatens jobs in agriculture, tourism, and outdoor 
recreation, hunting and fishing, and other existing multi-
million-dollar economic drivers that also rely on our Federal 
lands.
    We appreciate every good job where I come from, but have 
learned the hard way about the dangers of putting most of our 
eggs in the energy basket. We have experienced four significant 
boom and bust cycles in my lifetime, and I have personally 
witnessed three of those cycles. As a result, communities in 
Mesa County are focused on diversifying our economy.
    For western Colorado, conservation has been a critical 
economic tool and, in Federal policy, must be placed on equal 
ground with energy development to have long-term sustainable 
economic growth. One of our significant international 
manufacturers was introduced to Grand Junction when the owners 
came to recreate. That reinforces to me that quality of life 
and access to public lands are important economic tools.
    Members of my own family are among ranchers holding public 
land grazing leases. Water originating on public land irrigates 
feed crops and sweet corn, wine grapes and fruit trees, and 
supports significant tourism. Those important job generators 
rely on public lands and should not be relegated below energy 
development in the management of those lands.
    H.R. 1965 and H.R. 1394 would substitute Federal Government 
mandates for marketplace realities. The major constraints on 
production on public lands result from low prices for dry 
natural gas. The Director of the Energy Information 
Administration put it this way recently. He said, ``Liquids-
rich oil shale resources, where we are seeing rapid increases 
in production, are found largely outside of Federal lands.''
    We cannot legislate geology. We cannot force companies to 
shift their focus from the booming fields of the Bakken in 
North Dakota, or from mostly private lands in the Eastern 
United States to less profitable Federal lands in the West. 
Both H.R. 1965 and H.R. 1394 also presume too few drilling 
permits on Federal lands and too little public land available 
for leasing. But the U.S. Bureau of Land Management reports 
that the industry has more than 7,000 permits on public lands 
that are currently not utilized, also more than 26 million 
offshore acres and more than 20 million onshore acres that are 
currently leased but idle.
    Unfortunately, the legislation under consideration today 
would roll back the progress already being felt from 2010 
leasing reforms which have reduced protests and created more 
efficient processes.
    H.R. 1965 forces speculative commercial oil shale leasing 
in the absence of confirmed research demonstrating successful 
technologies. Mandates and quotas do not offer taxpayers either 
the best market-based financial return for the use of their 
public lands, nor the best assurances that necessary 
protections for water, air, wildlife, and communities are in 
place. That is why three successive State administrations in 
Colorado, both Republican and Democrat, have supported 
requiring completion of RD&D projects prior to commercial 
leasing.
    Our current Governor put it this way when the recent 
Department of the Interior decision was announced. ``We need to 
be thorough and have a full understanding of potential impacts 
to the environment and our community,'' Governor Hickenlooper 
said, ``before we take steps toward large-scale commercial 
leasing of oil shale.''
    Western Colorado learned hard lessons about the dangers of 
government intervention when, despite a $1.2 billion loan 
guarantee by the Reagan Administration, the last oil shale boom 
went bust on Black Sunday in May of 1982. Some local 
communities only recently paid off bond debt from 
infrastructure for sewer and water built to support that boom.
    My purpose is not to argue against a robust and successful 
oil and energy industry; we all want good jobs, energy 
independence, and a more certain future. But it is important to 
remember the lessons of the past. We can do better. Thank you 
for your time and consideration. I look forward to your 
questions.
    [The prepared statement of Mr. Spehar follows:]

 Prepared Statement of James G. Spehar, Former Mayor and City Council 
 Member, Grand Junction, Colorado, Past President, Colorado Municipal 
           League, Former Mesa County (Colorado) Commissioner

 H.R. 1965--FEDERAL LANDS, JOBS AND ENERGY SECURITY ACT AND H.R. 1394--
                PLANNING FOR AMERICAN ENERGY ACT OF 2013

    This written submission and my oral comments before the U.S. House 
of Representatives Subcommittee on Energy and Mineral Resources on the 
above referenced legislation are informed by many different 
perspectives.
    Energy extraction, coal mining, brought my great grandfathers from 
Eastern Europe to western Colorado, six generations ago. I have 
operated small businesses in both boom and bust energy industry cycles 
in my hometown of Grand Junction, CO, and have helped govern my 
community, which serves as the headquarters for much of the energy 
development in northwest Colorado, in both good economic times and bad 
as a county commissioner and city councilman and mayor. I have learned 
from other Colorado communities as a board member and past president of 
the Colorado Municipal League as well as on the board of directors of 
Associated Governments of northwest Colorado.
    My work as a former member of the Colorado Economic Development 
Commission and helping direct local economic development efforts as a 
past board member of the Mesa County Economic Development Commission 
(now the Grand Junction Economic Partnership) reinforced the importance 
of both job creation and retention.
    For nearly two decades, I have done consulting work on growth, 
energy, economic development, and workforce issues with local 
governments, their regional associations, State agencies, multi-
national energy companies and others. I assisted one of my early 
clients, Shell, with community outreach in early stages of their oil 
shale effort prior to the company becoming one of the original holders 
of multiple research and development leases on Federal lands.
    It is because of that varied background that I understand and 
identify with the efforts of Representative Tipton and Representative 
Lamborn in their focus on jobs, energy security and the need to plan 
aggressively for energy development. But my experiences also prompt me 
to urge caution as the subcommittee considers the approaches to these 
important issues as contained in H.R. 1965 and H.R. 1394.
    In general, these bills appear to prioritize energy development 
over other uses of our public lands, upending the multiple use 
philosophy and potentially threatening other important local jobs in 
agriculture, tourism and outdoor recreation, hunting and fishing and 
other multi-million dollar economic drivers that also rely on Federal 
lands. The risk is that we ultimately end up swapping an existing job 
in historic and less cyclical industries for a new one in an industry 
known for uncertainty, thus creating a less stable long term local 
economy.
    In western Colorado, the ever-increasing presence of recreation 
based jobs bolsters the economy. Just as importantly, small businesses, 
large companies and skilled workers call western Colorado home because 
of the quality of life provided by access to nearby public lands. 
Arbitrary leasing quotas would limit multiple uses in favor of the boom 
and bust nature of extractive industries.
    It is also true that public land policies of the current 
administration have not favored protection over development. President 
Obama and President George W. Bush have overseen more acres leased for 
development than have been conserved and the 112th Congress just last 
year became the first Congress since World War II not to pass a single 
piece of land conservation legislation.
    Since record keeping began by the BLM, more than 95 million acres 
have been leased for oil and gas development while only 25 million 
acres have been protected. Balance for the many diverse users that 
underpin the West's economies must be considered in bills such as those 
being considered today.
    H.R. 1965 and H.R. 1394 also seem to substitute Federal Government 
requirements for marketplace realities. Right now, the only major 
constraints on oil and gas production on Federal lands are the result 
of low commodity prices and the fact that, as Energy Information 
Administration Director Adam Sieminski testified before the Energy and 
Commerce Committee last year, rapidly liquids-rich shale where we 
resources where we are seeing rapid increases in production are found 
largely outside of Federal lands.
    Like it or not, we cannot legislate geology, nor can we force 
companies to shift their focus to less productive and less profitable 
Federal lands.
    Specific to H.R. 1394, requiring the Department of the Interior to 
develop a ``domestic strategic production objective'' for onshore 
energy production and then ``take all necessary actions'' to meet that 
objective could, in a time when supplies are increasing or demand is 
static, force continuing or perhaps even increasing production leaving 
local communities vulnerable to chocks from market collapses in those 
economies, giving a false sense of direction to the future development 
of those resources and resulting in additional exports that might 
ultimately threaten rather than assure domestic energy security.
    Certainly subcommittee members are aware that, despite efforts to 
increase domestic energy production and decrease reliance on imported 
energy supplies, one of our Nation's fastest growing exports is 
finished fuel products. U.S. exports of all finished fuels have more 
than doubled since 2006, averaging 107 million gallons per day for the 
first 8 months of 2012 and removing from the domestic market gasoline 
and diesel that might otherwise result in lower pump prices and reduced 
dependence on foreign imports. According to the Energy Department, the 
United States is a now a net exporter of fuel for the first time since 
1949,
    Just last Friday, May 17, acknowledging a glut of natural gas as a 
result of increased domestic production, the Department of Energy gave 
permission for a terminal in Freeport, Texas, that was originally built 
to handle imports of liquid natural gas to instead ship LNG to Japan. 
Fourteen other domestic terminals are reportedly seeking export 
permits. If all are approved, their total capacity would be 28.7 
billion cubic feet per day according to a Barclays's report.
    That means the United States could export more than 40 percent of 
the 70.1 billion cubic feet per day the Energy Information 
Administration estimates will be produced by domestic gas wells in 
2014.
    All of which begs the question of whether it is wise to attempt to 
force increased energy production on Federal lands when much of that 
product will flow overseas, creating short term economic gain but 
reducing domestic supplies, increasing consumer costs at home and 
diminishing prospects for U.S. energy independence.
    Western Colorado learned the hard way about the dangers of 
government intervention without having the market solidly on your side 
when billion dollar loan guarantees and promises of a booming work 
force came crashing down on ``Black Sunday'' in May 1982, leaving 
communities liable for local infrastructure costs, some of which have 
only recently been paid off.
    Both H.R. 1965 and H.R. 1394 also appear to presume too few 
necessary drilling permits on Federal lands and too little public land 
available to be leased for energy development. The U.S. Bureau of Land 
Management reports that the industry has accumulated more than 7,000 
permits on public lands that are currently not being utilized and more 
than 26 million offshore acres and more than 20 million onshore acres 
that are currently leased but idle.
    A Recent Congressional Research Service Report which gained media 
attention explained the Federal permitting question as follows: ``Some 
critics of this lengthy timeframe highlight the relatively speedy 
process for permit processing on private lands. State agencies permit 
drilling activity on private lands within their State, with some 
approving permits within 10 business days of submission. But 
oftentimes, some surface management issues are negotiated between the 
oil producer and the individual land/mineral owner. A private versus 
Federal permitting regime does not lend itself to an ``apples to 
apples'' comparison.''
    That same report questions the need for Federal policies like the 
bills under consideration today stating, ``There is however, continued 
interest among some in Congress to open more Federal lands for oil and 
gas development and increase the speed of the permitting process. But 
having more lands accessible may not translate into higher levels of 
production on Federal lands, as industry seeks out the most promising 
prospects and highest returns.''
    The legislation under consideration today, I would assume, is meant 
to make the system more efficient. Yet the practical implications of 
many of the provisions proposed would have the opposite effect. In 
western Colorado, a number of recent leasing proposals have drawn 
controversy not from environmentalists but by interests ranging from 
farmers and ranchers to municipal water providers, Republican county 
commissioners and even archeological concerns. Proposals put forth by 
the Colorado BLM Director have even included leasing a local town dam, 
and in areas where new forms of organic farming exist, sparked by the 
demand for organic produce that the market has called for in recent 
years, that didn't exist 30 years ago when the original Resource 
Management Plan was written.
    Colorado has been woefully behind other States, even Utah and 
Wyoming, in instituting many of the leasing reforms developed in 2010. 
These reforms have been driving down protests and making for a more 
efficient and shorter process for industry elsewhere in the country, 
but because Colorado hasn't moved forward with tools such as Master 
Leasing Plans, the process has remained troubled and inefficient for 
all parties involved. Unfortunately, the legislation under 
consideration today would roll back the progress already being felt by 
the 2010 leasing reforms.
    According to the BLM ``The percentage of BLM leases protested 
declined again in fiscal year 2012, which ended Sept. 30, continuing a 
trend that began in 2009. Protests were lodged on fewer than 18 percent 
of the 2,064 parcels offered for sale during FY 2012, the lowest 
percentage since FY 2003, when the filing of protests began to 
accelerate. Protests, which can cause delays, court battles and 
increase development costs, reached a high of more than 47 percent in 
2009. In response to this gridlock, in May 2010, Interior Secretary Ken 
Salazar undertook reforms to the leasing program that have resulted in 
fewer protests.''
    It is also worth asking if forced leasing, either by requiring 
specific percentages of land to be leased for drilling or by 
speculatively leasing Federal land for oil shale development in the 
absence of confirmed research demonstrating successful technologies, 
offers taxpayers either the best market-based financial return for use 
of their public lands or the best assurance necessary protections are 
in place.
    While efficiency ought to be the goal of all of us who have been 
involved in government at every level and a reasonable expectation on 
the part of those we serve, getting things done as quickly at the 
lowest cost should not come at the expense of public safety, 
environmental responsibility or by shifting the burden to existing 
local taxpayers for infrastructure and services required by industry.
    For many years, the avowed goal for research, development and 
demonstration projects in the oil shale industry, as repeatedly stated 
by industry leaders, has been to create technologies and processes that 
are environmentally responsible, socially acceptable and economically 
sustainable. There has also been an expressed desire for certainty 
that, if successful in meeting those stated goals, they will be allowed 
to proceed with profitable production.
    Let me suggest that environmental responsibility, social 
acceptability, economic sustainability and certainty regarding 
infrastructure and service expectations are just as important for the 
communities that host energy industries. In some important respects, 
H.R. 1965 would hinder achievement of those goals.
    Merely increasing the speed does not assure the journey will be 
successful. Fast-tracking commercial leasing for oil shale development 
is problematic for several reasons.
    It ignores the fact that most major companies involved in the 
research, development and demonstration projects continue to say a 
commercial production is 7-10 years in the future, something they've 
been saying ever since I first began my own oil shale work more than 15 
years ago.
    It ignores the fact that technical issues, not lack of availability 
of land or burdensome regulations, have caused more than a year's worth 
of delay in firing up the heaters for the AMSO/Total research, 
development and demonstration project in northwest Colorado.
    It does not recognized that in Utah, where companies such as Red 
Leaf and Enefit intend to use modern versions of older mining and 
retorting technologies, those companies are several years away from 
production despite having access to State, Federal and private lands 
sufficient to sustain their planned operations for many decades.
    That is also true in Colorado, where newer in situ processes are 
being tested. Anticipated conversion of acreages available to Colorado 
RD&D lessees who might eventually demonstrate successful technologies 
will also allow profitable long term operations while creating market 
based cost structures for additional leasing, providing more realistic 
returns to taxpayers for minerals extracted from public lands.
    H.R. 1965 fails to acknowledge that easier opportunities using 
existing technologies such as hydraulic fracturing have brought new 
shale oil and shale gas, products entirely different from oil shale, 
into the market, impacting market supplies and prices and therefore 
making the economics of heating rock to produce liquid that must then 
be refined into usable oil even more difficult.
    Speculatively leasing large tracts of land for commercial oil shale 
development while at the same time short-circuiting the review process 
and limiting public participation in it presumes supposed benefits 
before viable technologies assure success while ignoring the necessity 
of dealing proactively with impacts.
    On the ground, the reality is that local communities must provide 
services and infrastructure to support oil shale development, impacts 
which peak during the construction and start up phases long before 
revenues from production royalties and property taxes on new facilities 
kick in. That leaves existing local taxpayers and their governments on 
the hook absent some mechanism for up-front assistance.
    Though the last oil shale boom-bust cycle demonstrated the need for 
that sort of help, there is no mechanism in H.R. 1965 to provide for 
advance payments against future royalties, lease bonus payments, or 
other methods of assisting local governments in hosting a significant 
start up industry in the 3-5 years before that industry begins to pay 
its own way.
    Nor is there any mechanism to do as community leaders from 
northwest Colorado have been requesting since 2009 and commission a 
study of the potential cumulative impacts of imposing a commercial oil 
shale industry on top of existing energy and energy-supporting 
industries that include natural gas exploration, development and 
processing as well as pipeline construction, coal mining and power 
generation. Absent such a pro-active study, it appears that 
consideration of these impacts will be relegated to a shortened and 
much-restricted analysis under H.R. 1965 with reduced opportunity for 
public participation.
    It is also unfortunate that H.R. 1965 would revert the oil shale 
regulatory scheme back to the rules of the Bush Administration, 
subverting a years-long review now in the final stages of resolution. 
The BLM's own 2008 Programmatic Environmental Impact Statement (PEIS) 
acknowledges the lack of then-current information available regarding 
many issues. Subsequent analysis has brought an improved understanding 
in many areas and is reflected in the updated PEIS and proposed rules 
and regulations.
    Of particular concern is the royalty structure contained in the 
2005 Energy Policy Act, cutting initial oil shale royalty rates by more 
than half. Half of royalty payments are returned to States and local 
governments where the activity occurs. Reducing those rates diminishes 
the financial ability of local communities to support infrastructure 
and services a new industry finds necessary to create and sustain jobs.
    At a minimum, royalty rates for oil shale should equal the 12.5 
percent charged for other minerals on Federal lands. Even then, the 
partial distribution of those assessments on production back to State 
and local governments will come 3-5 years after they have faced 
increased infrastructure and service costs associated with the heaviest 
impacts, which occur during the construction and start-up phases. 
Anything less than 12.5 percent exacerbates that problem, unreasonably 
burdens current taxpayers and could have a potential negative impact on 
existing sustaining industries.
    We are all in favor of good jobs, energy independence and a more 
promising future. But it is important to remember the lessons of the 
past, when haste and Federal pressures fostered the oil shale boom that 
ended with the economically disastrous ``Black Sunday'' bust in May of 
1982.
    That is why the administrations of three Colorado governors, both 
Democrat and Republican, have argued at home and here in Washington as 
the 2005 Energy Policy Act and the 2008-2009 oil shale leasing rules 
were being promulgated, for a deliberate research and development-based 
process of determining the ultimate viability of oil shale development. 
That strategy is not apparent in H.R. 1965.
    The purpose of my oral and written testimony is not to argue 
against a robust and successful energy industry, but only to make 
certain that inevitable impacts and community needs are given equal 
consideration as we move forward. I thank you for inviting me and for 
your time and consideration.
                                 ______
                                 
    Mr. Lamborn. OK, I want to thank all of you for being here, 
and for your testimony.
    And for Ms. Miller and Mr. Spehar, I like the fact that you 
mentioned balance. That is what we are here for, to try to 
strike the right balance. I think, if we are careful, we can do 
it all. We can recreate, we can preserve, but we can use 
resources to supply energy to help our economy if we are 
careful and smart in how we do it. So, I also think this 
pendulum has swung too far toward no production and slowing 
production down. That is why my bill and some of the other 
bills are before us today.
    But let me turn to you, Mr. Glenn. And you have come a long 
ways also, I appreciate that. And you, Ms. Miller, have come a 
long ways, 5,000 miles, that is a long set of airplane flights.
    Mr. Glenn, you said that in drafting the final IAP there 
was insufficient meaningful consultation by the BLM with native 
land owners and municipalities after the record of decision had 
been authored. Can you elaborate on why this was insufficient, 
in your opinion?
    Mr. Glenn. Sure, thank you. There are millions of acres of 
land owned by the village corporations and the regional 
corporation. We don't have Indian reservations in Alaska. 
Instead, Congress has established these corporations, and each 
of us who are Native Alaskans are members, or shareholders of 
the corporations. They are land owners within the NPR-A.
    And then there are cities, city councils, tribal councils, 
and then our municipality, the real lion of residents, quality 
of life services, is the North Slope Borough. And you heard 
from the mayor earlier. None of these groups were sufficiently 
consulted with the BLM before the record of decision was 
created.
    Now, to their credit, since the record of decision they 
have promoted the idea of a working group in NPR-A that 
includes all of those groups that I just mentioned. It is just 
a shame that rubric was not created before the record of 
decision was made. So we think they were selective in who they 
talked to, and they didn't talk to native land owners or 
municipalities.
    Mr. Lamborn. OK, thank you. Mr. Ekstrom, I am going to ask 
you a question I have asked many other witnesses in similar 
hearings in the past. You describe how to get a permit on 
Federal service lands takes almost 300 days, 298 days, and yet 
it is a lot better dealing with States, with State land or 
States with private land. Can you explain why there is such a 
difference?
    Mr. Ekstrom. Mr. Chairman, I can. The State regulators are 
much closer to their constituents than Federal regulators, and 
they understand and advocate for the economic value that 
accrues to the State when the permit is issued, and when the 
development occurs. Frequently, with the overlay of Federal 
permit in addition to a State permit being required, you have 
stipulations and you have kind of a one-size-fits-all mentality 
that requires an incredible amount of satisfying bureaucracy 
that typically does not apply to a specific area within perhaps 
North Dakota or Colorado.
    The specific area I referred to on my map is the Pawnee 
Grasslands, which is largely developed and has a lot of 
producing property on it. And we are talking about a permit 
that might be for 40 acres that is inside of a drilling unit. 
Why that takes so long, I am not aware. But we suspect that 
part of it has to do with the culture within the organization 
that we have applied for the permit to.
    Mr. Lamborn. Also, as a follow-up, if the Federal process 
were streamlined, as the legislation would lead to, would there 
be more interest in exploring and developing energy on Federal 
lands, which I believe would lead to more income to the 
Treasury and a boost to the economy?
    Mr. Ekstrom. Mr. Chairman, there is no question about that. 
Our mandate internally at the organization which employs me is 
that we will avoid Federal acreage as much as possible, due to 
these unseemly delays that do not employ capital effectively. 
Our capital, our expenditures, seek their most efficient use. 
And so, the Federal acreage is not an efficient use, so it is 
naturally drawn to State and private acreage instead.
    Mr. Lamborn. OK, thank you. Representative Holt?
    Dr. Holt. Thanks. Mr. Spehar?
    Mr. Spehar. Yes.
    Dr. Holt. First, Mr. Lamborn previously introduced a bill 
similar to H.R. 1965 that ensured that the percentage of fees 
collected for wind and solar energy right-of-way authorizations 
would be used ``to facilitate the processing of wind energy and 
solar energy permit applications on BLM lands.'' In other 
words, the money collected would be used for renewable energy 
permitting.
    In the current version, H.R. 1965, as introduced, Section 
112 says that the revenues would be used by Interior 
specifically--it no longer says that the revenues would be used 
specifically for this permitting. What do you think about that 
change?
    Mr. Spehar. Well, obviously, Congressman Holt, there needs 
to be sufficient funding to assure that these permits and 
applications are processed in a timely manner. All of us, 
whatever level of government, want to see efficiency and all of 
that.
    My concern about royalty rates and all of that in the 
legislation is that they anticipate reducing royalty rates to 
encourage production. The problem with that is that half of 
those royalties are supposed to flow back to State and local 
governments, to allow them to deal with the impacts of the 
production. And discounting those royalty rates takes money out 
of the hands of the local governments and the State 
governments. It is intended to help feed the beast, if you 
will. The----
    Dr. Holt. But for the royalties that go back to the BLM, 
you don't particularly advocate that they be used, then, for 
renewables?
    Mr. Spehar. I really haven't looked deeply into that issue.
    Dr. Holt. OK, thanks. Ms. Miller, you note in your 
testimony that more than three decades ago Congress required 
that the Secretary assume responsibility for protecting 
significant subsistence, recreational, fish, wildlife, or 
historical or scenic values. Now, of course, what Congress does 
Congress can undo. And I suppose we could absolve the Secretary 
from that responsibility to protect significant recreational 
fish, wildlife, and historical values.
    But recognizing that still stands, do you think that H.R. 
1964 would undermine that decades-old requirement to balance 
energy development with environmental protection, historic 
preservation, recreational, and other use----
    Ms. Miller. I do. I think it----
    Dr. Holt [continuing]. In the NPR-A?
    Ms. Miller. I do think it undermines it from the standpoint 
that the Department of the Interior just spent 2\1/2\ years, 
through a public process involving 400,000 comments--I attended 
the scoping hearings in Alaska, I provided written testimony 
for the public hearings on the proposed alternatives. When I 
went to the scoping hearing there were 50 people in the room 
that all offered comments about this plan. They worked very 
hard at this, as far as getting input from Alaskans.
    I also would add, too, that there are 40 villages in 
Northern Alaska and Interior Alaska that depend on the Western 
Arctic caribou herd, and this is a herd that numbers about 
350,000. It has a range that is the size of Montana. We are 
talking a huge area. So there are many villages that depend on 
this herd for a subsistence harvest resource. And those 
villages, representatives from many of those villages made up 
what was called the Western Arctic Caribou Herd Working Group, 
and they made recommendations to the BLM. They also passed 30 
different resolutions reflecting 90 communities that supported 
the recommendations in the integrated activity plan, supporting 
the protection of the Utikok special area for the caribou, for 
the nursery grounds, supporting Teshekpuk Lake, which is also 
important for the Teshekpuk caribou herd for----
    Dr. Holt. And specifically with this language, do you think 
it undermines the Secretary's responsibility----
    Ms. Miller. Well, it----
    Dr. Holt [continuing]. That we gave----
    Ms. Miller [continuing]. Clearly undermines it. It----
    Dr. Holt. Secretary----
    Ms. Miller [continuing]. Throws out a good, balanced, 50/50 
plan, which provides 11.8 million acres open for oil and gas 
leasing, or 72 percent of the oil resources would be available 
to industry to extract, 11 million acres would be protected. 
And these are the most sensitive, biologically important lands, 
these special areas in the Reserve. One of them, the Kasegaluk 
Lagoon, actually was established under George W. Bush, under 
his Administration.
    The other four, extremely important habitat for caribou, 
for birds that come from six different continents if you go 
throughout the Reserve, grizzly bears--we are talking a rich 
land. And the archeological values, there is no place like the 
Reserve in terms of ancient history of indigenous people, the 
very first people that----
    Dr. Holt. Thank you for coming all this way and presenting 
your good testimony.
    Ms. Miller. Thank you very much.
    Mr. Lamborn. OK. Representative Tipton?
    Mr. Tipton. Thank you, Mr. Chairman, and I would like to 
particularly welcome two Coloradoans. And one in particular out 
of our district, Mr. Spehar. Thanks for being here.
    I did want to be able to clarify one point. In page two of 
your testimony in reference to H.R. 1965 and 1934, you state 
that the legislation seems to prioritize energy development 
over other missions under the BLM. Can you point in the bill, 
H.R. 1394, where it prioritizes?
    Mr. Spehar. Without digging into the piece of legislation 
here, I think in my mind, Congressman Tipton, the tone of it 
seems to elevate energy development above some of these other 
important economic drivers that we have. I am certain that is 
not your intent, and I----
    Mr. Tipton. It is not. The good news of legislation is if 
you don't prioritize it, it is not there. And if we do look--
and I had pointed out to Ms. Connell, and it is just really for 
informational purposes, in Section 2(a)1 of the bill we 
specifically note that this is going to be a balanced approach, 
we do not circumvent any of the FLPMA process or the balanced 
approach for the BLM. It is simply to be able to responsibly 
develop these resources and to be able to get people back to 
work in our area. And coming out of Grand Junction, one of the 
highest unemployment rates in our district and in our State, I 
know you understand the importance of that.
    So, Mr. Ekstrom, I would like to be able to talk to you, 
because you had talked really about jobs and responsible 
development of these resources. We have colleges right now that 
are graduating students that are now able to look for work. 
Just how important is accessing and responsibly developing 
these resources? How important is this to job creation?
    Mr. Ekstrom. Mr. Chairman, I believe it is fundamental to 
job creation. We have had this experience in North Dakota and 
dramatically demonstrated, we have a National Energy Center of 
Excellence established at Bismark State College. We have had a 
Department of Petroleum Engineering established at the 
University of North Dakota. The first graduates are coming out 
of there. They were recruited 2 years previous, when they were 
enrolled in this program. They were encouraged to bring their 
fellows with them. The University of North Dakota now has 
approximately 40 enrollees in petroleum engineering, where the 
program did not exist 5 years ago. So it is fundamental.
    In addition, what we are seeing is certificated employees 
coming out of the Bismark State College, 2-year certificates, 
associate degrees that are technically adept and technically 
trained to do the jobs that we have in the field. They are 
hired immediately. We have an unemployment rate that is 
effectively zero unemployment in North Dakota. The official 
number is somewhere around 2 percent. By promoting and 
advocating this development within the country in a reasonable 
and responsible way, we are able to put to work anyone who 
wishes to work. With the ability to pass a drug test and 
possession of a valid driver's license, you can get a job in 
oil and gas.
    Mr. Tipton. So, do you think that a comprehensive, 
responsible, all-of-the-above energy plan that is laid out in 
H.R. 1394, is that going to be able to help put people back to 
work when we need jobs in this country?
    Mr. Ekstrom. Mr. Chairman, without question it will 
dramatically improve the job outlook in this country.
    Mr. Tipton. These are good-paying jobs. I think that oil 
and gas industry, the average mean wage is $92,000. You think a 
few college graduates might like that?
    Mr. Ekstrom. The professional wage is approximately that. 
Those are graduates from the Colorado School of Mines. The 
average wage for all workers in oil and gas in the 
Intermountain West is approximately $65,000.
    Mr. Tipton. Good jobs.
    Mr. Ekstrom. Yes.
    Mr. Tipton. One thing I think we are all concerned about 
when we fill up at the gas pump, when we are trying to pay our 
bills at home, is the idea of what the cost is of the fuels 
that we are paying for. Is it a false assumption to assume that 
if we are creating this energy on American soil, even though we 
are part of the global economy, that we wouldn't see prices 
actually drop in this country?
    Mr. Ekstrom. Representative Tipton, there is no question 
about that. A dramatic increase in supply generally leads to a 
dramatic decline in price.
    Mr. Tipton. Thank you, and I yield back.
    Mr. Lamborn. OK. I want to thank the witnesses for being 
here and for giving your testimony. Members of the Committee 
may have additional questions for the record, and I would ask 
that you respond to these in writing.
    Before we adjourn, I want to ask you----
    Dr. Holt. Before you adjourn, may I ask for a colloquy with 
the gentleman from Colorado?
    Mr. Lamborn. Can you both do that after we adjourn, just to 
each other?
    Dr. Holt. I thought it would be good to have it on the 
record.
    Mr. Lamborn. I have got some deadlines here. Sorry about 
that.
    Mr. Tipton. But I would be happy to visit with you any 
time.
    Mr. Lamborn. I would ask unanimous consent that we also 
enter into the hearing record a letter from the Wilderness 
Society dated today, May 22.
    If there is no objection?
    [The lettter submitted for the record by Mr. Lamborn 
follows:]

Letter Submitted for the Record by The Honorable Doug Lamborn From The 
                           Wilderness Society

                                                      May 22, 2013.
The Honorable Doug Lamborn, Chairman,
Subcommittee on Energy & Minerals,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.

The Honorable Rush Holt, Ranking Member
Subcommittee on Energy & Minerals,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Chairman Lamborn and Ranking Member Holt:

    The Wilderness Society respectfully requests that this letter 
regarding: H.R. 1964, the ``National Petroleum Reserve Alaska Access 
Act''; H.R. 1965, the ``Federal Lands Jobs and Energy Security Act''; 
and, H.R. 1394, the ``Planning for American Energy Act of 2013'' be 
included in the May 22, 2013, Subcommittee on Energy and Minerals 
hearing record regarding these three bills.

Introduction
    As with almost identical proposals considered by this Subcommittee 
last year, these three bills are ``solutions in search of a problem.'' 
They are based upon at least three false premises: first, that current 
Federal policies are unnecessarily hindering oil and gas development on 
onshore Federal lands; secondly, that passage of these bills will 
create significant numbers of jobs; and third, passage will somehow 
lower the price of gas and oil to consumers. None of these premises are 
true.
    Today, the domestic oil and gas industry is thriving. The industry 
controls Federal leases on over 37 million acres of Federal public 
lands; they have operations on over 12 million acres of Federal onshore 
leases; two-thirds of all onshore acres leased remain inactive despite 
the increase in overall production; there are over 96,000 producing oil 
and natural gas wells on our public lands; thousands of Federal 
drilling permits are approved each year; and though the industry has 
acquired thousands of Federal drilling permits over the past several 
years, they are sitting on nearly 7,000 approved Federal drilling 
permits that, for reasons known only to itself, it is not using. And, 
while domestic natural gas prices are at historic lows, the persistent 
high price of gasoline is determined by world oil market dynamics, not 
by how much Federal land is made available for leasing, or by how many 
Federal drilling permits are issued in each year.
    Though none of these bills will result in lower energy prices for 
consumers, if passed they would increase the risk of harm to other 
natural resource values from oil and gas operations on Federal lands, 
reduce the opportunities for the public to participate in oil and gas 
management decisions, and make oil and gas extraction activities the de 
facto highest priority use of Federal public lands. They would repeal 
the recent reforms in the Bureau of Land Management's (BLM) oil and gas 
leasing and development policies. These reforms were adopted to create 
more certainty about where leasing and development is appropriate on 
the public lands, and were badly needed to restore a semblance of 
balance between the BLM's dual responsibilities to facilitate the 
careful development of our publicly-owned oil and gas resources, and to 
protect the multitude other natural resource and environmental values 
that these lands harbor.
    Additionally, one of the bills--H.R. 1965--minimizes, eliminates 
and penalizes public participation in leasing and drilling decisions on 
our public lands, thereby undermining the legitimacy of a decision-
making process that gives the owners of these lands--the public--the 
right to participate in decisions about how our public lands are 
managed. If passed, these bills would turn us back to the days when 
energy policy was dominated solely by oil and gas development instead 
of an approach which recognizes that multiple use requirements needed 
to accommodate balance and resolve competing energy, conservation, and 
recreational values of our public lands.
    There is simply no reason for Congress to place its thumb on the 
scale to advantage one user of our public lands--the oil and gas 
industry--over all others, as these bills would do. Our specific 
comment's on the three bills follows.

H.R. 1964
    We oppose passage of H.R. 1964 for the reasons set forth below.
    Sec. 5 of the bill would nullify the existing record of decision, 
integrated activity plan (IAP), and environmental impact statement 
(EIS) and give the Secretary of the Interior 6 months to come up with a 
new IAP/EIS that promotes ``maximum development of oil and gas 
resources.'' The new IAP/EIS would be required to select one of the 
alternatives analyzed but not selected in the 2012 EIS, any of which 
would result in an additional loss of 20-33 percent of high-value 
caribou calving habitat. In other words, the bill seeks to legislate 
the EIS's outcome.
    The 2012 plan was based on sound scientific research that analyzed 
wildlife distribution and uses of the important habitat within the 
NPRA, as well as subsistence use by numerous Native communities. The 
plan's protective measures were informed by over 400,000 comments from 
scientists, conservation groups, and Native communities. The plan 
balances conservation and development interests, and allows for oil and 
gas leasing on 11.8 million acres containing 72 percent of NPR-A's 
economically recoverable oil.
    Sec. 3 would unnecessarily require the Secretary to hold at least 
one lease sale annually (from 2013 to 2023) in areas of NPRA most 
likely to produce commercial quantities of oil and natural gas. This is 
an unnecessary provision as President Obama directed the Department of 
the Interior in 2011 to hold annual lease sales within the NPRA.
    Sec. 4(a) of the bill would require Federal agencies to 
``facilitate and ensure permits'' for all surface development 
activities, including for the construction of pipelines and roads. Sec. 
4(c) would require the Secretary of the Interior to submit to Congress 
a plan providing for rights-of-way for ``pipeline, road, and any other 
surface infrastructure that may be necessary'' to ensure that ``all 
leasable tracts in the Reserve are within 25 miles of an approved road 
and pipeline right-of-way.''
    The bill presumes that roads are required for NPRA development 
including alongside transmission pipelines. There are no roads 
alongside several long-distance transmission pipelines on the North 
Slope, nor are roads used to access every North Slope oil and gas 
prospect.
    Sec. 4(b) would require permits for roads and pipelines associated 
with a project to be issued within 60 days of approving a permit to 
drill, and within 6 months of the application for the permit to drill. 
Sec. 7(2)(B) appears to require all permits to be issued within 60 days 
of the submission of an application. Based on the language of Sec. 7, 
it is not clear whether the Secretary would have authority to deny a 
permit application. Regardless, 60 days is not enough time to assess 
the permanent impacts on the landscape and wildlife populations 
associated with a proposed road and obtain public comments under the 
NEPA.
    Sec. 6 would require the Secretary of the Interior to issue new 
regulations within 6 months to ``establish clear requirements to ensure 
that the Department of the Interior is supporting development of oil 
and gas leases in the National Petroleum Reserve-Alaska.'' This 
language is vague, and it is not clear how it would be interpreted. The 
Department of the Interior already has regulations providing 
specifically for oil and gas leases in NPRA (See 43 CFR Pt. 3130. See 
also 43 CFR 2360, Subpart 2361 (Management and Protection of the 
National Petroleum Reserve in Alaska) . Since the bill only amends 
Section 107(a) of the Naval Petroleum Reserves Production Act (NPRPA) 
of 1976 (42 U.S.C. 6506a(a)), the regulations would still need to 
adhere to language elsewhere in NPRPA calling for protection of the 
environment.\1\
---------------------------------------------------------------------------
    \1\ E.g., 42 U.S.C. 6504(a) (``Any exploration within the Utukok 
River, the Teshekpuk Lake areas, and other areas designated by the 
Secretary of the Interior containing any significant subsistence, 
recreational, fish and wildlife, or historical or scenic value, shall 
be conducted in a manner which will assure the maximum protection of 
such surface values to the extent consistent with the requirements of 
this act for the exploration of the reserve.''); 42 U.S.C. 6506a(b) 
(``Activities undertaken pursuant to this act shall include or provide 
for such conditions, restrictions, and prohibitions as the Secretary 
deems necessary or appropriate to mitigate reasonably foreseeable and 
significantly adverse effects on the surface resources of the National 
Petroleum Reserve in Alaska.'').
---------------------------------------------------------------------------
    Sec. 8 would require the U.S. Geological Survey, in cooperation 
with the State of Alaska and the American Association of Petroleum 
Geologists, to complete within 2 years ``a comprehensive assessment of 
all technically recoverable fossil fuel resources'' within NPRA, 
``including all conventional and unconventional oil and natural gas.'' 
In 2002, the U.S. Geological Survey estimated mean volumes of 9.3 
billion barrels of oil (BBO) and 55.7 trillion cubic feet (TCFG). In 
2010, USGS reduced this estimate to 896 million barrels of oil (MMBO) 
and about 53 trillion cubic feet TCFG. The 90 percent reduction of 
estimated oil reserves was due in part to ``recent NPRA exploration 
drilling which found gas rather than oil.'' \2\ With limited new 
drilling in recent years, a new assessment is unlikely to show greatly 
different results than what was found in 2010.
---------------------------------------------------------------------------
    \2\ USGS Economic Analysis Updated for the National Petroleum 
Reserve in Alaska (NPRA) (May 4, 2011), available at http://
www.usgs.gov/newsroom/article.asp?ID=2784.
---------------------------------------------------------------------------
    In summary, the new NPRA integrated activity plan provides an 
exemplary balance between oil and gas development on the NPRA with the 
protection of wildlife and wild land values. It is a ``win-win'' 
solution for both the oil and gas industry and protection of the 
environment. We see no reason for Congress to move forward with H.R. 
1964, which would unnecessarily undermine the balanced approached to 
oil and gas development in the NPRA established by the new integrated 
activity plan.

H.R. 1965
    Sec. 111 of H.R. 1965 unnecessarily constrains the BLM's ability to 
appropriately review the contents of Applications for Permits to Drill 
(APDs) beyond the statutory timeframes already established under Sec. 
366 of the Energy Policy Act of 2005 (EPCA). Worse, the provisions 
provides for the automatic approval of an APD after 60 days, if the 
agency has not made a decision on it by then. The rationale for this 
provision is based on the false premise that quicker action on APDs by 
the BLM will result in more drilling projects getting underway faster 
than under the BLM's present practices. That assumption ignores the 
fact that the oil and gas industry has obtained from the BLM nearly 
7,000 more drilling permits than it is using.
    Sec. 121 is apparently intended to discourage citizens from 
exercising their right to administratively appeal oil and gas leasing 
and permitting decisions by requiring citizens to pay a $5,000 
``documentation fee'' for all protests of leases, rights of way, or 
APDs. Of course, most citizens who may be affected by oil and gas 
leasing and permitting decisions on the public lands do not have the 
financial resources of the oil and gas industry to represent their 
interests in such matters, so the $5,000 fee is effectively a penalty 
assessment for citizens seeking to merely exercise their right to 
appeal.
    In furtherance of the notion that energy development, and in this 
case oil and gas development, should be the predominate use of our 
Federal public lands, Sec. 202 of H.R. 1965 requires that the BLM offer 
for lease at least 25 percent of all lands nominated by the oil and gas 
industry each year, prohibits the issuance of leases on these lands 
from being protested, and prohibits the applicability of NEPA to 
leasing decisions on these lands. It also requires the BLM to make 
available all lands that are currently ``open'' to leasing under 
existing land use plans within 18 months of enactment. It requires the 
BLM to offer leases in areas undergoing land use plan revisions, 
thereby severely inhibiting the agency's discretion to protect the host 
of other resource values that the agency is responsible for addressing 
under the Federal Land Policy and Management Act. And Section 205 
overturns Instruction Memorandum 2010-117, which re-established the 
policy that oil and gas development is one of many multiple-uses of the 
public lands that the BLM is responsible for managing under the Federal 
Land Policy and Management Act.
    Subtitle D of the bill advances the idea that energy development is 
the highest priority use for onshore Federal public lands in a number 
of unfortunate and unnecessary ways. It severely undermines judicial 
review opportunities pertaining to energy projects on Federal lands by 
limiting venue, the filing period for court actions, the standard of 
review, injunctive relief, and by eliminating attorney fees under the 
Equal Access to Justice Act. For example, Sec. 142 states that, ``In 
any judicial review of a covered civil action, administrative findings 
and conclusions relating to the challenged Federal action or decision 
shall be presumed to be correct, . . .'' This remarkable, prejudicial, 
and probably unconstitutional language directs the court's review of 
cases challenging energy development decisions regardless of the 
overall merits of a plaintiff's complaint. Section 146 goes on to 
improperly narrow the scope of injunctive relief available to the 
courts, including arbitrarily limiting such relief to 60 days, with 
limited opportunities for relief periods to be briefly extended. 
Finally, Section 147 prohibits the award of attorney's fees under the 
Equal Access to Justice Act for plaintiffs who successfully challenge 
energy project decisions.
    In summary, Title II of H.R. 1965 allows the oil and gas industry 
to make management decisions for the public lands owned by all 
Americans, rather than have those decisions made by the Federal agency 
charged with the responsibility of being stewards of these lands for 
all of us. It encourages the industry to speculate and ``lock up'' 
lands with marginal or non-existent development potential, which then 
hamstrings the BLM's ability to protect other values of the public 
lands. Moreover, the bill bars citizens--the owners of these lands--as 
well as other interested parties, like State and local governments, 
from administratively protesting leasing decisions if leases were 
improvidently issued. And drilling permit applications on those lands 
are automatically eligible for ``categorical exclusion'' from review 
under the National Environmental Policy Act under the auspices of Sec. 
390 of the Energy Policy Act of 2005, with no additional environmental 
review or opportunities for public input.
    Title III essentially codifies the Bush Administration's oil shale 
leasing policy, a policy that would have unnecessarily made millions of 
acres of Federal lands containing oil shale deposits available for 
disposal to oil shale speculators. As we have noted before, millions of 
acres of oil shale resources are already under the control of private 
entities (see, National Strategic Unconventional Resource Model, U.S. 
Department of Energy Office of Petroleum Reserves, April 2006, p. 6.), 
including oil shale deposits on public lands, representing hundreds of 
billions of barrels of oil equivalent. Yet, no successful commercial 
oil shale development has ever occurred on these lands. So there is no 
factual basis to the presumption that the only thing holding back a 
commercial oil shale industry is the lack of a commercial Federal 
leasing program.

H.R. 1394
    Finally, with respect to H.R. 1394, although the general idea that 
the Federal Government should strategically plan for energy development 
on the public lands is a laudable one, the bill unfortunately 
prioritizes fossil fuel development over renewable energy development, 
and--as with H.R. 1965--essentially elevates energy development as the 
highest priority use of our public lands.
    Both H.R. 1965 and H.R. 1394 undermine Congress' basic statutory 
directive to the BLM for how our public lands should be managed. That 
direction is found in Section 102(a)(8) of the Federal Land Policy and 
Management Act, sometimes known as ``FLPMA's Golden Rule'':
    It is the policy of the United States that the public lands be 
managed in a manner that will protect the quality of scientific, 
scenic, historical, ecological, environmental, air and atmospheric, 
water resource, and archeological values; that, where appropriate, will 
preserve and protect certain public lands in their natural condition; 
that will provide food and habitat for fish and wildlife and domestic 
animals; and that will provide for outdoor recreation and human 
occupancy and use.
    Since H.R. 1965 and H.R. 1394, if enacted, would make energy 
development the highest ``single use'' of our Nation's public lands, we 
strongly oppose these bills.
            Sincerely,
                                         David Alberswerth,
                                             Senior Policy Advisor.
                                 ______
                                 
    Mr. Lamborn. And if there is no further business to come 
before the Committee, the Committee stands adjourned.
    [Whereupon, at 12:19 p.m., the Subcommittee was adjourned.]

             [Additional Material Submitted for the Record)

    The following material submitted for the record has been retained 
the the Committee's official files.

By William W. Britain:

    --EnergyNet backgroung brochure
    --EnergyNet, MARKETPLACE QUARTERLY, 1<SUP>st</SUP> QUARTER, 2013
    --EnergyNet, MARKETPLACE QUARTERLY, 2<SUP>nd</SUP> QUARTER, 2013
    --EnergyNet, The BLM Live Internet Auction Act: The dicsussion of 
            the benefits this legislation could bring to the Bureau of 
            Land Management, http://www.energynet.com/blm--internet--
            auction.pl
    --EnergyNet, The Continuous Oil & Gas Property Marketplace, Harvard 
            Professor Market Analysis
    --ENERGYNET.COM, INC., Committee Report, Oil and Gas Lease Internet 
            Auction Pilot (OGLIAP), Kevin McDonald, 10/12/2009
    --ENERGYNET.COM, INC., Post-Sale Statistical Analysis Oil and Gas 
            Lease Internet Auction Pilot (OGLIAP), Kevin L. McDonald, 
            9/21/2009
    --ENERGYNET.COM, INC., Updated Research and Industry Feedback Oil 
            and Gas Lease Internet Auction Pilot (OGLIAP), 3/3/2010
    --The following Web site URL leads to a 10-minute video 
            presentation regarding the benefits of the BLM Live 
            Internet Auctions Act: http://www.energynet.com/
            blm_internet_auction.pl
BY: Deborah S. Miller:

    --ON ARCTIC GROUND, Tracking Time Through Alaska's National 
            Petroleum Reserve

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
